No. ___-_____
IN THE

Supreme Court of the United States
SHEILA J. POOLE, Commissioner of the
New York State Office of Children & Family
Services, in Her Official Capacity,
Petitioner,
v.
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
STEVEN C. WU
Deputy Solicitor General
CAROLINE A. OLSEN
Assistant Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
*Counsel of Record

i
QUESTION PRESENTED
The Adoption Assistance and Child Welfare Act of
1980 (CWA) delegates to the federal Department of
Health and Human Services the authority to approve
partial federal reimbursements to States that make
certain foster care maintenance payments to foster
parents.
The question presented is:
Whether the CWA’s criteria for partial federal
reimbursement unambiguously confer on foster
parents a private right of action to compel States
to cover the costs of all of the eligible expenses for
eligible children identified in the CWA.

ii
RELATED PROCEEEDINGS
Prior captions:
New York Citizens’ Coalition for Children v. Carrión
New York Citizens’ Coalition for Children v. Velez
U.S. District Court (E.D.N.Y.), No. 10-cv-3485
Decision and Order (Sept. 29, 2017)
Report and Recommendation (Nov. 7, 2016)
Decision and Order (July 17, 2014)
U.S. Court of Appeals (2d Cir.), No. 14-2919
Order and Dissenting Opinions (Aug. 16, 2019)
Opinions (Apr. 19, 2019)
Order (Oct. 23, 2017)
Summary Order (Oct. 29, 2015)

iii
TABLE OF CONTENTS
PAGE
Table of Authorities ....................................................iii
Opinions Below ............................................................ 1
Jurisdiction .................................................................. 1
Statutory Provisions Involved..................................... 1
Introduction ................................................................. 2
Statement .................................................................... 4
A. Statutory and Regulatory Background ............ 4
1. The States’ principal responsibility over
foster care .................................................... 4
2. The Adoption Assistance and Child
Welfare Act of 1980 (CWA) ......................... 6
3. The CWA’s provisions for HHS administration of reimbursements and for state
administrative and judicial review of
foster care maintenance payments ............. 8
4. New York’s foster care system .................. 10
B. Procedural History .......................................... 13
1. The panel opinion ...................................... 14
2. The dissenting opinion .............................. 15
3. The denial of rehearing en banc ............... 16
Reasons for Granting the Petition ............................ 17
I.

The Courts of Appeals Are Divided Over
Whether the CWA Confers a Privately
Enforceable Federal Right to Compel States
to Make Specific Foster Care Maintenance
Payments. ......................................................... 17

iv
PAGE
II. Whether the CWA Imposes a Privately
Enforceable Spending Mandate on States
Presents a Question of Exceptional
Importance to the States’ Ability to
Administer Their Foster Care Systems. ......... 22
III. The Decision Below Erred in Inferring a
Private Right of Action to Challenge the
Adequacy of State Foster Care Payments....... 27
IV. This Case Presents an Ideal Vehicle to
Resolve the Private-Right-of-Action Question
That Has Divided the Circuits. ....................... 33
Conclusion.................................................................. 34
Appendices
Appendix A – Opinions of the United States
Court of Appeals for the Second Circuit, filed
April 19, 2019 .......................................................1a
Appendix B – Order of the United States Court
of Appeals for the Second Circuit, dated
October 23, 2017 ..................................................63a
Appendix C – Decision and Order of the United
States District Court for the Eastern District
of New York, filed September 29, 2017 ..............65a
Appendix D – Report and Recommendation of
the United States District Court for the
Eastern District of New York, filed
November 7, 2016 ................................................77a
Appendix E – Summary Order of the United
States Court of Appeals for the Second
Circuit, dated October 29, 2015 ..........................94a

v
PAGE
Appendix F – Decision and Order of the United
States District Court for the Eastern District
of New York, filed July 17, 2014 ......................100a
Appendix G – Order and Dissenting Opinions
of the United States Court of Appeals for the
Second Circuit, dated August 16, 2019.............131a
Appendix H – Relevant Statutory Provisions ......147a

vi
TABLE OF AUTHORITIES
CASES

PAGE(S)

Armstrong v. Exceptional Child Center, Inc.,
135 S. Ct. 1378 (2015) ..................................... 16,31
Blessing v. Freestone, 520 U.S. 329 (1997) .......... 18,34
BT Bourbonnais Care, LLC v. Norwood, 866
F.3d 815 (7th Cir. 2017) ....................................... 20
California State Foster Parent Ass’n v.
Lightbourne, No. 07-cv-5086, 2011 WL
2118564 (N.D. Cal. May 27, 2011) ....................... 25
California State Foster Parent Ass’n v. Wagner,
No. 07-cv-5086, 2010 WL 5209388 (N.D. Cal.
Dec. 16, 2010) ....................................................... 25
California State Foster Parent Association v.
Wagner, 624 F.3d 974 (9th Cir. 2010) ................. 19
Cort v. Ash, 422 U.S. 66 (1975) ................................. 34
Cuvillier v. Taylor, 503 F.3d 397 (5th Cir. 2007) ..... 21
D.O. v. Glisson, 847 F.3d 374 (6th Cir. 2017) ........... 19
Does v. Gillespie, 867 F.3d 1034 (8th Cir. 2017) ...... 21
Gee v. Planned Parenthood of Gulf Coast, Inc.,
139 S. Ct. 408 (2018) .................................. 19,20,22
Gonzaga Univ. v. Doe, 536 U.S. 273 (2002) ...... passim
Legacy Cmty. Health Servs., Inc. v. Smith, 881
F.3d 358 (5th Cir. 2018) ....................................... 20
Matter of Claudio v. Dowling, 89 N.Y.2d 567
(1997) .................................................................... 32
Middlesex County Sewerage Auth. v. National
Sea Clammers Ass’n, 453 U.S. 1 (1981)............... 34
Midwest Foster Care & Adoption Association v.
Kincade, 712 F.3d 1190 (8th Cir. 2013).......... 17,18

vii
CASES

PAGE(S)

Moore v. Sims, 442 U.S. 415 (1979) ....................... 4,22
Pennhurst State Sch. & Hosp. v. Halderman,
451 U.S. 1 (1981) .................................................. 27
Planned Parenthood of Kan. v. Andersen, 882
F.3d 1205 (10th Cir. 2018) .............................. 20,21
State of Vt. Dep’t of Soc. & Rehab. Servs. v.
United States Dep’t of Health & Human
Servs., 798 F.2d 57 (2d Cir. 1986)........................ 22
Suter v. Artist M., 503 U.S. 347 (1992) ........... 26-28,34
Thompson v. Thompson, 484 U.S. 174 (1988) .......... 31
Touche Ross & Co. v. Redington, 442 U.S. 560
(1979) .................................................................... 34
Transamerica Mortg. Advisors, Inc. (TAMA) v.
Lewis, 444 U.S. 11 (1979)..................................... 34
Wilder v. Virginia Hosp. Ass’n, 496 U.S. 498
(1990) .................................................................... 34
Wright v. Roanoke Redev. & Hous. Auth., 479
U.S. 418 (1987) ..................................................... 30
Ziglar v. Abbassi, 137 S. Ct. 1843 (2017) ................. 21
LAWS
Ch. 531, 49 Stat. 620 (1935) ........................................ 5
Pub. L. No. 85-840, 72 Stat. 1013 (1958) .................... 6
Pub. L. No. 87-31, 75 Stat. 75 (1961) .......................... 6
Pub. L. No. 87-543, 76 Stat. 172 (1962) ...................... 6
Pub. L. No. 96-272, 94 Stat. 500 (1980) ................... 2,6
Pub. L. No. 110-351, 122 Stat. 3949 ......................... 29

viii
LAWS

PAGE(S)

28 U.S.C.
§ 1254 ...................................................................... 1
§ 1331 ...................................................................... 1
42 U.S.C.
§ 670 ........................................................................ 6
§ 671(a)(1) .......................................................... 7,28
§ 671(a)(12) ...................................................... 10,32
§ 672(a)(1) ..................................................... passim
§ 672(a)(2) ............................................................... 7
§ 672(a)(3) .......................................................... 7,13
§ 674(a) ................................................................ 8,9
§ 675(4)(A) .................................................... passim
§ 1320a-2............................................................... 26
§ 1320a-2a..................................................... 9,10,33
§ 1396a .................................................................. 20
N.Y. Family Court Act
§ 1015-a................................................................. 32
§ 1029 .................................................................... 32
§ 1055 .................................................................... 32
N.Y. Social Services Law § 398-a ......................... 10,13
ADMINISTRATIVE SOURCES
45 C.F.R. § 1356.71................................................. 9,10
83 Fed. Reg. 61,157 (Nov. 28, 2018)............................ 8
18 N.Y.C.R.R.
§ 427.3(c) .......................................................... 11,12
§ 427.6 .............................................................. 11,13

ix
MISCELLANEOUS AUTHORITIES

PAGE(S)

Congress
H.R. Rep. No. 96-900 (1979) (Conf. Rep.) ................... 8
S. Rep. No. 96-336 (1979) .......................................... 22
U.S. House of Representatives, Comm. on Ways
& Means, Green Book: Background Material
and Data on the Programs Within the
Jurisdiction of the Committee on Ways and
Means (2011), https://greenbookwaysandmeans.house.gov/2011-greenbook/chapter-11-childwelfare/child-welfarelegislative-history ................................................ 5,6
U.S. Department of Health & Human Services
Admin. for Children & Families, Child Welfare
Policy Manual,
https://www.acf.hhs.gov/cwpm/public_html/p
rograms/cb/laws_policies/laws/cwpm/policy_d
sp.jsp?citID=46 ................................................ 12,28
Admin. for Children & Families, Log No. ACYFCB-PI-10-11, Program Instruction (July 9,
2010),
https://www.acf.hhs.gov/sites/default/files/cb/
pi1011.pdf ............................................................. 29
Admin. for Children & Families, Log No. ACYFCB-PI-18-12, Program Instruction (Nov. 30,
2018),
https://www.acf.hhs.gov/sites/default/files/cb/
pi1812.pdf ............................................................... 9

x
MISCELLANEOUS AUTHORITIES

PAGE(S)

U.S. Dep’t of Health & Human Services (cont’d)
Admin. for Children & Families, Report to the
Congress on Kinship Foster Care (2000),
https://aspe.hhs.gov/report/report-congresskinship-foster-care ................................................. 4
Admin. for Children & Families, State vs.
County Administration of Child Welfare
Services—Child Welfare Information
Gateway (2018),
https://www.childwelfare.gov/pubs/factsheets
/services/ ................................................................. 5
Admin. for Children & Families, Title IV-E
Foster Care Eligibility Review Guide (Dec.
2012), https://www.acf.hhs.gov/sites/default/
files/cb/title_iv_e_review_guide.pdf ....................... 9
Office of the Assistant Secretary for Planning &
Evaluation, ASPE Issue Brief, How and Why
the Current Funding Structure Fails to Meet
the Needs of the Child Welfare Field (Aug.
2005), https://aspe.hhs.gov/report/federalfoster-care-financing-how-and-why-currentfunding-structure-fails-meet-needs-childwelfare-field/background-and-history-title-ive-foster-care ................................................ 13,23,29
N.Y. Office of Children & Family Services
Agency Plan for Title IV-E of the Social
Security Act (2013),
https://ocfs.ny.gov/main/sppd/state-plans.php ...... 9

xi
MISCELLANEOUS AUTHORITIES

PAGE(S)

N.Y. Office of Children & Family Services (cont’d)
Foster Care Maintenance Coding Desk Guide
(Feb. 4, 2019),
https://ocfs.ny.gov/main/fostercare/titleive/assets/TitleIV-E-Foster-Care-Coding-DeskGuide.pdf .............................................................. 12
Maximum State Aid Rates for Foster Care
Boarding Home Payments and Adoption
Subsidies, 2018-2019 Rate Year (July 1,
2018-March 31, 2019),
https://ocfs.ny.gov/main/policies/external/ocfs
_2018/ADM/18-OCFS-ADM-21-Att-A.docx .... 11,24
Primary Review: Title IV-E Foster Care
Eligibility; Report of Findings for October 1,
2017-March 31, 2018,
https://ocfs.ny.gov/main/fostercare/titleive/docs/2018-Title-IV-E-FCE-ReviewSummary.pdf ................................................... 11-12
Other Sources
Kerry DeVooght & Dennis Blazey, Family Foster
Care Reimbursement Rates in the U.S.: A
Report from a 2012 National Survey on Family
Foster Care Provider Classifications and Rates
(2013), https://www.childtrends.org/wpcontent/uploads/2013/04/Foster-CarePayment-Rate-Report.pdf ................................. 5,24
Catherine E. Rymph, Raising Government
Children: A History of Foster Care and the
American Welfare State (2017) ......................... 4,23

xii
MISCELLANEOUS AUTHORITIES

PAGE(S)

N.Y. Temp. State Comm’n on Child Welfare,
The Children of the State: Child Protective
Services in New York (1980),
https://nysl.ptfs.com/data/Library1/Library1/
pdf/6758076.pdf ...................................................... 4

PETITION FOR A WRIT OF CERTIORARI
Sheila J. Poole, the Commissioner of the New York
State Office of Children and Family Services, respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Second Circuit in this case. 1
OPINIONS BELOW
The Second Circuit decision that is the subject of
this petition (Pet. App. 1a-28a) is reported at 922 F.3d
69. An earlier Second Circuit order (Pet. App. 94a99a), which remanded the case for a determination of
the plaintiff’s standing, is reported at 629 F. App’x 92,
and the order restoring jurisdiction to the Second
Circuit is reproduced at Pet. App. 63a-64a. The district
court’s opinions (Pet. App. 65a-76a, 100a-130a) are
reported at 2017 WL 4402461 (standing) and 31 F.
Supp. 3d 512 (merits).
JURISDICTION
The district court exercised jurisdiction pursuant
to 28 U.S.C. § 1331. The Second Circuit issued its
decision on April 19, 2019. A timely petition for
rehearing en banc was denied on August 16, 2019. The
jurisdiction of this Court is invoked pursuant to 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The pertinent provisions of the CWA, 42 U.S.C.
§ 670 et seq., are reproduced at Pet. App. 147a-269a.

1

Commissioner Poole was confirmed on June 20, 2019.

2
INTRODUCTION
Foster care in this country has traditionally been
the responsibility of the States. Decisions regarding
child welfare involve sensitive policy judgments, and
States have made diverse choices about the administration, funding, and coverage of their foster care
systems. In the Adoption Assistance and Child Welfare
Act of 1980 (CWA), Pub. L. No. 96-272, 94 Stat. 500
(codified at 42 U.S.C. § 670 et seq.), Congress respected
the States’ historic role by offering States partial
reimbursement for their foster care expenditures—
limited to certain children and certain expenditures
that meet federal criteria—but otherwise left States
with broad leeway to structure and administer their
foster care systems as they see fit.
Here, the United States Court of Appeals for the
Second Circuit fundamentally upended this scheme by
misconstruing the CWA’s criteria for partial federal
reimbursement of certain expenses as an affirmative
spending mandate on the States, payable out of state
funds, to cover federally specified expenses at a rate to
be determined by federal courts in suits brought by
individual foster parents. In so holding, the Second
Circuit deepened an acknowledged and entrenched
circuit split about whether the CWA creates such a
privately enforceable federal right. Because this issue
seriously affects the federal-state balance that
Congress sought to preserve in the CWA, this Court’s
review is urgently warranted.
The crux of the dispute here is whether Congress
intended to impose a vast new payment obligation on
the States, enforceable by individual foster parents in
federal court, when it provided in the CWA that, in
order for a State to be eligible to receive federal

3
reimbursement, the State “shall make foster care
maintenance payments,” 42 U.S.C. § 672(a)(1), and
then listed several categories of such payments, id.
§ 675(4)(A). The most natural reading of these provisions in context is that Congress intended to identify
certain categories of state payments that would be
eligible for partial federal reimbursement, but left to
the States in the first instance the determination of
which payments to make and at what rates. That
interpretation accords both with Congress’s longstanding recognition of the States’ primary role in
managing foster care, and with the consistent position
of the federal Department of Health and Human
Services (HHS), which supervises state compliance
with the CWA. The Second Circuit concluded otherwise, holding that Congress was not merely identifying
reimbursable expenditures, but instead dictating
mandatory spending by the States, and that this
spending obligation was enforceable by foster parents,
not just HHS.
That holding, if allowed to stand, will have
enormous consequences for New York and other
States. Under the Second Circuit’s decision, the
adequacy of the States’ foster care maintenance
payments would be supervised by individual federal
district courts, supplanting the complex rate-setting
procedures that nearly all States follow in setting
foster care maintenance payments. This intrusion on
state policy choices would be enforced not by the
expert federal agency that Congress chose to supervise
federal funding, but by individual plaintiffs in private
litigation. And the outcome of displacing the States’
traditional supervision over foster care will be to
require States to prioritize spending on the limited set
of children and expenses eligible for partial federal

4
reimbursement, at the expense of the broader population of children and expenses that New York and other
States have chosen to cover.
Certiorari is warranted to resolve the circuits’
deep division on this important issue and to restore
the respect for state choices about foster care that
Congress sought to preserve in the CWA.
STATEMENT
A. Statutory and Regulatory Background
1. The States’ principal responsibility
over foster care
Foster care in the United States is, and always has
been, a “traditional area of state concern.” Moore v.
Sims, 442 U.S. 415, 435 (1979). Antecedents to modern
foster care emerged in the nineteenth century as
charitable enterprises run by religious organizations
and philanthropic agencies. Over time, States and
localities assumed an ever-increasing role in the care
of children living outside of their family homes, first
by providing financial assistance to private entities
arranging for the care of orphaned and impoverished
children, and later by establishing and administering
their own state or locally administered foster care
programs. 2 Each State has developed its own foster
See Catherine E. Rymph, Raising Government Children:
A History of Foster Care and the American Welfare State 20-42
(2017); Admin for Children & Families, U.S. Dep’t of Health &
Human Servs., Report to the Congress on Kinship Foster Care
13-16 (2000) (internet); N.Y. Temp. State Comm’n on Child
Welfare, The Children of the State: Child Protective Services in
2

5
care system, with distinct administrative structures,
levels of financial support, and areas of coverage. 3
The federal government began providing limited
financial assistance to state foster care systems in the
1930s, but it has continued to leave questions of policy
and implementation largely to the States. Starting
with the Social Security Act (SSA) of 1935, Congress
made regular appropriations ($1.5 million for the first
year, with modest increases thereafter) to be allocated
among all of the States to help them “in establishing,
extending, and strengthening, especially in predominantly rural areas,” public services for “homeless,
dependent, and neglected children, and children in
danger of becoming delinquent”—a broad category
that included, but was not limited to, children in foster
care. Ch. 531, § 521, 49 Stat. 620, 633. 4 In 1958,
among other changes, Congress eliminated the
previously established requirement that funds be
restricted to “predominantly rural” or “special need”
New York 3-7, 11-13 (1980) (internet). For sources available on
the internet, full URLs appear in the table of authorities. All
websites were last visited on October 30, 2019.
3 See, e.g., Kerry DeVooght & Dennis Blazey, Family Foster
Care Reimbursement Rates in the U.S.: A Report from a 2012
National Survey on Family Foster Care Provider Classifications
and Rates 2-3 (2013) (internet) (diversity in foster care reimbursement rates); Admin. for Children & Families, U.S. Dep’t of
Health & Human Servs., State vs. County Administration of
Child Welfare Services—Child Welfare Information Gateway
(2018) (internet) (diversity in administrative frameworks).
4 See also U.S. House of Representatives, Comm. on Ways &
Means, Green Book: Background Material and Data on the
Programs Within the Jurisdiction of the Committee on Ways and
Means, ch. 11 (2011) (internet) (describing the history of federal
financial support for state foster care programs).

6
areas, and established a variable rate for reimbursing
the States based, in part, on per capita income levels
in each State. See Social Security Act Amendments of
1958, Pub. L. No. 85-840, sec. 601, § 521, 72 Stat. 1013,
1053. 5 In 1961, Congress created the first financial
assistance program earmarked specifically to support
state foster care programs—an uncapped grant to
fund partial reimbursement to States for the costs of
providing foster care to children under the Aid to
Families with Dependent Children (AFDC) program.
See Pub. L. No. 87-31, 75 Stat. 75, 76-78 (1961); see
also Public Welfare Amendments of 1962, Pub. L. No.
87-543, § 131, 76 Stat. 172, 193 (making this grant
permanent).
2. The Adoption Assistance and Child
Welfare Act of 1980 (CWA)
In 1980, Congress enacted the CWA, which was
codified as a new Title IV-E to the SSA. Pub. L. No.
96-272, 94 Stat. 500 (codified as amended at 42 U.S.C.
§ 670 et seq.). The CWA created a permanent, openended program to provide partial reimbursement to
States for some of the costs they incur in caring for
some children in foster care. Like its predecessors, the
CWA was intended to support States’ efforts “to
provide, in appropriate cases, foster care” services, 42
U.S.C. § 670, while leaving States substantial discretion to administer their foster care programs according
to local needs.
The CWA provides the current framework for
federal financial assistance to state foster care
programs. State participation is voluntary. “In order

5

See id. (describing the 1958 amendments to the SSA).

7
for a State to be eligible” for the partial reimbursement of its foster care expenses under the CWA, the
State “shall have a plan approved by” HHS (known as
a “Title IV-E plan”) that, among other requirements,
“provides for foster care maintenance payments in
accordance with section 672.” Id. § 671(a)(1).
Section 672(a)(1) (entitled “Eligibility”), in turn,
provides that, to receive reimbursement, the State
“shall make foster care maintenance payments on
behalf of” certain children who satisfy federal eligibility requirements. These requirements include, among
other things, that the placement in foster care
comports with certain procedural requirements, and
that the child would have qualified for assistance
under the rules in effect for the now-defunct AFDC
program as of July 16, 1996. See id. § 672(a)(2), (3).
Federal reimbursement for foster care maintenance payments under the CWA is limited in three
different respects. First, as explained above, federal
reimbursement is available only for payments made
on behalf of certain eligible children.
Second, even for eligible children, only certain
specified expenses are eligible for reimbursement.
The CWA defines reimbursable “foster care maintenance payments” to “mean[] payments to cover the cost
of (and the cost of providing) food, clothing, shelter,
daily supervision, school supplies, a child’s personal
incidentals, liability insurance with respect to a child,
reasonable travel to the child’s home for visitation,
and reasonable travel for the child to remain in the
school in which the child is enrolled at the time of
placement.” Id. § 675(4)(A). Congress added this
definition because, before the CWA, federal law had
no general definition of a “foster care maintenance
payment” that would limit federal reimbursement to

8
“only those items which are included in the case of
foster care provided in a foster family home.” H.R.
Rep. No. 96-900, at 49 (1979) (Conf. Rep.).
Third, even for eligible expenses made on behalf of
eligible children, each State is reimbursed for a only
portion of its foster care costs—namely, an amount
equal to the State’s federal medical assistance
percentage (FMAP), which is the percentage of the
federal government’s contribution to the State’s
Medicaid program. See 42 U.S.C. § 674(a). New York,
for example, is reimbursed under the CWA for only
fifty percent of the costs of eligible expenditures made
on behalf of eligible children in foster care. 6
3. The CWA’s provisions for HHS
administration of reimbursements
and for state administrative and
judicial review of foster care
maintenance payments
HHS is responsible for ensuring that federal funds
are disbursed to the States in compliance with the
CWA’s requirements. It exercises that supervisory
responsibility in a number of ways.
First, HHS reviews and approves each State’s
Title IV-E plan. In practice, HHS requires each State
to fill out a pre-printed HHS form, in which a State
must identify the relevant statutes and regulations
that reflect its compliance with each CWA provision. 7
See Federal Financial Participation in State Assistance
Expenditures, 83 Fed. Reg. 61,157, 61,159 (Nov. 28, 2018).
7 See N.Y. Office of Children & Family Servs., Agency Plan
for Title IV-E of the Social Security Act (2013) (internet).
6

9
Second, States submit their qualifying expenditures to HHS every quarter—namely, the components
of their foster care maintenance payments that are
eligible for federal reimbursement under §§ 672(a)(1)
and 675(4)(A). 8 HHS then authorizes reimbursement
of a percentage of those expenditures, pegged to each
State’s FMAP. See 42 U.S.C. § 674(a)(1).
Third, every three years, HHS reviews each
State’s program to ensure that States “are in substantial conformity with” the requirement that they claim
Title IV-E reimbursement only for children who
satisfy § 672(a)(1)’s eligibility requirements and for
expenses that satisfy § 675(4)(A)’s definition of foster
care maintenance payments. See 42 U.S.C. § 1320a2a(a); 45 C.F.R. § 1356.71. 9 To that end, HHS audits
the case records and complete payment history for a
random sample of eighty children for whom a State
has claimed Title IV-E reimbursement. See 45 C.F.R.
§ 1356.71(c). 10 If, based on this review, HHS determines that payments were made to five or fewer
ineligible children, the State is deemed to be in
“substantial compliance” with the CWA. Id.
§ 1356.71(c)(4). 11 If HHS identifies payments to more
than five ineligible children, the State is deemed “not
in substantial compliance.” Id. § 1356.71(c)(5).

See Admin. for Children & Families, U.S. Dep’t of Health
& Human Servs., Log No. ACYF-CB-PI-18-12, Program
Instruction (Nov. 30, 2018) (internet).
9 See also Admin. for Children & Families, U.S. Dep’t of
Health & Human Servs., Title IV-E Foster Care Eligibility Review
Guide 4 (Dec. 2012) (internet).
10 See also id. at 4-5 & app. 1.
11 See also id. at 4-5.
8

10
If a State is found to be not in “substantial
conformity,” HHS must afford it “an opportunity to
adopt and implement a corrective action plan” that is
“designed to end the failure to so conform.” 42 U.S.C.
§ 1320a-2a(b)(4); see also 45 C.F.R. § 1356.71(c)(5), (h).
If a State fails to take corrective action, HHS may
withhold a State’s Title IV-E funds in full or in part.
See 42 U.S.C. § 1320a-2a(b)(4)(c).
In addition to HHS review of Title IV-E
compliance, the CWA also requires States to provide
foster parents with an “opportunity for a fair hearing
before [a] State agency” when they believe they have
been improperly denied payment for foster care
expenses. Id. § 671(a)(12). The state agency’s decision
after fair hearing may then be challenged through the
State’s ordinary avenues for judicial review of
administrative actions.
4. New York’s foster care system
Under New York Social Services Law (SSL) § 398-a,
the New York Office of Children and Family Services
(OCFS) establishes standards of payment to foster
parents to help cover the costs of caring for children in
foster care. The standards of payment, in turn, are
used to determine a payment “rate,” which is a flat
monthly payment per child that varies depending on
the age of the child and whether the child’s needs
warrant a “basic,” “special,” or “exceptional” rate. See
18 N.Y.C.R.R. § 427.6. This lawsuit concerns only the
adequacy of New York’s “basic” rate. 12
For 2018-2019, New York’s basic rate was $625 for
children who were five or younger in the New York City
metropolitan area and $570 upstate; up to $735 per month for
12

11
From the outset of this scheme in 1974, the basic
rate has been calculated based on a general determination of the prevailing costs of food, personal care,
household furnishings, household operations, education, recreation, transportation, parental supervision,
and shelter—expenses that are listed in § 675(4)(A). 13
This basic rate thus does not reimburse for particular
expenditures made by foster parents, but rather
provides a flat aggregate subsidy. New York law does
provide individual reimbursements in the form of
additional “special payments” for items and services
that are not encompassed by the basic rate, such as
diapers, cribs, high chairs, prom attire, music lessons,
recreation, and school expenses. See 18 N.Y.C.R.R.
§ 427.3(c).
After the CWA was enacted in 1980, HHS
approved New York’s receipt of federal funding under
this rate-setting scheme. 14 HHS has approved New
York’s state plan continuously since 1982. In the most
recent triennial review in 2018, HHS found that New
York was in substantial compliance with the CWA. 15
children who were six to eleven in the New York City metropolitan area and $687 upstate; and up to $855 per month for
children who were twelve years or older in the New York City
metropolitan area and $795 upstate. See N.Y. Office of Children
& Family Servs., Maximum State Aid Rates for Foster Care
Boarding Home Payments and Adoption Subsidies, 2018-2019
Rate Year (July 1, 2018-March 31, 2019) (internet).
13 See Decl. of David Hasse ¶¶ 3, 12-16, Dist. Ct. ECF No. 55,
at 2, 7-9.
14 See id. ¶ 3, ECF No. 55, at 2.
15 See Decl. of John Stupp ¶¶ 32-44, Dist. Ct. ECF No. 77-1,
at 105-08 (history of New York’s state plan); N.Y. Office of
Children & Family Servs., Primary Review: Title IV-E Foster

12
During New York’s quarterly submission of foster
care expenditures, as well as during the triennial
review process, HHS treats the entirety of New York’s
basic rate as being eligible for partial federal
reimbursement under the § 675(4)(A)’s definition of a
foster care maintenance payment, so long as payments
are made to Title IV-E eligible children. By contrast,
only some “special payments” are eligible for federal
reimbursement, depending on whether the special
payment falls within § 675(4)(A)’s list of reimbursable
expenditures. 16 For example, New York makes special
payments to parents for many types of recreation,
including music, art, and dancing lessons. See 18
N.Y.C.R.R. § 427.3(c)(2). HHS has determined that
“[r]eimbursement of recreation costs per se is not
permitted under title IV-E” based on the “definition of
‘foster care maintenance payments,’” although the
“occasional cost of such items as tickets or other
admission fees” may fall within § 675(4)(A)’s coverage
of a child’s “personal incidentals.” 17
Federal funding does not come close to fully
covering all of New York’s foster care expenditures.
First, as explained above, New York makes a variety
of special payments that are not reimbursable under
the CWA. Second, the State provides care and
maintenance to many more children in foster care
than the CWA considers eligible or reimbursable. For
Care Eligibility; Report of Findings for October 1, 2017-March 31,
2018 (internet) (results of 2018 review).
16 For a catalogue of special payments that are and are not
eligible for Title IV-E reimbursement, see the OCFS Foster Care
Maintenance Coding Desk Guide (Feb. 4, 2019) (internet).
17 Admin. for Children & Families, U.S. Dep’t of Health &
Human Servs., Child Welfare Policy Manual § 8.3B.1, Question
2 (internet) (“Child Welfare Policy Manual”).

13
example, while New York law does not take income
into consideration for purposes of foster payments, see
SSL § 398-a; 18 N.Y.C.R.R. § 427.6, the CWA
reimburses States only for children who would have
qualified for assistance under the ADFC rules in effect
as of July 16, 1996, see 42 U.S.C. § 672(a)(3)(A). Of the
15,633 children in foster care in New York as of
September 2019, only forty-six percent were Title IV-E
eligible. Finally, federal reimbursement covers only
fifty percent of the payments New York makes for
eligible expenses for eligible children. See supra at 8.
The eligibility restrictions under federal law
determine New York’s ability to obtain federal
reimbursement for its foster care maintenance
payments. They do not, however, enter directly into
New York’s calculation of payment levels for individual foster parents, which are defined by state law.
For that reason, foster parents are not generally
informed whether a child is Title IV-E eligible; they
are not required to establish federal eligibility before
receiving foster care maintenance payments under
state law; and federal eligibility does not affect foster
care placement decisions made by judges or social
workers. 18
B. Procedural History
The New York State Citizens’ Coalition for
Children (Coalition) is a nonprofit organization that
represents the interests of foster care parents and
other groups and agencies that provide services to
See Office of the Assistant Secretary for Planning &
Evaluation, U.S. Dep’t of Health & Human Servs., ASPE Issue
Brief, How and Why the Current Funding Structure Fails to Meet
the Needs of the Child Welfare Field 16 (Aug. 2005) (internet).
18

14
children in foster care. It filed this lawsuit against the
Commissioner of OCFS under 42 U.S.C. § 1983,
contending that the CWA entitled foster parents to
receive from the State payments sufficient “to cover
the actual costs of providing” all of the expenditures
listed in § 675(4)(A), and that New York’s basic rate of
payment to foster parents was too low to satisfy that
federal spending mandate. 19
The United States District Court for the Eastern
District of New York (Kuntz, J.) granted the State’s
motion to dismiss, holding that the CWA did not
create a privately enforceable right to challenge the
adequacy of States’ foster care maintenance payments.
(Pet. App. 112a-130a.) On appeal, the United States
Court of Appeals for the Second Circuit initially issued
a summary order remanding the case to the district
court for a further inquiry into the Coalition’s
standing. (Pet. App. 94a-99a.) After the district court
concluded that the Coalition had standing (Pet. App.
68a-76a), the Second Circuit restored jurisdiction and
resumed consideration of the appeal (Pet. App. 63a64a).
1. The panel opinion
The court of appeals, in an opinion by Judge
Calabresi, reversed, holding that foster parents have
a private right of action under the CWA. The court
concluded that Congress intended to confer on foster
parents a private right of action to “direct[] the state
to make payments . . . on behalf of each eligible child
to cover costs such as food, clothing, and school
supplies.” (Pet. App. 13a.) The court relied on language

19

Compl. ¶ 6, Dist. Ct. ECF No. 1, at 4; see also id. at 15-16.

15
in § 672(a)(1)—which states that a participating State
“shall make foster care maintenance payments on
behalf of each child”—to conclude that Congress
imposed such a spending mandate on the States, and
that this mandate requires any State that receives
funding under the CWA to cover all of the expenses
identified as “foster care maintenance payments” in
§ 675(4)(A). (Pet. App. 15a-17a.) The court further
construed the statute’s reference to “each child” in
§ 672(a)(1) to indicate that Congress intended to give
individual foster parents the ability to enforce this
spending obligation. (Pet. App. 19a-21a.)
The court acknowledged that the CWA expressly
provides multiple other avenues for review of the
adequacy of foster care maintenance payments,
including federal agency review and state administrative and judicial review, but it determined that
these remedial mechanisms were insufficient to
demonstrate congressional intent to exclude a private
right of action under federal law. (Pet. App. 25a-28a.)
The court also acknowledged that a private right
would entangle the federal courts in determinations
about how a State calculates payment rates to foster
parents. (Pet. App. 22a-24a.) But the court dismissed
such concerns, concluding that such “review falls
comfortably within what courts regularly do.” (Pet.
App. 22a.)
2. The dissenting opinion
Judge Livingston dissented. (Pet. App. 29a-62a.)
The dissent found nothing in the text, purpose, or
structure of the CWA to suggest that Congress
intended to impose a judicially enforceable spending
mandate on the States in exchange for “a partial
reimbursement mechanism for some of the expenses

16
that states incur as to some of the children in their
foster care and adoption-services programs.” (Pet.
App. 30a.) To the contrary, the dissent explained that
such an interpretation of the CWA would “upend[] the
relationship between the federal government and
state foster care systems,” while embroiling the
federal courts in “the delicate and sensitive world of
local child-welfare policymaking.” (Pet. App. 30a.)
The dissent interpreted §§ 672(a)(1) and 675(4)(A)
as defining the criteria that States must fulfill to be
eligible for federal reimbursement, not as conferring a
privately enforceable federal right on individual foster
parents or children. Among other problems with
inferring such a private right, the dissent emphasized
that the relevant language in § 675(4)(A) contains no
manageable standards for federal courts to apply in
adjudicating claims like the Coalition’s. (Pet. App.
49a-55a.) Finally, relying on this Court’s decision in
Armstrong v. Exceptional Child Center, Inc., 135 S. Ct.
1378 (2015), the dissent reasoned that an implied
private right of action was foreclosed by Congress’s
explicit provision of other federal and state review
mechanisms in the CWA. (Pet. App. 55a-58a.)
3. The denial of rehearing en banc
By a vote of six to five, the Second Circuit denied
the State’s petition for rehearing en banc. (Pet. App.
131a-132a.) In an opinion written by Judge Livingston
and joined by Judges Cabranes, Sullivan, Bianco, and
Park, the dissenters described this case as “presenting
an issue of ‘exceptional importance’” that “now divides
four United States Courts of Appeals.” (Pet. App.
133a.) Judge Cabranes filed a separate dissent on
behalf of himself emphasizing that the five judges who
had voted for rehearing “strongly believed that the

17
panel opinion presented multiple legal errors of
exceptional importance warranting correction,” and
noting that, because of the Second Circuit’s longstanding reluctance to grant en banc review, “the
decision not to convene the en banc court does not
necessarily mean that a case either lacks significance
or was correctly decided.” (Pet. App. 145a-146a.) In
light of the court’s denial of rehearing en banc, Judge
Cabranes observed that the resolution of the issues
here “now rest[s] in the hands of our highest court.”
(Pet. App. 145a.)
REASONS FOR GRANTING THE PETITION
I.

The Courts of Appeals Are Divided Over
Whether the CWA Confers a Privately
Enforceable Federal Right to Compel
States to Make Specific Foster Care
Maintenance Payments.

Certiorari is warranted to resolve a deepening
circuit conflict over whether the CWA created an
implied private right of action to compel States that
accept federal funding to provide foster care
maintenance payments to cover the full cost of all of
the specific expenditures identified in 42 U.S.C.
§ 675(4)(A), as determined by federal courts. The
Eighth Circuit has held that the CWA confers no such
private right of action; by contrast, the Ninth, Sixth,
and now Second Circuits have recognized such a right.
This conflict will only deepen and is unlikely to be
resolved without this Court’s intervention.
1. In Midwest Foster Care & Adoption Association
v. Kincade, the Eighth Circuit rejected the existence of
a private right of action under the CWA to challenge
the adequacy of Missouri’s foster care maintenance

18
payments. 712 F.3d 1190 (8th Cir. 2013). In that case,
individual foster parents and associations representing their interests argued that the CWA entitled
them to “receive payments from the State sufficient to
cover the cost of” the expenses in § 675(4)(A). Id. at
1194. Applying the three-factor test from Blessing v.
Freestone, 520 U.S. 329 (1997), the Eighth Circuit
concluded that the first prong of the inquiry—whether
Congress “intended that the provision[s] in question
benefit the plaintiff,” 520 U.S. at 340—foreclosed any
purported private cause of action. Like other statutes
for which this Court has found no private right of
action, “Sections 672(a) and 675(4)(A) speak to the
states as regulated participants in the CWA and
enumerate limitations on when the states’ expenditures will be matched with federal dollars; they do not
speak directly to the interests of” foster parents. 712
F.3d at 1197.
The Eighth Circuit specifically rejected the
argument that § 675(4)(a)’s definition of “foster care
maintenance payments” imposed a spending mandate
on States to fully cover, out of their own funds, the
unreimbursed portion of all of the expenditures listed
in that provision. As the court explained, “[f]inding an
enforceable right solely within a purely definitional
section is antithetical to requiring unambiguous
congressional intent.” Id. Instead, the list of items in
§ 675(4)(A) must be read as imposing a “ceiling” on
“the categories of foster care costs eligible for partial
federal reimbursement.” Id. at 1197-98.
2. The Ninth, Sixth, and now Second Circuits have
expressly disagreed with the Eighth Circuit on the
existence of a private right of action under the CWA,
creating an irreconcilable circuit split that only this
Court can resolve.

19
In California State Foster Parent Association v.
Wagner, the Ninth Circuit recognized a privately
enforceable right under the CWA for foster parents—
represented in that case by three associations—to
compel California to increase its foster care payment
rates to cover the actual costs of all of the expenditures
listed in § 675(4)(A). 624 F.3d 974 (9th Cir. 2010). The
Ninth Circuit found that the CWA’s language
requiring States to make foster care maintenance
payments “on behalf of each child” reflected congressional intent to benefit foster parents individually. See
id. at 980. Foster parents thus possessed an “enforceable right under § 1983 to foster care maintenance
payments from the State that cover the cost of the
expenses enumerated in § 675(4)(A).” Id. at 982.
In D.O. v. Glisson, the Sixth Circuit likewise held
that the CWA “creates a private right to foster-care
maintenance payments enforceable by a foster parent
under 42 U.S.C. § 1983.” 847 F.3d 374, 375-76 (6th
Cir.), cert. denied, 138 S. Ct. 316 (2017). In that case,
a relative of children in foster care challenged the
State’s determination that she was not entitled to any
foster care maintenance payments because she was a
family member. See id. at 376. Like the Ninth Circuit,
the Sixth Circuit found that the language in the CWA
referring to payments “on behalf of each child,” 42
U.S.C. § 672(a)(1), was rights-creating language that
“confer[red] a monetary entitlement upon qualified
foster families.” Id. at 378.
3. The circuits are divided not only about whether
Congress created a private right of action to enforce
the CWA, but also more generally about the “appropriate framework for determining when a cause of
action is available under § 1983.” Gee v. Planned
Parenthood of Gulf Coast, Inc., 139 S. Ct. 408, 409

20
(2018) (Mem.) (Thomas, J., dissenting from denial of
certiorari). Although this Court has held that nothing
short of “clear and unambiguous” language is
sufficient to imply a private federal right enforceable
under § 1983, Gonzaga Univ. v. Doe, 536 U.S. 273, 290
(2002), there remains considerable “confusion among
the lower courts” about how to apply this principle in
practice, Gee, 139 S. Ct. at 410 (Thomas, J., dissenting
from denial of certiorari).
Some courts—as in the decision below (Pet. App.
19a-21a) and the decisions from the Ninth and Sixth
Circuits discussed above—find the requisite rightscreating language so long as a federal statute contains
any language referring to individual beneficiaries. For
example, the Seventh Circuit has held that nursing
home operators have a private right of action to
challenge a State’s Medicaid rate-setting procedures
under a provision requiring state plans to provide “for
a public process for determination of rates of payment
. . . for hospital services, nursing facility services, and
services of intermediate care facilities for the mentally
retarded,” 42 U.S.C. § 1396a(13)(A) (emphasis added).
See BT Bourbonnais Care, LLC v. Norwood, 866 F.3d
815, 821-22 (7th Cir. 2017). 20
See also, e.g., Legacy Cmty. Health Servs., Inc. v. Smith,
881 F.3d 358, 372 (5th Cir.) (holding that qualified health care
providers have a private right to challenge a State’s Medicaid
reimbursement rates under 42 U.S.C. § 1396a(bb)(1), which
provides that “the State plan shall provide for payment for
services . . . furnished by a Federally-qualified health center”),
cert. denied, 139 S. Ct. 211 (2018); Planned Parenthood of Kan. v.
Andersen, 882 F.3d 1205, 1225-26 (10th Cir.) (holding that
patients have a private right to challenge a State’s decision to
terminate contracts with health care providers under 42 U.S.C.
20

21
By contrast, other courts of appeals have recognized
“the notable change in [this] Court’s approach to
recognizing implied causes of action” over the past
three decades, as noted in Ziglar v. Abbassi, 137 S. Ct.
1843, 1857 (2017). As these courts have recognized,
Spending Clause legislation that defines the terms
under which federal funds will be available to States
will often refer to individual beneficiaries—but only to
define the limits of federal reimbursement, rather
than to create privately enforceable state obligations.
See, e.g., Does v. Gillespie, 867 F.3d 1034, 1041 (8th
Cir. 2017) (declining to infer private right of action
from Medicaid language referring to “any individual
eligible for medical assistance”); Cuvillier v. Taylor,
503 F.3d 397, 405-08 (5th Cir. 2007) (declining to
recognize private right of action from requirement
that state plans under Title IV-D provide for enforcement of child support obligations “established with
respect to . . . the custodial parent”). As a result of this
disagreement about how to apply this Court’s
precedents on inferring a private right of action,
several federal statutes are privately enforceable in
some circuits but not in others. See, e.g., Planned
Parenthood of Kan. v. Anderson, 882 F.3d 1205, 122526 (10th Cir.) (collecting cases on division of authority
regarding private enforceability of 42 U.S.C.
§ 1396a(23)(A)), cert. denied, 139 S. Ct. 638 (2018).
Resolving the conflict about the existence of a
private right of action under the CWA would thus also
clarify the governing standard for recognizing a
§ 1396a(a)(23), which requires an approved state plan to “provide
that . . . any individual eligible for medical assistance . . . may
obtain such assistance from any institution, agency, community
pharmacy, or person, qualified to perform the service or
services”), cert. denied, 139 S. Ct. 638 (2018).

22
private right of action under other Spending Clause
statutes. That broader question is “an important legal
issue independently worthy of this Court’s attention.”
Gee, 139 S. Ct. at 409 (Thomas, J., dissenting from
denial of certiorari).
II. Whether the CWA Imposes a Privately
Enforceable Spending Mandate on States
Presents a Question of Exceptional
Importance to the States’ Ability to
Administer Their Foster Care Systems.
Foster care has historically been an “area of state
concern.” Moore, 442 U.S. at 435. Federal intervention
in this area is relatively recent, and has primarily
been designed to subsidize pre-existing state efforts to
provide foster care tailored to local needs. See supra at
4-6. Indeed, when Congress first began providing
direct assistance for foster care in the 1960s, many
child-welfare professionals opposed the federal
government’s efforts based on fears that such
assistance would force States and localities to
rearrange their programs to accommodate federal
policy. 21 Congress was well aware of these concerns
when it enacted the CWA, and it deliberately designed
that statute to afford “the states considerable
flexibility to develop administrative procedures
compatible with their own unique foster care
circumstances.” 22 State of Vt. Dep’t of Soc. & Rehab.

See, e.g., Rymph, supra, at 167.
See also S. Rep. No. 96-336, at 16 (1979) (“[S]ubstantial
progress in this direction cannot be achieved by Federal fiat but
can come about only through concerted effort and commitment on
the part of State and local governments which have primary
responsibility for carrying out these programs.”).
21
22

23
Servs. v. United States Dep’t of Health & Human
Servs., 798 F.2d 57, 60 (2d Cir. 1986).
The decision below would upend this historic
relationship between the States and the federal
government, subjecting state and local foster care
decisions to a uniform, judicially determined federal
payment mandate as a condition of accepting the
partial subsidy offered by the CWA. Such disruption
presents an issue of grave concern to the States. As
the dissent below correctly recognized, the court’s
decision, if left undisturbed, would “implicate[] numerous and difficult policy judgments about foster care
and childrearing, not to mention overall program
administration.” (Pet. App. 51a.)
In response to the flexibility afforded by the CWA,
States have developed a diverse range of foster care
programs, each with distinct payment rates, areas of
coverage, and administrative structures. Fiscal
constraints have driven some of these choices: as HHS
itself has recognized, “not all States have the financial
means or budgetary inclination to invest in the full
array of foster care related services for which Federal
financial participation might be available.” 23 But
policy judgments are also important drivers of the
States’ foster care systems. For example, New York,
has deliberately chosen to provide foster care maintenance payments to many children and expenditures
that are not eligible for federal reimbursement under
the CWA. These diverse choices at the state level have
resulted in a range of funding levels across the States.
Office of the Assistant Secretary for Planning &
Evaluation, supra, at 8.
23

24
According to a 2013 study, basic foster care rates vary
from $7.23 per day in Wisconsin to $30.66 per day in
Washington, D.C. 24 In New York, the current basic
rate ranges from $18.74 per day to $28.11 per day,
depending on the child’s age and location. 25
The decision below would supplant the States’
policy-laden judgments about foster care with a
uniform federal rule mandating the amounts to be
spent for particular purposes for particular children,
potentially at the expense of other children and other
expenditures. And that uniform rule would be determined not through the States’ own carefully calibrated
processes for determining foster care spending, but
instead through the judgments of federal courts in
actions brought by foster parents. Such review will
necessarily “entail judicial ratemaking” in a “traditional area of state concern,” supplanting the judgments made by New York and other States about
which children in foster care to cover, what items and
services the State should fund, and how high the
reimbursement rates should be. (Pet. App. 53a.) For
example, by requiring that New York prioritize the
expenditures identified in § 675(4)(A) for the limited
number of children eligible for Title IV-E reimbursement, the court’s decision will potentially harm the
larger class of foster children who are federally eligible
but whom New York has chosen to cover
nonetheless—some fifty-four percent of the children in
foster care in New York. The State will face pressure
to limit its spending on those children in order to

See DeVooght & Blazey, supra, at tbl. 1.
See N.Y. OCFS, Maximum State Aid Rates for Foster
Care, supra.
24

25

25
satisfy the CWA’s purported spending mandate for
federally eligible children.
The proceedings on remand after the Ninth
Circuit’s recognition of a private right of action in
Wagner highlight the substantial intrusion on state
prerogatives that the decision below has sanctioned.
To comply with the Ninth Circuit’s decision and
earlier district court orders, California was required to
devise a new foster care maintenance rate that would
take into account the actual costs of each of the
expenses in § 675(4)(A). See California State Foster
Parent Ass’n v. Wagner, No. 07-cv-5086, 2010 WL
5209388, at *1-2 (N.D. Cal. Dec. 16, 2010). Disregarding California’s normal process for determining such
rates, the district court ordered California to complete
the rate-setting process two-and-a-half months early
and to implement the new rates within one month of
the completion of this judicially supervised process.
See id. at *4. When California missed this extraordinarily expedited implementation deadline because it
had not received “state legislative approval,” the
district court ordered “defendants to implement their
new rate structure immediately,” concluding that
“requirements under state law for implementation of
these rates are irrelevant to the question of whether
defendants have complied with their federal obligations,” and threatening to hold state officials “in
contempt” if California did not “send checks to foster
parents at the new rates beginning with the next
round of checks.” California State Foster Parent Ass’n
v. Lightbourne, No. 07-cv-5086, 2011 WL 2118564, at
*2-3 (N.D. Cal. May 27, 2011).
There is absolutely no indication that Congress
enacted the CWA to force the States to relinquish their
traditional discretion over judgments about foster care

26
payments—let alone that Congress intended to
empower individual litigants to make an end-run
around the States’ well-established processes for
determining foster care maintenance payments. See
Gonzaga, 536 U.S. at 286 & n.5. To the contrary, as
this Court recognized the last time it considered the
availability of a private right of action under the CWA,
Congress intended that implementation of the statute
would, “within broad limits, [be] left up to the State,”
Suter v. Artist M., 503 U.S. 347, 360 (1992). 26 Yet the
Second Circuit’s erroneous holding will lead to the
very interference with core state functions that
Congress sought to avoid when it enacted the CWA.
Such concern about undue interference with traditional state functions is precisely why this Court has
been reluctant to recognize privately enforceable
rights in the absence of unambiguous statutory
language. See, e.g., Gonzaga, 536 U.S. at 286 & n.5.
This Court should grant certiorari to address this
important question affecting the States’ proper role in
shaping their own foster care systems.

26 This part of Suter’s reasoning is unaffected by Congress’s
subsequent enactment of the so-called “Suter fix,” 42 U.S.C.
§ 1320a-2. In Suter, this Court relied in part on the fact that
certain statutory language appeared in the CWA’s list of stateplan requirements to find no implied private right of action. See
503 U.S. at 358. The Suter fix provides that this specific factor—
i.e., a provision’s “inclusion in a section . . . requiring a State plan
or specifying the required contents of a State plan,” § 1320a-2—
could not by itself preclude a finding of an individually
enforceable right. But Congress expressly provided that this
Suter fix would not otherwise “limit or expand the grounds for
determining the availability of private actions to enforce State
plan requirements” under the CWA or elsewhere. See id.

27
III. The Decision Below Erred in Inferring a
Private Right of Action to Challenge the
Adequacy of State Foster Care Payments.
This Court has repeatedly cautioned that federal
funding programs enacted under the Spending
Clause, like the CWA, should not be read to
“unambiguously confer an enforceable right” on
private beneficiaries. Suter, 503 U.S. at 363. “[T]he
typical remedy for state noncompliance with federally
imposed conditions is not a private cause of action for
noncompliance but rather action by the Federal
Government to terminate funds to the State.”
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S.
1, 28 (1981). The court here concluded otherwise by
analyzing the factors articulated in Blessing. (Pet.
App. 13a-28a.) But the court’s analysis misapplied
Blessing and disregarded this Court’s caution against
implying privately enforceable rights from federal
statutes that merely identify the obligations that
accompany participation in federal Spending Clause
programs. See, e.g., Gonzaga, 536 U.S. at 280, 287.
1. First, the relevant provisions of the CWA simply
do not reflect Congress’s intent—“unambiguous” or
otherwise—to confer an enforceable benefit on individuals. Gonzaga, 536 U.S. at 280. Rather, §§ 672(a)(1)
and 675(4)(A) identify the criteria that States must
satisfy to be eligible for federal reimbursement.
In holding to the contrary, the court below
purported to identify rights-creating language in
§ 672(a)(1)’s provision that States “shall make foster
care maintenance payments on behalf of each [eligible]
child” and § 675(4)(A)’s definition of “foster care
maintenance payments” to “mean[] payments to cover
the cost of (and the cost of providing)” defined

28
categories of expenditures. (Pet. App. 15a.) But there
is no dispute that Congress attempted to bind the
States; where the court erred was in identifying
“exactly what is required of States by the Act.” Suter,
503 U.S. at 358.
Here, the critical context ignored by the decision
below is that, for foster care maintenance payments,
the CWA operates as a reimbursement scheme under
which the federal government covers a portion of
certain expenditures by the States. See supra at 7-8.
The statute’s language accordingly limits federal
reimbursement only to those qualifying expenditures.
“In order for a State to be eligible for [these federal]
payments,” 42 U.S.C. § 671(a)(1), it must (“shall”) first
make the expenditures identified by federal law—
specifically, expenditures on behalf of certain eligible
children defined by § 672(a)(1), and for certain categories of purchases under § 675(4)(A). Sections 672(a)(1)
and 675(4)(A) thus “focus on the states rather than the
benefitted individuals,” as the dissent below explained,
because they define the expenditures for which federal
reimbursement is available to the States, rather than
imposing a spending mandate that States must satisfy
in order to receive any federal funding at all. (Pet.
App. 49a.)
HHS—the agency charged by Congress with
implementing the CWA—has consistently interpreted
§§ 672(a)(1) and 675(4)(A) as identifying “allowable,”
not mandatory, expenditures by the States. 27 In 2005,
for example, HHS explained that “while title IV-E
eligibility is often discussed as if it represents an
27

Child Welfare Policy Manual, supra, § 8.3B.1, Question 1.

29
entitlement of a particular child to particular benefits
or services, it does not.” 28 Rather, “a child’s eligibility
entitles a State to Federal reimbursement for a
portion of the costs expended for that child’s care.” 29
HHS reiterated this position after Congress amended
§ 675(4)(A) in 2008 to include an additional category
of reimbursement-eligible expenditures: “reasonable
travel for the child to remain in the school in which
the child is enrolled at the time of placement.”
Fostering Connections to Success and Increasing
Adoptions Act of 2008, Pub. L. No. 110-351,
§ 204(a)(2)(B), 122 Stat. 3949, 2960. HHS made clear
that States are not now required to pay for such travel
simply because it is listed in § 675(4)(A); to the
contrary, as HHS explained, “[a]s with any cost enumerated in the definition of foster care maintenance
payments in [§ 675(4)(A)], the [state] agency may
decide which of the enumerated costs to include in the
child’s foster care maintenance payment.” 30
The practical implementation of the CWA further
confirms that the focus of §§ 672(a)(1) and 675(4)(A) is
on the States’ requests for federal reimbursement,
rather than on individual foster parents’ entitlement
to particular payments. As discussed above (at 13),
New York relies on the eligibility criteria in
§§ 672(a)(1) and 675(4)(A) not to determine the
payments it will make to foster parents, but rather to
determine the partial reimbursements it will request
Office of the Assistant Secretary for Planning &
Evaluation, supra, at 8.
29 Id.
30 Admin. for Children & Families, U.S. Dep’t of Health &
Human Servs., Log No. ACYF-CB-PI-10-11, Program Instruction
20 (July 9, 2010) (internet).
28

30
from HHS. Federal funds received from HHS
pursuant to the CWA do not go directly to foster
families or children, but rather help defray part of the
much broader costs that New York incurs on behalf of
children in foster care. Indeed, most foster families are
entirely unaware of whether a particular child is Title
IV-E eligible, because that eligibility neither restricts
nor expands the benefits that a child receives in New
York’s foster care system. See supra at 13. HHS’s
administration of foster care reimbursement under
the CWA thus confirms that §§ 672(a)(1) and 675(4)(A)
“serve primarily to direct [HHS’s] distribution of public
funds” to the States, not to create private rights
enforceable under § 1983. See Gonzaga, 536 U.S. at
290.
2. Second, the CWA lacks “sufficiently specific and
definite” standards that a federal court could apply in
determining whether a State has satisfied federal
mandates about the adequacy of foster care maintenance payments. See Wright v. Roanoke Redev. &
Hous. Auth., 479 U.S. 418, 432 (1987). Establishing
appropriate rates for foster care is a complex, factintensive process that every State conducts differently. 31 See supra at 23-24. Yet, as the dissent below
observed, the CWA is entirely silent about any of these
details—including whether foster care payments may
“vary based on a family’s income level” or may take
into account “county-specific” factors such as the cost
of living. (Pet. App. 52a.) While States routinely make
these “numerous and difficult policy judgments” in
operating their own foster care programs, these

See also Hasse Decl., supra, ¶¶ 3-16, ECF No. 55, at 2-9
(describing New York’s rate-setting process).
31

31
complex issues “go entirely unaddressed” in the CWA.
(Pet. App. 51a.)
This Court has also been especially reluctant to
infer a privately enforceable right from a federal
statute when, as here, the required remedy would
entail judicial ratemaking, given that “[t]he history of
ratemaking demonstrates that administrative agencies
are far better suited to this task than judges.”
Armstrong, 135 S. Ct. at 1388 (Breyer, J., concurring
in part and concurring in the judgment). And federal
courts are particularly ill-equipped to engage in ratemaking in an area of principal state concern, such as
child welfare. Cf. Thompson v. Thompson, 484 U.S.
174, 186 (1988) (declining to infer privately enforceable right when doing so would “entangle [federal
courts] in traditional state-law questions that they
have little expertise to resolve”).
3. Third, the CWA’s multiple, express review
mechanisms foreclose any implication of a private
right of action under § 1983. See Armstrong, 135 S. Ct.
at 1385. As this Court has made clear, implied private
rights of action are generally unavailable when, as
here, Congress has provided other express remedies
“for a State’s failure to comply” with a Spending
Clause statute. Id.
Here, Congress made a deliberate decision to vest
HHS with authority to ensure that the States comply
with the CWA—authority that HHS has regularly
exercised in multiple ways, including by reviewing
and approving New York’s compliance with the CWA
in 2018. See supra at 11. Congress also expressly
provided that States can maintain federal funding so
long as they “are in substantial conformity with” the
CWA, 42 U.S.C. § 1320a-2a(a)—a compliance standard

32
indicating that Congress had “an aggregate focus” and
was “not concerned with whether the needs of any
particular person have been satisfied,” Gonzaga, 536
U.S. at 288 (quotation marks and citations omitted).
Unifying supervision of a complex federal funding
program in a single expert agency under a substantialcompliance regime “avoid[s] the comparative risk of
inconsistent interpretations and misincentives that
can arise out of an occasional inappropriate application of the statute in a private action for damages.” Id.
at 292 (Breyer, J., concurring). The Second Circuit’s
holding, by contrast, would improperly interfere with
this scheme by allowing private parties to secondguess HHS’s judgment.
The CWA also expressly gives foster parents a
right to state administrative and judicial review over
disputes regarding foster care maintenance payments.
See 42 U.S.C. § 671(a)(12). In New York, this review is
particularly robust: the New York Court of Appeals
has held not only that foster parents may challenge
the denial of their “request[s] for foster care maintenance payments at a particular rate,” but also it has
extended this right beyond current foster parents to
those who previously provided such care. Matter of
Claudio v. Dowling, 89 N.Y.2d 567, 569-70, 574 (1997).
It makes sense for these types of claims to be
channeled through state courts given state judges’
experience and competence in child-welfare issues.
See, e.g., N.Y. Family Court Act §§ 1015-a (court
supervision of social services), 1029 (court supervision
of temporary order of removal), 1055 (court supervision of foster care placement). The CWA’s express
provision of state remedies makes it especially
implausible that Congress intended federal courts to

33
police the adequacy of the States’ foster care
reimbursement rates.
IV. This Case Presents an Ideal Vehicle to
Resolve the Private-Right-of-Action Question
That Has Divided the Circuits.
The decision below provides the Court with an
ideal vehicle to address whether the CWA gives rise to
a privately enforceable federal right of action to
challenge the adequacy of a State’s foster care
maintenance payments. The Second Circuit directly
addressed the question in a published decision; the
question turns on no factual disputes; and reversal of
the decision below would conclusively resolve this
case.
Certiorari is also particularly appropriate now,
before this case proceeds further to summary
judgment or a trial on the merits. The disruption to
New York’s sovereign interest in supervising its foster
care system will occur on remand the moment the
district court begins to second guess “how New York
determined the amounts it pays to those receiving
foster care maintenance payments” (Pet. App. 144a).
That federal judicial scrutiny is inconsistent with
Congress’s deliberate decision to defer to the States’
traditional administration of foster care. See Gonzaga,
536 U.S. at 286 n.5 (declining to assume that “Congress
intended to set itself resolutely against a tradition of
deference to state and local school officials”). In light
of similar concerns, this Court has frequently granted
certiorari from interlocutory orders where, as here,
the courts of appeals declined to dismiss a claim on
private-right-of-action grounds and remanded for

34
further proceedings. 32 Certiorari is warranted for the
same reason here.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
LETITIA JAMES

Attorney General
State of New York

BARBARA D. UNDERWOOD*
Solicitor General

STEVEN C. WU

Deputy Solicitor General

CAROLINE A. OLSEN

Assistant Solicitor General
barbara.underwood@ag.ny.gov

October 2019

* Counsel of Record

32 See, e.g., Blessing, 520 U.S. at 337-39; Suter, 503 U.S. at
352-53; Middlesex County Sewerage Auth. v. National Sea
Clammers Ass’n, 453 U.S. 1, 5-10 (1981); Wilder v. Virginia Hosp.
Ass’n, 496 U.S. 498, 504-05 (1990); Transamerica Mortg. Advisors,
Inc. (TAMA) v. Lewis, 444 U.S. 11, 14-15 (1979); Touche Ross &
Co. v. Redington, 442 U.S. 560, 566-67 (1979); Cort v. Ash, 422
U.S. 66, 73-74 (1975).

APPENDIX

1a
Appendix Aof the United
Appendix A — Opinions
States Court of Appeals FOR THE
SECOND CIRCUIT, FILED April 19, 2019
August Term 2017
IN THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
No. 14-2919-cv
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Appellant,
v.
SHEILA J. POOLE, ACTING COMMISSIONER
FOR THE NEW YORK STATE OFFICE OF
CHILDREN AND FAMILY SERVICES,
IN HIS OFFICIAL CAPACITY,
Appellee,
June 15, 2015, Argued
April 19, 2019, Filed
April 19, 2019, Amended
April 23, 2019, Amended
On Appeal from the United States District Court
for the Eastern District of New York.
* The Honorable William K. Sessions, III, of the United States
District Court for the District of Vermont, sitting by designation.

2a
Appendix A
Before: Calabresi , Livingston, Circuit Judges, and
Sessions, District Judge.*
Judge Livingston dissents in a separate opinion.
Calabresi, Circuit Judge:
This case asks whether Spending Clause legislation
that directs specific payments to identified beneficiaries
creates a right enforceable through 42 U.S.C. § 1983. We
hold that it does.
Congress enacted the Adoption Assistance and
Child Welfare Act of 1980 (“the Act”) “to strengthen
the program of foster care assistance for needy and
dependent children.” Pub. L. 96-272,94 Stat. 500 (1980).
One of the ways the Act does so is by creating a foster
care maintenance payment program. 42 U.S.C. § 671(a)(1).
Under this program, participating states receive federal
aid in exchange for making payments to foster parents
“on behalf of each child who has been removed from the
home of a relative.” Id. § 672(a)(1), (2). These payments
are calculated to help foster parents provide their foster
children with basic necessities like food, clothing, and
shelter.
The particular question before us is whether the Act
grants foster parents a right to these payments enforceable
through a Section 1983 action. Three Courts of Appeals
have reached this issue. The Sixth and Ninth Circuits
have held that it does. Cal. State Foster Parent Ass’n v.
Wagner, 624 F.3d 974 (9th Cir. 2010); D.O. v. Glisson, 847

3a
Appendix A
F.3d 374 (6th Cir. 2017). The Eighth Circuit has held that
it does not. Midwest Foster Care and Adoption Ass’n v.
Kincade, 712 F.3d 1190 (8th Cir. 2013).
We join the Sixth and Ninth Circuits in holding that
the Act creates a specific entitlement for foster parents
to receive foster care maintenance payments, and that
this entitlement is enforceable through a Section 1983
action. The district court, Kuntz J., held to the contrary.
Accordingly, we VACATE the order dismissing the case
and REMAND for further proceedings.
I.

Background

This appeal arises from a Section 1983 action filed
in federal district court by the New York State Citizens’
Coalition for Children (“the Coalition”). The Coalition’s
suit, brought on behalf of its foster parent members,
alleges that the New York State Office of Children and
Family Services (“the State”) has failed to make adequate
foster care maintenance payments as required by the Act.
The district court dismissed the Coalition’s suit,
holding that the Act creates no federally enforceable
right to receive foster care maintenance payments. The
Coalition appealed. On appeal, the State asserted, for the
first time, that the Coalition lacked standing to bring this
suit on behalf of its members. We remanded the case to
the district court for additional factfinding on that issue.
On remand, the district court found that the Coalition has
standing: The Coalition must expend resources to advise
and assist foster parents because of the State’s allegedly
inadequate reimbursement rates.

4a
Appendix A
The Coalition then returned to this Court for review
of the district court’s original holding that they could
not enforce the Act through Section 1983. The State, yet
again, raised a new argument on appeal, this time that
the Coalition lacks standing to bring this suit under the
third-party standing rule.
Before considering the original issue before us—
that is, whether the Act creates a federally enforceable
right to receive foster care maintenance payments—we
must address the State’s claim that the Coalition lacks
organizational and third-party standing to litigate these
claims on behalf of its foster parent members.
II. 	Standing
To bring a Section 1983 suit on behalf of its members,
an organization must clear two hurdles. First, it must
show that the violation of its members’ rights has caused
the organization to suffer an injury independent of that
suffered by its members. Nnebe v. Daus, 644 F.3d 147,
156 (2d Cir. 2011). Second, it must “demonstrat[e] a close
relation to the injured third part[ies],” and “a hindrance”
to those parties’ “ability to protect [their] own interests.”
Mid-Hudson Catskill Rural Migrant Ministry v. Fine
Host Corp., 418 F.3d 168, 174 (2d Cir. 2005). We conclude
that the Coalition has cleared both hurdles.
A.

Organizational Standing

In a string of opinions, this Court has held that
organizations suing under Section 1983 must, without

5a
Appendix A
relying on their members’ injuries, assert that their own
injuries are sufficient to satisfy Article III’s standing
requirements. Nnebe, 644 F.3d at 156-58; League of
Women Voters v. Nassau Cty., 737 F.2d 155, 160-61 (2d Cir.
1984); Aguayo v. Richardson, 473 F.2d 1090, 1099-1100
(2d Cir. 1973). To establish its own injury, an organization
must show that it has suffered a “perceptible impairment”
to its activities. Nnebe, 644 F.3d at 157. This showing can
be met by identifying “some perceptible opportunity cost”
that the organization has incurred because of the violation
of its members’ rights. Id.
The Coalition asserts that the State’s alleged
violations of the Act has cost it hundreds of hours in the
form of phone calls from aggrieved foster families. The
district court found, and we agree, that the Coalition has
spent nontrivial resources fielding these calls, and that it
will continue to have to do so absent relief. This showing
is sufficient to establish that the Coalition has suffered
its own injury.
B. 	Third Party Standing
When any plaintiff asserts the rights of others, it has
traditionally also faced, in our court, a rule of prudential
standing: the so-called third-party standing bar. With
some exceptions, this rule prevents “litigants from
asserting the rights or legal interests of others [simply]
to obtain relief from injury to themselves.” Keepers, Inc.
v. City of Milford, 807 F.3d 24, 40 (2d Cir. 2015) (quoting
Rajamin v. Deutsche Bank Nat. Trust Co., 757 F.3d 79,
86 (2d Cir. 2014)).

6a
Appendix A
There is considerable uncertainty as to whether the
third-party standing rule continues to apply following
the Supreme Court’s recent decision in Lexmark v. Static
Control Components, Inc., 572 U.S. 118, 134 S. Ct. 1377,
188 L. Ed. 2d 392 (2014). In Lexmark, the Supreme Court
cast doubt on the entire doctrine of prudential standing,
explaining that a court can no more “limit a cause of
action that Congress has created” than it can “apply its
independent policy judgment to recognize a cause of action
that Congress has denied.” Id. at 1388. Nevertheless,
in United States v. Suarez, a post-Lexmark case, we
continued to hold that courts are required to address
third-party standing. 791 F.3d 363, 367 (2d Cir. 2015). In
Suarez, however, we did not address Lexmark.
But we need not, in the case before us, resolve this
tension. Whatever the status of the third-party standing
bar, our cases have developed an exception to it where a
plaintiff can show “(1) a close relationship to the injured
party and (2) a barrier to the injured party’s ability to
assert its own interests.” Keepers, Inc., 807 F.3d at 41.
That exception applies here.
It is evident that the Coalition enjoys a close
relationship with the foster parents it counsels, not least
because those foster parents have authorized the Coalition
to file suit on their behalf. The State argues, however, that
the Coalition has failed to show that it would be “difficult if
not impossible” for the foster parents to protect their own
rights. December 22, 2017 Appellee Letter Br. at 14. But
the third-party standing rule does not demand anything
near impossibility of suit. See 15 James William Moore,

7a
Appendix A
Moore’s Federal Practice § 101.51[3][c][iii] (3d ed. 2008).
Instead, a mere “practical disincentive to sue”—such as
a desire for anonymity or the fear of reprisal—can suffice
to overcome the third-party standing bar. Id.; See also
Keepers, 807 F.3d at 42; Camacho v. Brandon, 317 F.3d
153, 160 (2d Cir. 2003).
And here, the Coalition has demonstrated that
the manifest desire of their foster parent members
for anonymity constitutes a significant disincentive
for those parents to sue in their own names. It did so
by submitting an anonymous affidavit from one of its
members articulating two reasons the member desired
anonymity. First, the member feared retaliation because a
state agency had previously retaliated against them after
they had lodged a complaint against it. Second, the parent
also sought to protect their anonymity out of concern for
their foster children’s well-being:
Even if the names of my children are filed
under seal or redacted from public documents,
disclosure of my name... puts my foster
children’s anonymity at risk... The children that
have come from traumatic and often abusive
environments. Any negative repercussions
resulting from the public disclosure of the fact
that they are all in foster care will only add to
their history of trauma, and I want to protect
my children from that.
D. Ct. Dkt. # 17-3 ¶¶ 10-11. It is no stretch to believe that
foster parents, who have opened their homes to children

8a
Appendix A
in need, would forgo financial benefits to protect those
children.
We are thus satisfied that the Coalition is properly
positioned to represent its members’ rights effectively.
And we are satisfied that those members are significantly
impaired from pursuing those rights on their own.
Accordingly, we conclude that the third-party standing
rule does not bar the Coalition from pursuing its claims.
III. A Right to Foster Care Maintenance Payments
Enforceable through Section 1983.
Having found that the Coalition has standing, we turn
to the main question in this case: Do foster parents have
a right to foster care maintenance payments enforceable
through a Section 1983 action? Section 1983 is a vehicle
for individuals to enforce “any right[] . . . secured” by
federal law. 42 U.S.C. § 1983 (emphasis added). Whether
that vehicle is available to foster parents seeking to obtain
foster care maintenance payments turns on whether (a)
the Act means to confer on foster parents a right to those
payments, in which case Section 1983 would be available.
Or, whether the Act, instead, intends (b) simply to focus
on the operations of the regulated entity (the states), and
is designed only to give states guidance in administering
aid to foster parents; or (c) relies solely on the regulatory
authority (the Secretary of Health and Human Services)
to see to it that the Act’s requirements are met, with the
result that Section 1983 would be foreclosed.

9a
Appendix A
Our review of the Act’s text and statutory structure
leads us to conclude that Congress did indeed create a
specific monetary entitlement aimed at assisting foster
parents in meeting the needs of each foster child under
their care. What is more, we find that the Act’s provision
of (limited) federal agency review for a state’s substantial
compliance is insufficient to supplant enforcement through
Section 1983. We therefore hold that the Coalition can
bring a Section 1983 action on behalf of its foster parent
members.
A. 	Statutory Background
The Adoption Assistance and Child Welfare Act
of 1980, 42 U.S.C. § 670 et seq., is Spending Clause
legislation directed at state administration of foster care
and adoption assistance services. Relevant here, the Act
creates a “Foster Care Maintenance Payments Program,”
the details of which must be recounted in some detail.
1. State Plan Requirements. To receive federal aid
under the Act, states must submit a plan for approval to the
Secretary of Health and Human Services (the Secretary).
Section 671 details what a state plan must provide to
qualify. Section 671’s requirements are numerous and
far-ranging; they run from dictating how information
about individuals involved in the foster care system may
be disclosed, Id. § 671(a)(8), to providing guidelines on how
and when a state should give priority to reuniting families,
Id. § 671(a)(15). Significantly, one of Section 671’s thirtyfive requirements is that the state plan provide for foster
care maintenance payments. Id. § 671(a)(1).

10a
Appendix A
2. Foster Care Maintenance Payments. Once a state
plan has been approved, Section 672, titled “Foster care
maintenance payments programs,” directs participating
states—that is, states with an approved plan—to make
maintenance payments to foster parents on behalf of each
foster child under their care. Section 675 then defines the
costs that compose those payments.
The mandate appears in Subsection 672(a)(1). This
subsection, titled “Eligibility,” has two components. The
first provides that “[e]ach State with a plan approved
under this part shall make foster care maintenance
payments on behalf of each child . . . .” Id. § 672(a)(1). The
second addresses which foster children are eligible for
foster care maintenance payments to be made on their
behalf. Id. § 672(a)(1)(A),(B) (incorporating Section 672(a)
(2),(3)). Eligibility is dictated by the financial resources of
the child, how the child was removed from the home, who
is responsible for the child, and where the child is placed.
Id. § 672(a)(2),(3).
Subsection 672(b) provides that the state can make
these payments either to the child’s foster parent, to the
institution where the child is placed, or to a local agency.
Section 675 then defines what exactly constitutes a
“foster care maintenance payment”:
[T]he term “foster care maintenance payments”
means payments to cover the cost of (and the
cost of providing) food, clothing, shelter, daily
supervision, school supplies, a child’s personal

11a
Appendix A
incidentals, liability insurance with respect to
a child, reasonable travel to the child’s home for
visitation, and reasonable travel for the child
to remain in the school in which the child is
enrolled at the time of placement.
Section 675(4) further states that these payments “shall
include,” for institutional placements, the reasonable costs
of operating the institution, and “shall also include” the
costs of caring for the offspring of any foster children if
the foster child and his or her children are in the same
placement. In defining foster care maintenance payments,
the Act exclusively uses mandatory language.1
3. Federal Reimbursement. Section 674 details
when a state is entitled to reimbursement from the
Federal Government. Briefly put, states are entitled to
reimbursement of a percentage of payments made under
Section 672, as well as other costs including training and
information systems expenditures. Id. § 674(a)(1),(3).
4. Review and Enforcement Mechanisms. The Act
creates three avenues for review of a state’s compliance
with its obligations under the Act: two through the state
and one through the Secretary.
Both avenues for state review are dictated by Section
671, the section governing the requirements the state
must meet to qualify for the program. First, Section
1. Since children remain in foster care until they are eighteen,
it occasionally occurs that a foster child has children.

12a
Appendix A
671 requires the state to conduct “periodic review of the
. . .amounts paid as foster care maintenance payments
. . .to assure their continuing appropriateness.” Id.
§ 671(a)(11). The second avenue of state review is
addressed to recipients of benefits under the Act. Section
671 requires the state to provide “an opportunity for a fair
hearing before the State agency to any individual whose
claim for benefits available pursuant to this part is denied
or is not acted upon with reasonable promptness.” Id.
§ 671(a)(12).
The third avenue for review, found in Section 1320a-2a,
is the only avenue for federal review expressly provided for
in the Act. Section 1320a-2a directs the Secretary to create
regulations to ensure states’ “substantial conformity” with
the dictates of federal law and the state’s own plan. Id.
§ 1320a-2a(a). If a state fails to conform substantially,
then the Secretary may withhold funds “to the extent of
the [state’s] failure to so conform.” Id. § 1320a-2a(b)(3)(C).
The State has not pointed us to any mechanism for
the Act’s beneficiaries to obtain federal review of their
claims. Thus, the only mechanism of federal control over
state behavior is the cutting off of funds. Nor has the State
pointed us to any claim-processing requirements—e.g., no
burdens of proof, exhaustion requirements, or limitation
of remedies—that allowing a Section 1983 action would
upset.
***
In sum, the Act requires a state to submit a plan to the
Secretary for approval. Once the Secretary approves the

13a
Appendix A
state’s plan, the Act directs the state to make payments
to foster parents on behalf of each eligible child to cover
costs such as food, clothing, and school supplies. The
Federal Government then reimburses the state for a
percentage of those payments so long as it remains in
“substantial compliance” with its own plan, the regulations
of the Secretary, and the requirements of the Act. While
the Act requires states to conduct internal review and
contemplates that the Secretary will ensure that the state
remains in substantial compliance, the only individual
review mechanism specifically provided for in the Act is
at the state level.
B. 	The Presumption
The Supreme Court, in Blessing v. Freestone, 520
U.S. 329, 117 S. Ct. 1353, 137 L. Ed. 2d 569 (1997),
articulated a three-factor test for determining whether a
statute creates a right enforceable through Section 1983.
First, “Congress must have intended that the provision
in question benefit the plaintiff.” Id. at 340. In Gonzaga
University v. Doe, 536 U.S. 273, 283, 122 S. Ct. 2268, 153
L. Ed. 2d 309 (2002), the Court clarified that this factor
requires more than a showing that the “plaintiff falls
within the general zone of interest that the statute is
intended to protect.” The statute must confer a right on
the plaintiff as shown by use of rights-creating language—
that is, language that demonstrates a statutory focus on
the needs of the individual, rather than the operations of
the regulated entity. Id. at 287-88. Second, the plaintiff
must “demonstrate that the right assertedly protected
by the statute is not so vague and amorphous that its
enforcement would strain judicial competence.” Blessing,

14a
Appendix A
520 U.S. at 340-41 (internal quotation marks omitted).
And, third, the “statute must unambiguously impose a
binding obligation on the States.” Id. at 341.
If a statute grants a right to a plaintiff class, the right
is fit for judicial enforcement, and the state is obligated to
fulfill the right, then a rebuttable presumption attaches
that a Section 1983 action enforcing the right is available.
Id.; Gonzaga, 536 U.S. at 284 & n. 4. A state defendant
can overcome this presumption, however, by showing
that Congress intended to foreclose a remedy under
Section 1983, either expressly “or impliedly, by creating
a comprehensive enforcement scheme that is incompatible
with individual enforcement.” Blessing, 520 U.S. at 341.
The dissent attempts to cast doubt on whether
Blessing’s three-factor test remains good law after
Gonzaga. Gonzaga, however, did not overrule Blessing;
rather, it clarified the rule in Blessing by correcting a
misinterpretation of that rule that had been adopted by
some lower courts. See Gonzaga, 536 U.S. at 282-83. To
the extent that the dissent is trying to read the tea leaves
to predict that the Supreme Court may move away from
Blessing in the future, this Court is not tasked with—and
is, in fact, prohibited from—such guesswork. We are
bound to follow the existing precedent of the Supreme
Court until that Court tells us otherwise. See Agostini
v. Felton, 521 U.S. 203, 238, 117 S. Ct. 1997, 138 L. Ed.
2d 391 (1997); Rodriguez de Quijas v. Shearson/Am.
Express, Inc., 490 U.S. 477, 484, 109 S. Ct. 1917, 104 L.
Ed. 2d 526 (1989). Thus, we apply the Blessing test with
the principles enunciated in Gonzaga firmly in mind. See
Briggs v. Bremby, 792 F.3d 239, 242-45 (2d Cir. 2015)

15a
Appendix A
(applying Blessing’s three-factor test after, and in light
of, Gonzaga).
1. Binding Obligation. Since the State argues that the
Act’s regulation of foster care maintenance payments is
permissive and not mandatory, we first consider whether
the Act imposes a binding obligation on participating
states. In the State’s view, the Act merely details what
expenses may be included in the payments (i.e. will
be reimbursed by the Federal Government), not what
expenses must be included.
This construction is belied by the Act’s text. As
we pointed out earlier, the Act does not use permissive
language—either in creating the obligation for the state
to make payments to foster parents, or in defining what
expenses those payments must account for. The Act,
instead, uses clearly mandatory language—“shall”—
binding states to make these payments. Id. § 672(a).
The Act then defines, with particularity and in absolute
terms, what expenses constitute those payments. See Id.
§ 675(4) (“foster care maintenance payments means,”
“shall include,” “shall also include”). Significantly, the
State points to no statutory text in support of its position
that the expenses listed in the definition of foster
care maintenance payments are optional, rather than
mandatory.
Undaunted, the State argues that the title of Section
672(a), “Eligibility,” demonstrates that Section 672 is
intended to outline only which portions of the foster care
maintenance payments made by a state are eligible for
federal reimbursement. But the State plainly misreads

16a
Appendix A
Section 672(a). Its title is a reference to which foster
children are eligible to have maintenance payments made
on their behalf, not which payments by a state are eligible
for federal reimbursement.
The overall statutor y structure conf irms the
untenability of the State’s reading. Where Congress
limited which state payments are eligible for federal
reimbursement, it did so explicitly. So in Subsections
672(d) and (e), which are addressed to children who have
been removed from the home pursuant to a voluntary
placement agreement, the Act clearly states that “Federal
payments may” (or may not) be made. And it is not Section
672, but another section entirely—Section 674, titled
“Payment to States”—that delineates the specifics of a
state’s entitlement to reimbursement from the Federal
Government. 2 In effect, Congress has offered the states
2. To support its position that the statutory text is permissive,
the State relies in part on a piece of informal guidance from
the Department of Health and Human Services, which refers
to the expenses listed in § 675(4) as “allowable expenses.” U.S.
Dep’t of Health & Human Servs., Child Welfare Policy Manual,
http://perma.cc/2KYA-SHTT. The Child Welfare Policy Manual,
however, is not a product of notice and comment rulemaking and
is not entitled to Chevron deference. See United States v. Mead,
533 U.S. 218, 121 S. Ct. 2164, 150 L. Ed. 2d 292 (2001). The State
also points to 45 C.F.R. § 1355.20(a). This regulation, which is a
product of notice and comment rulemaking, in relevant part states
only, “Local travel associated with providing the items listed is
also an allowable expense.” 45 C.F.R. § 1355.20(a). It is unlikely
that the agency, in this one sentence, purported to resolve the issue
of whether states are required to make foster care maintenance
payments that cover the costs detailed in Section 675(4). Indeed,

17a
Appendix A
a reasonable bargain: pay for the expenses that we deem
essential and we will partially reimburse you for them.
2. Conferral of Rights. Having determined that the
Act creates an obligation for participating states to make
payments covering the costs detailed in Section 675(4),
the question remains whether that obligation is also an
enforceable right vested in foster parents. 3
As mentioned earlier, a statute must “manifest[]”
Congress’s “‘unambiguous’ intent to confer individual
rights” in order to support a Section 1983 action. Gonzaga,
536 U.S. at 280 (quoting Pennhurst State Sch. & Hosp. v.
Halderman, 451 U.S. 1, 17, 101 S. Ct. 1531, 67 L. Ed. 2d
694 (1981)). To discern Congress’s intent, the Supreme
Court has directed us to look to whether a statute focuses
on the needs of the individual, as opposed to the operations
of the regulated entity. E.g., id. at 287-88.
Such an inquiry has led the High Court to hold that
statutory provisions with a programmatic focus do not
create enforceable rights. In Gonzaga, a student plaintiff
sought to enforce a provision of the Family Educational
Rights and Privacy Act of 1974. The provision the student
plaintiff relied on read:

it would be a strange and oblique way of answering so central a
question.
3. For the reasons discussed in Part I, the Coalition is an
appropriate representative of the plaintiff class of foster parents.

18a
Appendix A
No funds shall be made available under any
applicable program to any educational agency
or institution which has a policy or practice of
permitting the release of education records (or
personally identifiable information contained
therein . . .) of students without the written
consent of their parents to any individual,
agency, or organization.
Gonzaga, 536 U.S. at 279 (quoting 20 U.S.C. § 1232g(b)(1)).
The Supreme Court held that this provision of FERPA,
directed as it is to the “policy or practice” of educational
institutions, evinced that Congress lacked the intent to
create a right in individuals that would be enforceable
through Section 1983.
Similarly, in Blessing, custodial parents sought
to enforce Title IV-D of the Social Security Act, 42
U.S.C. §§ 651-669b (1994), which directs participating
states to operate an enforcement program for child
support payments. The plaintiffs in Blessing sought
to enforce the state’s substantial compliance with the
entire statutory regime, including provisions aimed at
managing bureaucratic matters like staffing and data
processing. 520 U.S. at 337, 344-45. While holding open
the possibility that some provisions of Title IV-D might
create enforceable rights, the Supreme Court rejected
the plaintiffs’ efforts to rectify “the State’s systemic
failures.” Id. at 344-45. As the Court explained, “[f]ar
from creating an individual entitlement to services, the
[substantial compliance] standard is simply a yardstick for
the Secretary to measure the systemwide performance
of” the state. Blessing, 520 U.S. at 343.

19a
Appendix A
In contrast, “[t]he Supreme Court has repeatedly
recognized that a federal statute [that] explicitly confers a
specific monetary entitlement on an identified beneficiary”
does create an enforceable right. Cal. State Foster Parent
Ass’n, 624 F.3d at 978. Thus, in Wright v. City of Roanoke
Redevelopment and Housing Authority, 479 U.S. 418, 107
S. Ct. 766, 93 L. Ed. 2d 781 (1987) and Wilder v. Virginia
Hospital Association, 496 U.S. 498, 110 S. Ct. 2510, 110
L. Ed. 2d 455 (1990), the Supreme Court found that
the Federal Housing Act and the Medicaid Act created
enforceable rights because they bestowed on the plaintiff
class a “mandatory benefit focus[ed] on the individual” and
a “specific monetary entitlement,” respectively.4 Gonzaga,
536 U.S. at 280.
Section 672(a) and (b) of the Child Welfare Act grants
precisely such a specific entitlement to an identified class
of beneficiaries. The Act is aimed directly at the needs
4. The dissent gloms on to one sentence of dicta in a footnote
in Armstrong v. Exceptional Child Center, U.S. , 135 S. Ct. 1378,
1386, 191 L. Ed. 2d 471 n.*, to suggest that Wright and Wilder are
no longer good law. But this Circuit has continued to follow Wright
and Wilder even after Armstrong. See, e.g., Briggs, 792 F.3d at
242-45. And this panel does not have the authority to overrule
Briggs, nor does this Court have the authority to fail to follow
Wilder and Wright where the Supreme Court has not overruled
them. See supra text at 16-17.
The dissent attempts to avoid Briggs by noting that it did not
address Armstrong. Indeed, Briggs did not address Armstrong—
but there is no reason to view this as an oversight rather than as an
indication that the panel in Briggs did not consider Armstrong to
govern the facts before it. We, likewise, do not consider Armstrong
to be controlling on the facts now before us. See infra text at 30-31.

20a
Appendix A
of individual foster children, and, to meet those needs, it
grants a monetary entitlement to those children’s foster
parents.
First, Section 672(a) is focused on the needs of
individual foster children. The Act’s use of the term “each
child” indicates an individual focus. 42 U.S.C. § 672(a)
(Participating states “shall make foster care maintenance
payments on behalf of each child . . . .” (emphasis added)).
“Each” is “used to refer to every one of two or more people
or things, regarded and identified separately.” Oxford
English Dictionary, “each,” (Online ed., Accessed May
16, 2018) (emphasis added). By referencing “each child”—
rather than, for example, stating the state must establish a
maintenance payment program to meet the needs of foster
children—Congress expressed its concern with “the needs
of . . . particular person[s],” not “aggregate services.”
The definition of “foster care maintenance payments”
in Section 675(4) buttresses this reading of Section 672(a).
These payments relate to basic life essentials: food,
clothing, shelter. Congress, in employing this definition of
foster care maintenance payments, again demonstrates a
concern with individual need in its most basic sense.
Second, the Act designates foster parents as the
intended recipients of the payments. Section 672(a) states
that payments are made “on behalf of” each foster child
and Subsection (b) nominates foster parents as one of
three proper recipients of the payments. Thus, the Act,
which is directly concerned with the needs of foster
children, id. § 672(a), designates foster parents as the

21a
Appendix A
holders of the right, id. § 672(b). This statutory design
is fully understandable: foster parents are the ones who
incur the costs of caring for foster children. If the Act
intends to ensure that foster children’s basic needs are
provided for, it makes sense for Congress to vest the right
to defined payments in those who do the providing.
This case is therefore much closer to Wilder and
Wright, where the Supreme Court found an enforceable
right, than it is to Gonzaga and Blessing, where it did
not. As in Wilder and Wright, the Act “unambiguously
confer[s]” a “mandatory benefit,” or “entitlement,” to a
discernible group of rights holders. See Gonzaga, 536
U.S. at 280. And in contrast to Gonzaga and Blessing,
that entitlement is “specific and definite” and “focus[ed] on
the individual.” Id. Accordingly, we conclude that Section
672(a), read in conjunction with Subsection (b) and Section
675(4), creates a right to payments enforceable by foster
parents. 5
5. The State, relying on passing language in Gonzaga, seems
to suggest that the presence of substantial conformity review,
instead of individualized review, shows that the Act does not grant
a right in the first place. In Gonzaga, the Court reflected on the
fact that “Congress did not contemplate terminating funding on
the basis of one violation of the privacy standards, but only where
an institution had broader policies and practices that violated
FERPA” to confirm its view that the statute, as a whole, was
oriented only towards institutional policy. Cal. State, 624 F.3d at
980. The presence of substantial conformity review, which only
garnered passing mention in Gonzaga, merely reinforced the
absence of individually focused language. And it was actually the
presence of individual federal review that drew the Court’s focus.
See Gonzaga, 536 U.S. at 289 (“Our conclusion that FERPA’s

22a
Appendix A
3. Fit for Judicial Enforcement. Even if a statute
seems to vest rights in plaintiffs, those rights must be fit
for judicial enforcement for a Section 1983 suit to lie. In
other words, the right cannot be “so vague and amorphous
that its enforcement would strain judicial competence.”
Blessing, 520 U.S. at 340-41.
The provisions of the Act requiring states to make
foster care maintenance payments are fit for judicial
enforcement. Section 672(a), read with Sections 672(b)
and 675(4), creates a right to payments that cover certain
expenses like food, shelter, and school supplies. In
enforcing foster parents’ right to sue for such payments,
courts would, therefore, be required to review how a state
had determined the amounts it pays, including how it
has quantified the costs of the specific expenses listed in
Section 675(4). This review falls comfortably within what
courts regularly do: it requires primarily fact-finding and
only very limited review of policy determinations.
The Child Welfare Act does give states some discretion
as to how to calculate costs and to distribute payments.
nondisclosure provisions fail to confer enforceable rights is
buttressed by the mechanism that Congress chose to provide for
enforcing those provisions.”).
In any event, the State’s suggestion proves too much. Under
the State’s reasoning, a plaintiff would be damned if the statute
provides its own individual remedy, and damned if the statute
does not. The only time Section 1983 would not be supplanted as
a remedy would be when a statute provides for neither individual
review, nor substantial compliance review. We decline to narrow
the scope of the Section 1983 remedy so dramatically. We therefore
limit the consideration of the agency review mechanism to the
State’s case for rebutting the presumption.

23a
Appendix A
And courts may well defer to reasonable exercises of that
discretion. See Wagner, 624 F.3d at 981 (holding that the
court may “give deference to a reasonable methodology
employed by the State” for calculating costs, and that,
even with such deference, “the absence of a uniform
federal methodology for setting rates ‘does not render the
[statute] unenforceable by a court” (quoting Wilder, 496
U.S. at 519)). Significantly, the State’s discretion under
the Act is considerably more cabined than that afforded
states under the Medicaid Act in Wilder and the Federal
Housing Act in Wright, both cases where the Supreme
Court found that the asserted rights were enforceable.
The provision of the Medicaid Act at issue in Wilder
required states to set rates that were “reasonable and
adequate” to reimburse “efficiently and economically
operated” health care facilities. 496 U.S. at 503 (quoting
42 U.S.C. § 1396a(a)(13)(A) (1982)). To determine whether
a given rate satisfied these requirements, the statute
set forth certain factors for consideration, such as “the
unique situation (financial and otherwise) of a hospital
that serves a disproportionate number of low income
patients.” Id. at 519 n. 17. The Supreme Court found that
this provision provided sufficient guidance to be fit for
judicial enforcement. In fact, the Supreme Court noted
that the Medicaid Act “provide[d], if anything, more
guidance than the provision at issue in Wright, which
vested in the housing authority substantial discretion for
setting utility allowances.” Id.
If rate-settings that require a state to determine
what is reasonable, adequate, efficient, and economical
are fit for judicial review, then rate-setting that merely
requires a state to quantify costs for set expenses must

24a
Appendix A
also be. Accordingly, we find that foster parents’ right to
receive foster care maintenance payments is fit for judicial
enforcement.
***
In sum, applying the Blessing factors to this case, we
conclude that the Act meets the requirements to create
a presumption that foster parents have a right to foster
care maintenance payments that cover the enumerated
expenses that is enforceable through Section 1983.6
C. 	The Rebuttal
But even when a statute grants such a right to a
plaintiff class, resort to Section 1983 is barred when the
statute provides “remedial mechanisms . . . sufficiently
comprehensive and effective to raise a clear inference
that Congress intended to foreclose a [Section] 1983 cause
of action.” See Wright, 479 U.S. at 425. The State argues
that the Act, by directing the Secretary to review the
state’s actions for substantial conformity with the Act’s
commands, forecloses Section 1983 remedies.7
6. “Plaintiffs suing under [Section] 1983 do not have the
burden of showing an intent to create a private remedy because
[Section] 1983 generally supplies a remedy for the vindication of
rights secured by federal statutes.” Gonzaga, 536 U.S. at 284.
Hence, we start with the presumption that foster parents may
bring a Section 1983 action. See Blessing, 520 U.S. at 340-41.
7. The State also argues that a Section 1983 action is not a
proper remedy because the Act is Spending Clause legislation. It
is true that the “typical remedy” for “state noncompliance” with

25a
Appendix A
The State is mistaken. The Supreme Court has often
rejected arguments that a statute’s remedial scheme
forecloses a Section 1983 action. Blessing, 520 U.S. at
346-48; Wilder, 496 U.S. at 498-99; Wright, 479 U.S. at
428-29; Cannon v. Univ. of Chicago, 441 U.S. 677, 704-07,
99 S. Ct. 1946, 60 L. Ed. 2d 560 (1979); see also Briggs,
792 F.3d at 245. Indeed, the Supreme Court has generally
found a remedial scheme sufficiently comprehensive to
supplant Section 1983 only where it “culminate[s] in a right
to judicial review” in federal court. Wilder, 496 U.S. at 521
(describing Smith v. Robinson, 468 U.S. 992, 1010-1011,
104 S. Ct. 3457, 82 L. Ed. 2d 746 (1984) and Middlesex Cty.
Sewerage Auth. v. Nat’l Sea Clammers Ass’n, 453 U.S.
1, 13, 101 S. Ct. 2615, 69 L. Ed. 2d 435 (1981)). Time and
again, the Supreme Court has stressed the importance
Spending Clause legislation is federal action to terminate funds
to the state, rather than private causes of action, Pennhurst,
451 U.S. at 28. But the fact that a law is based on the Spending
Clause is by no means determinative. Thus, in Maine v. Thiboutot,
448 U.S. 1, 100 S. Ct. 2502, 65 L. Ed. 2d 555 (1980), Wright, and
Wilder, the Supreme Court found that Spending Clause legislation
supported a cause of action under Section 1983. And, with respect
to the entire Social Security Act, including this Child Welfare
Act, Congress explicitly anticipated the possibility of Section
1983 actions. Thus, Congress amended the Act to override the
reasoning in Suter v. Artist M., 503 U.S. 347, 112 S. Ct. 1360, 118
L. Ed. 2d 1 (1992), and thereby to enable appropriate provisions of
the Social Security Act to give rise to a private enforcement action
(Suter would have foreclosed a private enforcement action under
any section governing state plan requirements). See 42 U.S.C.
§ 1320a-2. It would have been pointless for Congress to do this if it
did not contemplate that some provisions of the Act would support
a private enforcement action.

26a
Appendix A
that some avenue for federal review exist to hear the
claims of “aggrieved individuals.” See Gonzaga, 536 U.S.
at 289-90; Blessing, 520 U.S. at 348; Wilder, 496 U.S. at
521-22; Wright, 479 U.S. at 428; see also City of Rancho
Palos Verdes, Cal. v. Abrams, 544 U.S. 113, 121, 125 S. Ct.
1453, 161 L. Ed. 2d 316 (2005) (“[T]he existence of a more
restrictive private remedy for statutory violations has
been the dividing line between those cases in which [the
Court has] held that an action would lie under [Section]
1983 and those in which [the Court has] held that it would
not.”).
No such avenue exists here. The Act provides no
federal court review of an individual’s claim, other than
what, under Blessing, is presumptively available under
Section 1983. 8 Nor is there federal agency review for
claims by an aggrieved individual. The only federal review
provided under the Act is review by the Secretary for
substantial conformity with the Act and with the state’s
approved plan, with the possibility of funding cutoffs as
the sole remedy.
The Supreme Court has made clear that a federal
agency’s “generalized powers are insufficient to indicate a
congressional intent to foreclose [Section] 1983 remedies.”
8. There is also no avenue for state court review The
Act provides only for state agency proceedings for aggrieved
individuals. Yet, confoundingly, the State argues that this state
agency review is sufficient to foreclose resort to Section 1983.
State review, standing alone, has never been deemed sufficient
to supplant a Section 1983 action. See Blessing, 520 U.S. at 348;
Wilder, 496 U.S. at 522-23; Wright, 479 U.S. at 427-28. And we
will not deviate from that course here.

27a
Appendix A
Wright, 479 U.S. at 428. And, in Blessing, the High Court
explicitly rejected the notion that substantial compliance
review, coupled with funding cut-offs, is sufficient to
supplant a private right of action under Section 1983. 520
U.S. at 348; see also Wright, 479 U.S. at 428. Accordingly,
we reject the state’s contention that the substantial
conformity review provided for in the Act supplants the
Section 1983 remedy. See Briggs, 792 F.3d at 239.
This outcome is wholly consistent with the Supreme
Court’s precedent in Armstrong v. Exceptional Child
Center, Inc., U.S. , 135 S. Ct. 1378, 191 L. Ed. 2d 471 (2015).
The dissent accuses us of ignoring Armstrong, which, it
claims, “squarely controls our case.” Dissent at 30-32. In
fact, Armstrong is readily distinguishable on multiple
grounds. First, Armstrong addressed the question of
whether the plaintiffs had a cause of action in equity to
enforce Section 30(A) of the Medicaid Act. Id. at 1385.
Armstrong did not consider whether the plaintiffs would
have had a private cause of action under Section 1983.
See id. at 1392 (Sotomayor, J., dissenting) (distinguishing
actions in equity from Section 1983 suits). The dissent,
going beyond the holding in Armstrong, argues that, “if
[the plaintiffs] could not enforce the provision in equity, a
fortiori, they could not do so pursuant to a § 1983 theory.”
Dissent at 33. This reasoning is fundamentally flawed.
It belittles the purpose of the Civil Rights Act of 1871,
which established Section 1983 claims precisely to permit
plaintiffs to sue the government for civil rights violations
where they might not otherwise have had a remedy. To
limit Section 1983 claims only to instances where plaintiffs
would have a claim in equity would be totally inconsistent
with the purposes of Section 1983.

28a
Appendix A
Second, the court in Armstrong, in denying the
existence of a cause of action in equity as to the statute
before it, relied on “[t]he sheer complexity associated
with enforcing § 30(A), coupled with the express provision
of an administrative remedy.” Armstrong, 135 S. Ct. at
1385. Indeed, Armstrong specifically states that “[t]he
provision for the Secretary’s enforcement by withholding
funds might not, by itself, preclude the availability of
equitable relief. But it does so when combined with the
judicially unadministrable nature of § 30(A)’s text.” Id.
For the reasons discussed above in Section III.B.3, the
provisions of the Child Welfare Act requiring states to
make foster care maintenance payments are not judicially
unadministrable. Therefore, Armstrong is in no way
inconsistent with our holding that a cause of action under
Section 1983 exists here.
****
T he Act uses ma ndat or y la ng uage, bi nd i ng
participating states. It evinces a Congressional focus
on meeting the needs of individual foster children and
translates that focus into a specific monetary entitlement
granted to an identified class of beneficiaries: foster
parents. The Act, moreover, provides sufficient guidance
to courts to make the right appropriate for judicial
enforcement. Since the Act does not provide any other
federal avenues for foster parents to vindicate that right,
the right is enforceable through Section 1983. Accordingly,
we VACATE the order of the district court and REMAND
for further proceedings.

29a
Appendix A
Debra A nn Livingston, Circuit Judge, dissenting:
The Child Welfare Act of 1980 (“the CWA” or
“the Act”), provides a mechanism for partial federal
reimbursement of a subcategory of state expenditures
on foster care. See 42 U.S.C. § 670. Today, the majority
concludes that this partial federal support system imposes
a categorical foster care spending requirement on all
recipient states, regardless of the limits their respective
legislatures may have placed on such expenditures. Not
content to stop there, the majority then holds that the
CWA provides some (though not all) foster parents with
a privately enforceable right under 42 U.S.C. § 1983 to
receive some uncertain sum of money from the state.
I disagree on both counts. This Court may not
recognize a right enforceable under § 1983 unless
Congress has “manifest[ed] an ‘unambiguous’ intent to
confer” such a right. Gonzaga Univ. v. Doe, 536 U.S. 273,
280, 122 S. Ct. 2268, 153 L. Ed. 2d 309 (2002) (quoting
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S. 1,
17, 101 S. Ct. 1531, 67 L. Ed. 2d 694 (1981)). The CWA does
not “unambiguously” require states to cover the entire
cost of a category of foster care expenditures; still less do
the relevant provisions of the CWA meet our demanding
standard for creating a privately enforceable right to those
payments under § 1983.
“[T]he National Government, anxious though it may
be to vindicate and protect federal rights . . ., always
endeavors to do so in ways that will not unduly interfere
with the legitimate activities of the States.” Levin v.

30a
Appendix A
Commerce Energy, Inc., 560 U.S. 413, 431, 130 S. Ct. 2323,
176 L. Ed. 2d 1131 (2010) (quoting Younger v. Harris, 401
U.S. 37, 44, 91 S. Ct. 746, 27 L. Ed. 2d 669 (1971)). The
majority’s decision today violates this principle, upending
the relationship between the federal government and
state foster care systems while ushering dozens of federal
judges in this Circuit into the delicate and sensitive
world of local child-welfare policymaking. I see nothing
in the CWA indicating that Congress intended such a
result—let alone that it unambiguously did so. I therefore
respectfully dissent.
I
A
In 1980, Congress enacted the CWA, also known as
Title IV-E of the Social Security Act, to assist states in
providing foster care in appropriate circumstances and
for appropriate periods by offering “fiscal incentives to
encourage a more active and systematic monitoring of
children in the foster care system.” Vermont Dep’t of
Soc. & Rehab. Servs. v. U.S. Dep’t of Health & Human
Servs., 798 F.2d 57, 59 (2d Cir. 1986). Passed pursuant to
Congress’s Spending Clause power, see Suter v. Artist M.,
503 U.S. 347, 355-56, 112 S. Ct. 1360, 118 L. Ed. 2d 1 (1992),
the CWA establishes a partial reimbursement mechanism
for some of the expenses that states incur as to some of
the children in their foster care and adoption-services
programs. But these specified expenses, incurred within
the CWA’s statutory constraints, are eligible for partial
reimbursement only if a state has chosen to participate

31a
Appendix A
in the federal program, enacted a plan of operation for
its foster care system, and received approval for that
plan from the Secretary of Health and Human Services
(“HHS”). 42 U.S.C. § 671(a).
As relevant here, the CWA provides for partial
reimbursement of “foster care maintenance payments”
and requires each state plan to “provide for [such]
payments in accordance with section 672” of the Act.
42 U.S.C. § 671. Section 672(a)(1), entitled “Eligibility,”
dictates that states with approved plans “shall make foster
care maintenance payments on behalf of each child who
has been removed from the home of a relative,” so long
as (1) removal and foster care placement requirements
have been met and (2) the child “would have otherwise
qualified for assistance under the now-defunct Aid to
Families with Dependent Children program.”1 Midwest
Foster Care and Adoption Ass’n v. Kincade, 712 F.3d
1190, 1194 (8th Cir. 2013) (discussing 42 U.S.C. § 672(a)
(1)). Section 675 of the Act, entitled “Definitions,” defines
“foster care maintenance payments” as:
payments to cover the cost of (and the cost
of providing) food, clothing, shelter, daily
supervision, school supplies, a child’s personal
incidentals, liability insurance with respect to
1. In other words, the statute provides for partial federal
reimbursement of state support payments for only a percentage of
the foster children in a state’s foster care system. This percentage
of eligible children has declined over time, according to DefendantAppellee New York, because “Congress has not raised financial
eligibility standards since 1996.” Br. Def-Appellee at 25.

32a
Appendix A
a child, reasonable travel to the child’s home for
visitation, and reasonable travel for the child
to remain in the school in which the child is
enrolled at the time of placement. In the case
of institutional care, such term shall include
the reasonable costs of administration and
operation of such institution as are necessarily
required to provide the items described in the
preceding sentence.
Id. § 675(4)(A). States are eligible for federal reimbursement
of their foster care maintenance payments up to “an amount
equal to the Federal medical assistance percentage” for
children in foster family homes or child-care institutions.
Id. § 674(a)(1).
The Act, in pertinent part, provides for two review
mechanisms to ensure state compliance with its provisions.
The first requires HHS to issue regulations to monitor
participating states’ “substantial conformity” with the
Act’s requirements. Id. § 1320a-2a(a). HHS’s regulations
must, among other things:
• “specify the timetable for conformity reviews of
State programs”;
• “specify . . . the criteria to be used . . . to determine
whether there is a substantial failure to so conform”;
and
• afford a noncomplying State the “opportunity to
adopt and implement a corrective action plan.”

33a
Appendix A
Id. §§ 1320a-2a(b)(1), (b)(2), (b)(4)(A). HHS may withhold
funds “to the extent of [a state’s] failure to . . . conform,” id.
§ 1320a-2a(b)(3)(C), but it must allow noncompliant states
to appeal such determinations to the HHS Departmental
Appeals Board, and eventually to the federal courts, in
“the judicial district in which the principal or headquarters
office of the agency responsible for administering the
program is located.” 2 Id. § 1320a-2a(c)(3).
The second review mechanism is more particular to
the foster care maintenance payments at issue here. The
CWA requires states both to periodically review these
payments “to assure their continuing appropriateness”
and to provide an opportunity for caregivers whose
claims for payments have been denied to receive “a fair
hearing before the [relevant] State agency.” Id. §§ 671(a)
(11), (a)(12). In New York, the state agency’s decision is
thereafter subject to further review through the state’s
robust procedures for review of administrative action.
2. Pursuant to this review mechanism, we reviewed (and
upheld) HHS’s determination in 2003 that New York was not in
substantial conformity because of the number of children in foster
care who had not received necessary judicial determinations
that the state had made reasonable efforts to finalize so-called
“permanency plans” on their behalf. New York ex rel. N.Y. State
Office of Children & Family Servs., 556 F.3d 90, 92 (2d Cir. 2009).
In 2012, however, the most recent review noted in the record here,
HHS conducted a “primary” analysis of 80 randomly selected
cases to assess whether New York was in “substantial conformity”
with the law. All 80 selected cases met eligibility requirements.
New York State Title IV-E Foster Care Eligibility Review,
Primary Review 2012, http://perma.cc/7GTP-PX5A .

34a
Appendix A
The majority ends its brief discussion of the statute
with a summary of these statutorily imposed review
mechanisms. In doing so, it ignores the complex state and
local foster care systems that predate the CWA. As New
York reminds us, CWA funding “covers only a portion of
the State’s expenses, and New York’s foster care program
serves a broader range of children and spends money on
a broader range of items and services than the federal
statute covers.” Br. Def-Appellee at 11-12. Before the
CWA’s passage, states decided the reimbursement rate for
foster care providers, and payment rates varied widely.
Such variance continues today, and unsurprisingly so,
given that the CWA did not displace preexisting foster
care systems but merely created a mechanism for partial
reimbursement of a specified set of expenses associated
with some children. See Kerry DeVooght et al., Family
Foster Care Reimbursement Rates in the U.S., tbl. 1 at
9-18 (2013), http://perma.cc/HY82-Q3AF .
New York’s complex foster care program is largely
administered at the local level. County social services
departments are responsible for making payments to
foster care providers in the first instance. These county
departments, in turn, are reimbursed by New York’s
Office of Children and Family Services (“OCFS”) up to
certain maximum amounts. N.Y. Soc. Serv. L. § 153-k (1).
A portion (but only a portion) of the funds paid by OCFS
to the county departments are federal funds disbursed to
the state pursuant to the CWA. Id. Counties are free to set
their own reimbursement rates for foster parents, but the
state will reimburse the counties only up to the maximum
amount established at the state level. Id. at § 2(b).

35a
Appendix A
In sum, the CWA represents a federal effort to
incentivize state provision of adequate foster care
arrangements. In doing so, the CWA provides important
financial support to states, but this support extends to
only a portion of large and complex state and local foster
care systems, which themselves involve a complicated
interplay between local demands and state funding. As
for New York’s foster care plan, it has been approved by
the Secretary since 1982, and HHS has routinely found
New York to be in compliance with the CWA.
B
Only with this background in mind does the full
import of the majority’s decision become clear. The
majority first decides, in effect, that New York may well
have been operating in rank violation of the CWA for
over 35 years. (Inexplicably, no one seems to have noticed
until now.) According to the majority, the partial federal
reimbursement scheme enshrined in the CWA imposes
a minimum foster care spending obligation on recipient
states, which must cover the cost of a litany of specific
items dictated by the federal government. This supposed
spending obligation arises (again, according to the
majority) because the Act employs “mandatory language”
in § 672(a), which provides that participating states “shall
make foster care maintenance payments,” and then
defines “in absolute terms” in § 675(4)(A) the expenses
that constitute these mandatory “payments.” 3 Maj. Op.
3. By way of reminder, Section 675, the “Definitions” section
of the CWA, defines foster care maintenance payments as:

36a
Appendix A
at 18. New York argues, to the contrary, that § 672(a)
specifies the conditions under which states can receive
federal reimbursement and that § 675(4)(A)’s definition of
“foster care maintenance payments” simply “provide[s]
an allowable list of items” for this reimbursement. Br.
Def-Appellee at 26. But the majority rejects New York’s
argument and decides that any state whose payment rates
fall short of covering the total “cost of (and the cost of
providing)” all the items listed in § 675(4)(A) runs afoul of
the statutory prerequisites for compliance with the CWA.
Respectfully, I disagree. I join the Eighth Circuit
in concluding that §§ 672(a) and 675(4)(A) “speak to
the states as regulated participants in the CWA and
enumerate limitations on when the states’ expenditures
will be matched with federal dollars.” Midwest Foster
Care, 712 F.3d at 1197. So construed, § 675(4)(A) does
not entitle foster parents and eligible institutions to
a certain monetary sum; instead, it specifies those
state expenditures that are “eligible for partial federal

payments to cover the cost of (and the cost of
providing) food, clothing, shelter, daily supervision,
school supplies, a child’s personal incidentals, liability
insurance with respect to a child, reasonable travel
to the child’s home for visitation, and reasonable
travel for the child to remain in the school in which
the child is enrolled at the time of placement. In the
case of institutional care, such term shall include the
reasonable costs of administration and operation of
such institution as are necessarily required to provide
the items described in the preceding sentence.

37a
Appendix A
reimbursement.”4 Id.; see also Emilie Stoltzfus, Cong.
Research Serv., R42792, Child Welfare: A Detailed
Overview of Program Eligibility and Funding for Foster
Care, Adoption Assistance, and Kinship Guardianship
Assistance Under Title IV-E of the Social Security Act
17 (2012) (“[T]here is no federal minimum or maximum
foster care payment rate. States are permitted to set these
rates and are required . . . to review them periodically to
ensure their ‘continuing appropriateness.’”).
The majority reaches its contrary result only by
reading both §§ 672(a) and 675(4)(A) selectively, rather
than in light of the CWA as a whole. Cf. Util. Air
Regulatory Grp. v. E.P.A., 573 U.S. 302, 320, 134 S. Ct.
2427, 189 L. Ed. 2d 372 (2014) (reiterating that it is “a
fundamental canon of statutory construction that the
words of a statute must be read in their context and with
a view to their place in the overall statutory scheme”
4. As highlighted below, my interpretation of the CWA,
unlike the majority’s, is consistent with that of HHS (which has
not appeared in this litigation). To take one example, in 2008,
Congress amended § 675(4)(A) to broaden the definition of “foster
care maintenance payments” to include “payments to cover the
cost of (and the cost of providing) . . . reasonable travel for the
child to remain in the school in which the child is enrolled at the
time of placement.” But HHS did not interpret this amendment
as requiring states (as the majority would have it) to pay for such
travel: “As with any cost enumerated in the definition of foster care
maintenance payments in [§ 675(4)],” it said, “the [state] agency
may decide which of the costs to include in the child’s foster care
maintenance payment.” U.S. Dep’t of Health & Human Servs.,
Program Instruction No. ACYF-CB-PI-10-11 at 20, http://perma.
cc/9LX9-C76D (emphasis added).

38a
Appendix A
(quoting FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 133, 120 S. Ct. 1291, 146 L. Ed. 2d 121 (2000))).
I agree with the majority that states receiving partial
reimbursement pursuant to the CWA must make foster
care maintenance payments—without which there would
be nothing to reimburse. But our agreement ends there.
In my view, it is not reasonable to interpret § 675(4)(A)
to impose some minimum spending obligation for each
enumerated item on all fifty state foster care systems—
much less to locate this vast new spending obligation in the
“Definitions” section of the CWA. 5 As the Supreme Court
reminded us in Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 121 S. Ct. 903, 149 L. Ed. 2d 1 (2001), Congress
“does not alter the fundamental details of a regulatory
scheme in vague terms or ancillary provisions—it does
not, one might say, hide elephants in mouseholes,” id. at
468 (citation omitted); see also Midwest Foster Care, 712
F.3d at 1197 (“Finding an enforceable right solely within
a purely definitional section is antithetical to requiring
unambiguous congressional intent.”). So too here.
The majority argues that § 675(4)(A) must specify the
precise costs that states are required to pay because, in
its view, § 672(a)(1), entitled “Eligibility,” provides that
participating states “shall make foster care maintenance
5. To be clear, my focus here is on the claim at issue. I do not,
and need not, opine as to whether there are other circumstances that
might give cause for HHS to withhold federal funds to participating
states on the ground that inadequate monies were being directed
to foster care. It is sufficient to resolve this case to conclude only
that §§ 672(a) and 675(4)(a) do not constitute an exhaustive list of
mandatory payments that “complying” states “shall make.”

39a
Appendix A
payments” and specifies “which foster children are
eligible to have maintenance payments made on their
behalf.” Maj. Op. at 17-18. But this is wholly consistent
with the view that § 672(a)(1) sets out conditions for
federal reimbursement—not a spending mandate. It is
unsurprising that a statute providing for partial federal
reimbursement of a portion of the costs associated with
taking care of some foster children (and subject to the
state complying with conditions for appropriate placement)
would have a section devoted to delineating the category
of children whose costs are eligible for reimbursement,
and under what conditions. Indeed, the CWA is replete
with provisions establishing such eligibility criteria. It is
notably lacking, however, any provisions that clearly and
cleanly mandate a spending minimum that participating
states must pay for the items enumerated in § 675(4)(A).
Accordingly, § 672(a)(1) itself devotes far fewer words
to the remittance of foster care maintenance payments by
states than to factors curtailing the situations in which
such remittances should be made. As noted, § 672(a)(1)
makes clear that such payments are to be made on behalf
of children removed from their homes only if removal and
placement criteria have been met (“and the placement
continues to meet” these criteria), and only then if “the
child, while in the home, would [also] have met [specified]
AFDC eligibility requirement[s].” Read as a whole,
§ 672(a)(1) thus “serve[s] as a roadmap for the conditions
a state must fulfill in order for its expenditure to be
eligible for federal matching funds,” Midwest Foster Care,
712 F.3d at 1198, but falls well short of establishing an
unambiguous spending condition with which states must

40a
Appendix A
comply in order to receive federal money, cf. Pennhurst,
451 U.S. at 44 (noting that if “Congress intends to impose
a condition on the grant of federal moneys, it must do so
unambiguously” (citations omitted)).
Indeed, if §§ 672(a)(1) and 675(4)(A) unambiguously
imposed a spending obligation on the states in “absolute
terms,” as the majority would have it, that obligation would
surely be easier for the majority to define. If “legislation
enacted pursuant to the spending power is much in the
nature of a contract,” id. at 17, what obligation, precisely,
did New York take on? An obligation to reimburse all
receipts for every item listed in § 675(4)(A) on behalf of a
subset of children in foster care? New York warned us that
any mandated increase in the foster care maintenance
payments for which it receives partial reimbursement
could result in a decrease in the payments made to the
growing percentage of foster parents and other providers
who are not covered by the CWA. Letter Br. for Def.Appellee at 22. How much more disruptive to the foster
care system, then, would it be to impose an obligation to
cover all costs for the items listed in § 675(4)(A)? This
disastrous result would appear to be the upshot of the
majority’s view, taken to its limit, that the CWA commands
states to make “payments to cover the cost of” the items
listed in § 675(4)(A).
The majority studiously avoids going quite that far.
But it does so only by ducking any real specification of
what the CWA now requires. Thus, the CWA, it says,
“give[s] states some discretion as to how to calculate costs
and to distribute payments” and courts “may well defer

41a
Appendix A
to reasonable exercises of that discretion.” Maj. Op. at 25.
Yet § 674(a)(4) does not itself contain such qualifications,
making it difficult to discern where the majority got them.
Cf. Alabama v. North Carolina, 560 U.S. 330, 352, 130
S. Ct. 2295, 176 L. Ed. 2d 1070 (2010) (“We do not—we
cannot—add provisions to a federal statute.”).
Ultimately, the majority’s rejiggering of the CWA
results in a curious bargain for New York to have struck—a
bargain in which New York supposedly relinquished to
federal courts its longstanding control over discretionary
judgments about payment rates for foster care providers
in exchange for partial reimbursement of some expenses
incurred in the care of a declining percentage of foster
care children.6 The majority characterizes this trade-off
as part of a “reasonable bargain” that Congress struck
with the states, Maj. Op. at 19, but the states themselves do
not appear to agree with that characterization. Fourteen
of them have submitted an amicus brief in support of New
York’s position (and thus against the majority’s view).
See Br. of Amici Curiae States. If these states struck
such a bargain, they did so unwittingly. See Pennhurst,
451 U.S. at 17 (“The legitimacy of Congress’ power to
legislate under the spending power . . . rests on whether
the State voluntarily and knowingly accepts the terms of
the “contract.”).
It is perhaps for all the above reasons that the
agency tasked with implementing the Act, HHS, has
not interpreted §§ 672(a)(1) and 675(4)(A) as imposing
6. See supra note 1.

42a
Appendix A
a minimum spending mandate on the states for the
enumerated items in § 675(4)(A). The definition of “foster
care maintenance payments” in HHS regulations
promulgated under the CWA tracks § 675(4)(A)’s
definition, but the regulation continues: “[l]ocal travel
associated with providing the items listed above is also an
allowable expense.”7 45 C.F.R. § 1355.20 (emphasis added).
This language again suggests that § 675(4)(A) simply
lists items for which federal reimbursement remains
available, not items for which the state is obligated to fully
compensate providers. The majority brushes aside HHS’s
pronouncements, both formal and informal, see Maj. Op. at
19 n.2., and I see no need to wade into the various contours
of deference to agency interpretations here. Suffice it to
7. Additional informal guidance serves to buttress this
interpretation. To provide another example, the agency also
states, in offering guidance on the term “incidentals,” as used in
§ 675(4)(A), that “the reasonable and occasional cost of such items
as tickets or other admission fees for sporting, entertainment or
cultural events,” as well as the cost of “horseback riding” and “Boy/
Girl Scout” dues, “are reimbursable under Title IV-E Foster Care
as a part of the [foster care] maintenance payment.” Admin. for
Children & Families, U.S. Dep’t of Health & Human Servs., Child
Welfare Policy Manual §§ 8.3B.1(2), (9) (2018) (emphasis added). It
is hard to imagine that Congress mandated that the states cover
the cost of a foster child’s participation in the Boy Scouts, although
designating such a cost as reimbursable is entirely reasonable. See
also U.S. Dep’t of Health & Human Servs., Admin. on Children,
Youth & Families, Program Instruction No. ACYF-CB-PI-10-11,
at 20 (July 9, 2010), http://perma.cc/9LX9-c76D (“As with any
cost enumerated in the definition of foster care maintenance
payments in [§ 675(4)], the title IV-E agency may decide which of
the enumerated costs to include in a child’s foster care maintenance
payment.”).

43a
Appendix A
say, however, that at the very least, HHS’s interpretations
of the CWA, embodied both in regulations promulgated
through the notice and comment process and in informal
guidance, “carr[y] some persuasive force” and therefore
“lend[] further support” to New York’s position. Ret. Bd.
of the Policemen’s Annuity & Benefit Fund v. Bank of
N.Y. Mellon, 775 F.3d 154, 170 (2d Cir. 2014).
II
But there’s a bigger problem with the majority’s
decision. For even if I’m w rong about the proper
interpretation of §§ 672(a)(1) and 675(4)(A)—even if
§ 672(a)(1) does require states to make payments covering
each of the categories of costs enumerated in § 675(4)(A)
on behalf of eligible foster children—this requirement
would, at most, implicate the federal government’s
reimbursement obligations under the Act. The majority
concludes, to the contrary, that a subset of New York
caregivers have a right, enforceable under 42 U.S.C. §
1983, to foster care payments that “cover the cost of (and
the cost of providing)” the expenses outlined in § 675(4)(A).
This startling conclusion (which has the effect of entitling
some of the caregivers in a state’s foster care system to
sue in federal court) is squarely precluded by Supreme
Court precedent. I again respectfully disagree with the
majority’s analysis.
A
Section 1983 provides a cause of action to remedy
violations by state actors of “any rights, privileges, or

44a
Appendix A
immunities secured by the Constitution and [federal]
laws.” 42 U.S.C. § 1983. The Supreme Court has clarified
that § 1983 provides a means of redressing “the violation
of a federal right, not merely a violation of federal law.”
Blessing v. Freestone, 520 U.S. 329, 340, 117 S. Ct. 1353,
137 L. Ed. 2d 569 (1997) (citation omitted); see also
Gonzaga Univ. v. Doe, 536 U.S. 273, 283, 122 S. Ct. 2268,
153 L. Ed. 2d 309 (2002) (“[I]t is rights, not the broader
or vaguer ‘benefits’ or ‘interests,’ that may be enforced
[under § 1983.]”). Moreover, the Court has “rejected the
notion” that its precedent “permit[s] anything short of
an unambiguously conferred right to support a cause of
action brought under § 1983.” Gonzaga, 536 U.S. at 283
(emphasis added).
The Court has grown increasingly wary of recognizing
new private rights of the sort at issue here, enforceable
under § 1983. 8 As the majority well knows, this is
8. The Supreme Court’s reticence in the § 1983 context is
consistent with the entire swath of its implied rights jurisprudence.
See, e.g., Ziglar v. Abbasi, 137 S. Ct. 1843, 1857, 198 L. Ed. 2d 290
(2017) (describing “the notable change in the Court’s approach to
recognizing implied causes of action” over the past two decades);
Alexander v. Sandoval, 532 U.S. 275, 287, 121 S. Ct. 1511, 149 L.
Ed. 2d 517 (2001) (repudiating the “ancien regime” practice of
creating implied causes of action to effectuate a statute’s broader
purposes); Gonzaga, 536 U.S. at 285 (discussing the Court’s
implied rights and implied cause of action jurisprudence together
and noting that “[a] court’s role in discerning whether personal
rights exist in the § 1983 context should . . . not differ from its
role in discerning whether personal rights exist in the implied
right of action context”); see also Richard H. Fallon et al., Hart
& Wechsler’s The Federal Courts and the Federal System 1010

45a
Appendix A
particularly true with respect to “legislation enacted
pursuant to the spending power,” where “the typical
remedy for state noncompliance with federally imposed
conditions is not a private cause of action for noncompliance
but rather action by the Federal Government to terminate
funds to the state.” Gonzaga, 536 U.S. at 280 (quoting
Pennhurst, 451 U.S. at 28). Clarity as to the existence
of a right enforceable in a § 1983 action is especially
important in this context because the right of action itself
is a condition on a state’s receipt of federal funds, and is
thus a significant term in the “contract” to which the state
must knowingly and voluntarily agree. See Suter, 503 U.S.
at 356 (quoting Pennhurst, 451 U.S. at 17).
The Supreme Court has held that Spending Clause
legislation created an individually enforceable right under
§ 1983 in only three cases. See Wilder v. Va. Hosp. Ass’n,
496 U.S. 498, 110 S. Ct. 2510, 110 L. Ed. 2d 455 (1990);
Wright v. Roanoke Redev. & Hous. Auth., 479 U.S. 418,
107 S. Ct. 766, 93 L. Ed. 2d 781 (1987); Maine v. Thiboutot,
448 U.S. 1, 100 S. Ct. 2502, 65 L. Ed. 2d 555 (1980). The
majority cites these cases repeatedly, but glosses over the
nearly three decades of case law following Wilder, the most
recent of the trio, during which time the Supreme Court
has never again recognized a private right enforceable
under § 1983 in Spending Clause legislation. This trend
has not been accidental. As the Court clarified in 2015,
“our later opinions plainly repudiate the ready implication
of a § 1983 action that Wilder exemplified.” Armstrong
(7th ed. 2015) (observing that the Court’s “general tenor . . . has
reflected skepticism that Congress intends federal statutes to
create ‘rights’ when it fails to provide statutory remedies”).

46a
Appendix A
v. Exceptional Child Ctr., Inc., 135 S. Ct. 1378, 1386, 191
L. Ed. 2d 471 n.* (2015) (citation omitted). The majority
criticizes citation to Armstrong as “glom[ing] on to one
sentence of dicta,” but the Court’s migration away from
recognizing § 1983 rights is both pervasive and undeniable.
Indeed, this Court has already conceded as much, see,
e.g., Kapps v. Wing, 404 F.3d 105, 127 (2d Cir. 2005)
(Calabresi, J.) (recognizing that “the Court has appeared
to be increasingly reluctant to find § 1983-enforceable
rights in statutes which . . . set forth their requirements
in the context of delineating obligations that accompany
participation in federal spending clause programs”).
In outlining the Supreme Court’s jurisprudence
in this area, then, I am not predicting the future but
instead faithfully following existing precedent. The
Court has held that unless Congress “speaks with a clear
voice and manifests an unambiguous intent to confer
individual rights, federal funding provisions provide no
basis for private enforcement by § 1983.” Gonzaga, 536
U.S. at 280 (emphasis added) (internal quotation marks
omitted). Given this existing and demanding standard for
recognizing a privately enforceable right, the PlaintiffAppellant took on a challenging task indeed in attempting
to demonstrate that the CWA confers on certain New York
foster child caregivers the right to bring suit in federal
court when they believe they have not been adequately
compensated for the items specified in § 675(4)(A). 9 I
cannot agree with the majority that the Plaintiff-Appellant
has come even close to meeting this challenge.
9. I agree with the majority that the Plaintiff-Appellant has
standing to assert the rights of these caregivers.

47a
Appendix A
B
The majority structures its analysis around the three
Blessing factors.10 At the start, however, I would note that
the Supreme Court’s more recent jurisprudence calls into
question the vitality of the Blessing test. In Gonzaga,
the Court stated that “[s]ome language in our opinions
might be read to suggest that something less than an
unambiguously conferred right is enforceable by § 1983.
Blessing, for example, set forth three ‘factors’ to guide
judicial inquiry into whether or not a statute confers a
right . . . . We now reject the notion that our cases permit
anything short of an unambiguously conferred right to
support a cause of action brought under § 1983.” 536 U.S.
at 283; see also id. at 291 (Breyer, J., concurring in the
judgment) (“[S]tatute books are too many, the laws too
diverse, and their purposes too complex, for any single
formula to offer more than general guidance.”). Again,
10. Those three factors are: (1) whether “Congress . . .
intended that the provision in question benefit the plaintiff”;
(2) whether “the right assertedly protected by the statute is
. . . so ‘vague and amorphous’ that its enforcement would strain
judicial competence”; and (3) whether the statute “unambiguously
impose[s] a binding obligation on the States”—i.e., whether
“the provision giving rise to the asserted right [is] couched in
mandatory, rather than precatory, terms.” Blessing, 520 U.S. at
340-41; see also Gonzaga, 536 U.S. at 288-89. If a plaintiff meets
this test, thus demonstrating “that [the] federal statute creates
an individual right,” this creates “a rebuttal presumption that the
right is enforceable under § 1983,” which the defendant may rebut
by showing that Congress “creat[ed] a comprehensive enforcement
scheme that is incompatible with individual enforcement under
§ 1983.” Blessing, 520 U.S. at 341.

48a
Appendix A
contrary to the majority’s suggestion, I do not canvas
current Supreme Court precedent to “read the tea leaves
to predict” future Supreme Court decisions. Maj. Op.
at 16-17. In this Circuit we use the Blessing factors to
“guide” our analysis but, in recognition of the Supreme
Court’s existing guidance, we already decline to apply
these factors mechanistically, “find[ing] a federal right
based on [their] rigid or superficial application . . . where
other considerations show that Congress did not intend to
create federal rights actionable under § 1983.” Torraco v.
Port Auth. of New York & New Jersey, 615 F.3d 129, 136
(2d Cir. 2010) (quoting Wachovia Bank, N.A. v. Burke, 414
F.3d 305, 322 (2d Cir. 2005)).
In any event, here, each of the Blessing factors
presents formidable obstacles for the Plaintiff-Appellant.
Though I will not belabor the points, the analysis of the
statutory scheme provided in Part I, supra, disposes
of the first and third Blessing factors. Briefly, as to the
first factor, whether “Congress . . . intended that the
provision benefit the plaintiff,” Blessing, 520 U.S. at 340,
the provisions of the CWA at issue here do not suggest an
“unambiguous” focus on benefit to the Plaintiff-Appellant
and the subset of foster parents receiving foster care
maintenance payments, Blessing, 520 U.S. at 340-41. As
the Supreme Court noted in Gonzaga, “[s]tatutes that
focus on the person regulated rather than the individuals
protected” do not evince congressional intent to create
enforceable rights. Gonzaga, 536 U.S. at 287 (quoting
Alexander v. Sandoval, 532 U.S. 275, 289, 121 S. Ct. 1511,
149 L. Ed. 2d 517 (2001)). Thus, the Court cautioned there
that provisions outlining the institutional or state actions

49a
Appendix A
that would terminate federal funding “cannot make out the
requisite congressional intent to confer individual rights
enforceable by § 1983.” Id. at 288-89. Here, because the
relevant provisions of the CWA focus on the states rather
than the benefitted individuals, the court below ended its
analysis with the first Blessing factor, concluding that the
Plaintiff-Appellant could not surmount even this hurdle.
See New York State Citizens’ Coal. for Children v. Carrion,
31 F. Supp. 3d 512, 527 (E.D.N.Y. 2014) (dismissing claim
under first Blessing prong and determining that “there is
no need to review the other Blessing factors”). I discern
no error in the district court’s able analysis.
As to the third Blessing factor: § 675(4)(A), correctly
interpreted as listing the state expenditures eligible
for reimbursement, does not “unambiguously impose
a binding obligation on the State,” Blessing, 520 U.S.
at 340-41 (emphasis added), to cover the cost of each of
the items enumerated in § 675(4)(A). Though the CWA
undeniably imposes obligations on the states elsewhere
as a precondition for federal funds, the majority errs in
locating an unambiguous spending obligation in § 675(4)
(A), and thus fails to identify “exactly what is required of
States by the Act.” Suter, 503 U.S. at 358.
I focus principally here on the second Blessing
factor—that is, whether the asserted right is so deeply
“undefined” that its enforcement would “strain judicial
competence.” Blessing, 520 U.S. at 345 (quoting Livadas
v. Bradshaw, 512 U.S. 107, 132, 114 S. Ct. 2068, 129 L.
Ed. 2d 93 (1994)). In fact, conscientious consideration of
this factor alone is sufficient to establish that Congress

50a
Appendix A
did not intend §§ 672(a)(1) and 675(4)(A) to provide
individually enforceable rights. Cf., e.g., Backer ex rel.
Freedman v. Shah, 788 F.3d 341, 344-45 (2d Cir. 2015)
(finding, through an analysis of the second Blessing factor
alone, that a federal provision did not create enforceable
rights under § 1983); Torraco, 615 F.3d at 137-39 (same).
The majority disregards Supreme Court precedent in
concluding otherwise, and its ruling will impose on foster
care programs within this Circuit an unfortunate and
unsupportable risk of “increased litigation, inconsistent
results, and disorderly administration,” none of which will
inure to those programs’ benefit. Armstrong, 135 S. Ct.
at 1389 (Breyer, J., concurring in part and concurring in
the judgment).
The Plaintiff-Appellant seeks to enforce through
§ 1983 an alleged federal right of certain New York foster
child caregivers to receive “foster care maintenance
payments” under 42 U.S.C. §§ 672(a)(1) and 675(4)(A). No
one disputes that New York does provide such payments—
the Plaintiff-Appellant’s actual grievance is that the
payments are not, on average, large enough. Put another
way, the Plaintiff-Appellant insists that New York’s foster
care maintenance payments do not “cover the cost of (and
the cost of providing)” each of the items listed in § 675(4)
(A), and that New York caregivers receiving inadequate
payments have a § 1983 right to sue for the deficiency.
This argument raises the threshold question of how to
calculate “the cost of (and the cost of providing)” the items
listed in § 675(4)(A). The Plaintiff-Appellant essentially
contends that there is an objective “cost” to each of

51a
Appendix A
the enumerated items, and that New York caregivers
receiving foster care maintenance payments have a § 1983
right to payments sufficient to cover that “cost.” Relying
on a 2007 study by the National Foster Parent Association,
Children’s Rights and the University of Maryland School of
Social Work (“the 2007 Study”),11 the Plaintiff-Appellant’s
complaint alleges that New York’s foster care maintenance
payments fail to cover the “cost” of the § 675(4)(A) items
by as much as 43%. The Plaintiff-Appellant also claims
that by consulting “readily available data” on the cost
of the enumerated items, calculating the amount that
these caregivers should be paid involves “nothing more
than basic arithmetic.” Br. for Pl.-Appellant at 33. The
majority largely concurs, arguing that settling upon the
appropriate payments is both a judicially administrable
task and one requiring “only very limited review of policy
determinations.” Maj. Op. at 25.
These assertions do not withstand even minimal
scrutiny. In reality, calculating the “cost” of the § 675(4)(A)
items implicates numerous and difficult policy judgments
about foster care and childrearing, not to mention overall
program administration, that federal judges are ill
equipped to make and that go entirely unaddressed in
the statute that the majority interprets to unambiguously
require such judgments. The Plaintiff-Appellant points to
the 2007 Study as a benchmark for performing these cost
calculations. But even a cursory examination of this study
11. Children’s Rights et al., Hitting the M.A.R.C.: Establishing
Foster Care Minimum Adequate Rates for Children, Technical
Report (2007), http://w w w.childrensrights.org/wpcontent/
uploads/2008/06/hitting_the_marc_summary_october_2007.pdf .

52a
Appendix A
reveals how arbitrary the administration of § 675(4)(A) by
federal judges would likely be.
As an initial matter, the 2007 Study bases its cost
estimates on survey data from a Consumer Expenditure
Survey of the Bureau of Labor Statistics of the United
States Department of Labor, which is a national survey
of household expenditures. Yet the Plaintiff-Appellant’s
own submissions imply that state foster care maintenance
rates should be at least state, if not county-specific. See
Br. for Pl-Appellant at 4 (protesting that New York’s
“foster care maintenance payment rates rank below those
of States where the cost of living is significantly lower”).
Whether and how a state should take account of geography
in setting its maintenance rates is not addressed in the
CWA and is certainly not a question of “basic arithmetic.”
Furthermore, the 2007 Study’s recommended
payment rates do not vary based on a family’s income level.
See 2007 Study at 40. Instead, the 2007 Study creates a
uniform maintenance rate based on the national spending
habits of middle-income families, on the assumption that
the spending habits of these families represent an accurate
cost estimate for all families. Id. at 21. Yet the “cost” of
a § 675(4)(A) item may vary based on a given family’s
income.12 Should family income level affect the payment
12. For instance, as the State Amici note, “in the urban
Northeast, food estimates for expenditures on children ages 12-14
in a two-parent family making more than $106,000 annually were
$3,420,” while “[e]stimates show that the same family composition
making less than $61,680 spent only $2,340”—a difference of over
$1,000. Br. of Amici Curiae States at 26-27.

53a
Appendix A
to which a subset of a state’s foster child caregivers are
entitled? The majority does not provide an answer. Nor
does the CWA. Finally, the 2007 Study addresses only
a “basic” foster care rate and does not even attempt to
calculate the costs of caring for a foster child with special
needs, including both physical disabilities and emotional
difficulties. See id. at 2 n.1. So what is a judge to do, when
the CWA itself contains nothing “sufficiently specific and
definite,” Wright, 479 U.S. at 432, to guide the court’s
evaluation of any rate on which a state might settle for
this important category of children?
The above-listed issues provide just a sampling of
the problems inherent in recognizing a § 1983 right in
§§ 672(a)(1) and 675(4)(A) of the CWA. This sampling is
enough to show that it is fanciful to claim that Congress
manifested in the CWA an unambiguous intent to confer
on a subset of foster child caregivers this private right
of action, with nary a statutory word as to the criteria to
be used in reaching judgments about whether a state’s
payments for the items enumerated in § 675(4)(A) are
sufficient. The Supreme Court has been particularly
reluctant to conclude that a federal cause of action exists
where, as here, the required remedy would entail judicial
ratemaking, given that “[t]he history of ratemaking
demonstrates that administrative agencies are far better
suited to this task than judges.” Armstrong, 135 S. Ct.
at 1388 (Breyer, J., concurring in part and concurring
in the judgment). Still less are federal courts suited for
this rate-setting task in the family-relations sphere, a
“traditional area of state concern.” See Moore v. Sims,
442 U.S. 415, 435, 99 S. Ct. 2371, 60 L. Ed. 2d 994 (1979);

54a
Appendix A
see also Thompson v. Thompson, 484 U.S. 174, 186, 108 S.
Ct. 513, 98 L. Ed. 2d 512 (1988) (holding that the Parental
Kidnapping Prevention Act did not create a private cause
of action enforceable in federal court because doing so
would “entangle[] [federal courts] in traditional state-law
questions that they have little expertise to resolve”).
The majority, likely cognizant of the irregular role
it today forces upon federal judges, remains somewhat
evasive about the precise contours of the § 1983 right that
it recognizes. The right seems to “require” courts “to
review how a state ha[s] determined the amounts it pays,
including how it has quantified the costs of the specific
expenses listed in Section 675(4).” Maj. Op. at 25. But the
majority never specifies what this review should look like.
At times, the majority implies that a subset of New York
foster parents have a § 1983 right to require New York
simply “to quantify costs for set expenses.” Id. at 25. At
other moments, the majority suggests that federal courts
must engage in a substantive review of a state’s foster care
payment scheme, id. at 24, but it notably demurs from
informing lower courts what this “very limited review”
entails. In sum, this vague analysis is a far cry from the
careful “methodical inquiry” that the Supreme Court
expects from lower courts when they discern § 1983 rights
in federal legislation. See Blessing, 520 U.S. at 343.
Whatever the majority’s good intentions, exposing
New York’s foster care system to amorphous § 1983
claims that are not contemplated in the CWA is no way to
further the CWA’s goals, nor to benefit foster care systems
more generally. Indeed, the majority’s decision raises

55a
Appendix A
the prospect that scarce foster care resources, instead of
going to foster children, will be squandered in litigation
destined to produce arbitrary and inconsistent results.13
As the Blessing Court reminds us, when an asserted right
is sufficiently amorphous that its “enforcement would
strain judicial competence,” this is a clear indication
that Congress did not intend to create such a right. See
Blessing, 520 U.S. 329 at 341, 117 S. Ct. 1353, 137 L. Ed.
2d 569 (quoting Livadas, 512 U.S. at 132). Such is the
case here.
C
In its hurried desire to create a right enforceable
under § 1983, the majority also misconstrues the
controlling precedent provided by the Supreme Court’s
2015 Armstrong decision. The majority observes that “[t]
he only federal review provided under the [CWA] is review
by the Secretary for substantial conformity . . . , with the
possibility of funding cutoffs as the sole remedy.” Maj.
Op. at 29. According to the majority, this limited remedy
signifies that Congress did not intend to foreclose private
enforcement of §§ 672(a)(1) and 675(4)(A). But Armstrong
dictates the opposite conclusion: when Congress passes a
statute that is “judicially unadministrable,” and the “sole
remedy” for a state’s noncompliance is the Secretary’s
13. The beneficiaries of the majority’s scheme therefore may
not be foster care parents or other caregivers, but the attorneys
who bring claims on their behalf. See 42 U.S.C. § 1988(b)(2)
(providing that “[i]n any action or proceeding to enforce a provision
of [§1983], the court, in its discretion, may allow the prevailing
party . . . a reasonable attorney’s fee as part of the cost . . . .”).

56a
Appendix A
withholding of funds, Congress has manifested an intent
for “the agency remedy that it provided [to be] exclusive.”
Armstrong, 135 S. Ct. at 1385 (quoting Gonzaga, 536 U.S.
at 292 (Breyer, J., concurring in the judgment)).
In Armstrong, private plaintiffs attempted to sue
in equity to enforce § 30A of the Medicaid Act. See
id. That section mandated that state Medicaid plans
provide payments to hospitals that were “consistent
with efficiency, economy, and quality of care” while
“safeguard[ing] against unnecessary utilization of . . . care
and services.” 42 U.S.C. § 1396a(a)(30)(A). The Medicaid
Act also specified that a federal agency should withhold
funds from states that fail to meet this detailed mandate.
Id. § 1396c. The Court concluded, based on “[t]he sheer
complexity associated with enforcing § 30(A), coupled
with the express provision of an administrative remedy,”
that the Medicaid Act “precludes private enforcement
of § 30(A) in courts.” Armstrong, 135 S. Ct. at 1385.
Instead, the Court determined that the “judgment-laden”
§ 30A demonstrated a congressional desire to “achiev[e]
the expertise, uniformity, widespread consultation, and
resulting administrative guidance that can accompany
agency decisionmaking,” while “avoiding the comparative
risk of inconsistent interpretations and misincentives that
can arise out of an occasional inappropriate application
of the statute in a private action.” Id. (emphasis added)
(quoting Gonzaga, 536 U.S. at 292 (Breyer, J., concurring
in the judgment)).
Armstrong squarely controls our case. Not only does
defining “the cost of” all the § 675(4)(A) items require
myriad policy choices that have no legal answer, as in

57a
Appendix A
Armstrong,14 but the Medicaid Act and CWA also have
near-identical enforcement schemes. Under the CWA,
HHS must issue regulations specifying criteria to
determine whether a state is in substantial conformity
with the CWA and may ultimately withhold funding from
states that do not meet these standards. Similarly, under
the Medicaid Act, “the sole remedy Congress provided
for” was “the withholding of Medicaid funds by” HHS.
Armstrong, 135 S. Ct. at 1385.
The majority attempts to distinguish Armstrong by
noting that Armstrong concerned a suit in equity rather
than a suit under § 1983. But it is harder for a private
plaintiff to enforce a federal provision under § 1983 than it
is for that plaintiff to enforce a federal provision by suing
to enjoin allegedly unlawful actions, as the Armstrong
plaintiffs sought to do. See Armstrong, 135 S. Ct. at 1392
(Sotomayor, J., dissenting).; id. at 1384 (majority opinion).
Such a plaintiff, seeking to enforce a provision in equity,
benefits from a presumption that an equitable cause of
action exists and that Congress did not intend to foreclose
such a cause of action. Id.; see also id. at 1384-86 (majority
opinion). A plaintiff seeking to enforce a provision under
§ 1983, however, faces the opposite presumption: a plaintiff
“must demonstrate specific congressional intent to create”
14. Contrary to the majority’s assertion, §§ 672(a)(1) and
675(4)(A) of the CWA are even more indeterminate than § 30(A)
of the Medicaid Act because § 30(A)—unlike §§ 672(a)(1) and
675(4)(A)—at least provides some criteria for setting payment
rates. See 42 U.S.C. § 1396a(30)(A) (specifying that payments be
“consistent with efficiency, economy, and quality of care,” while
“safeguard[ing] against unnecessary utilization of . . . care and
services”).

58a
Appendix A
an enforceable right. Id. at 1392; see also Gonzaga, 536
U.S. at 286. For this reason, the plaintiffs in Armstrong
did not even attempt to enforce § 30(A) pursuant to § 1983;
if they could not enforce the provision in equity, a fortiori,
they could not do so pursuant to a § 1983 theory like the
one relied on here.15 See Armstrong, 135 S. Ct. at 1386 n.*;
id. at 1392 (Sotomayor, J., dissenting). Any distinctions
between this case and Armstrong, then, actually hurt the
Plaintiff-Appellant.
D
Rather than acknowledging the controlling weight of
the Court’s Armstrong precedent, the majority invokes
out-of-circuit case law, as well as two cases—each
15. The majority argues that it must be easier to bring a
claim under § 1983 than in equity because Congress passed
§ 1983 to create an additional means by which “plaintiffs [can]
sue the government for civil rights violations.” Maj. Op. at 3031. But its comparison is inapt. Section 1983 provides different
remedies against different defendants for civil rights violations,
unavailable in equity. It is precisely because of the “variety of
remedies—including damages—[available] from a broad range
of parties” under § 1983 that a plaintiff “invoking § 1983” cannot
“simply point[] to background equitable principles authorizing
the action,” but must instead “demonstrate specific congressional
intent to create a statutory right.” Armstrong, 135 S. Ct. at 1392
(Sotomayor J., dissenting); see also Golden State Transit Corp. v.
City of Los Angeles, 493 U.S. 103, 119, 110 S. Ct. 444, 107 L. Ed.
2d 420 (1989) (Kennedy J., concurring) (noting that equity does
“not limit jurisdiction to those who can show the deprivation of
a right, privilege, or immunity secured by federal law within the
meaning of § 1983”).

59a
Appendix A
three decades old—in which the Supreme Court held
that Spending Clause legislation provided a source of
individually enforceable rights. See Wright, 479 U.S. at
418; Wilder, 496 U.S. at 498. The majority’s approach to
the slim precedent on which it does rely is flawed for at
least four reasons.
First, as explained above, the Court has stated
on more than one occasion that “the ready implication
of a § 1983 action that Wilder exemplified” has been
“repudiate[d]” by more recent precedent. See Armstrong,
135 S. Ct. at 1386 n.* (citing Gonzaga, 536 U.S. at 283).
Thus, Wilder’s precedential value (along with Wright’s) is
limited at best.16 See Doe v. Gillespie, 867 F.3d 1034, 1040
(8th Cir. 2017) (“Later decisions, however, show that the
governing standard for identifying enforceable federal
rights in spending statutes is more rigorous [than Wilder]
. . . . [T]he Court’s ‘repudiation’ of Wilder is the functional
equivalent of ‘overruling,’ as the Court uses the terms
interchangeably.”).
Second, even ignoring their precarious status
as precedent, Wright and Wilder involved statutory
provisions that were notably different from those at issue
here. The majority’s approach to the CWA here echoes
that of the Sixth and Ninth Circuits, which have both
concluded that §§ 672(a)(1) and 675(4)(A) are judicially
administrable under § 1983 because courts can assess
16. Although our Circuit determined in Briggs v. Bremby,
792 F.3d 239, 244 (2d Cir. 2015) (Calabresi J.,), that Wright and
Wilder are still good law, Briggs did not cite Armstrong, nor did
it address Armstrong’s disavowal of Wilder.

60a
Appendix A
the states’ rate calculations for “reasonable[ness].” Maj.
Op. at 25-26; D.O. v. Glisson, 847 F.3d 374, 380 (6th Cir.
2017); Cal. State Foster Parent Ass’n v. Wagner, 624 F.3d
974, 981 (9th Cir. 2010). Yet “[i]n both Wright and Wilder
the word ‘reasonable’ occupied a prominent place in the
critical language of the statute or regulation.”17 Suter,
503 U.S. at 357. By contrast, the word “reasonable” is
entirely absent from § 672(a)(1), the relevant provision
of the CWA. Cf. Armstrong, 135 S. Ct. at 1389 (Breyer,
J., concurring in part and concurring in the judgment)
(distinguishing statutes that require courts to review
rates for “reasonableness,” which are administrable, from
those that require courts “to engage in [] direct ratesetting,” which are not). Given that the ultimate inquiry in
this case is one of congressional intent, and unambiguous
intent at that, the majority should not follow the Sixth and
Ninth Circuits in improperly rewriting the text of the
CWA. Cf. E.P.A. v. EME Homer City Generation, L.P.,
572 U.S. 489, 134 S. Ct. 1584, 1601, 188 L. Ed. 2d 775 (2014)
(“[A] court’s task is to apply the text of [a] statute, not to
improve upon it.” (quoting Pavelic & LeFlore v. Marvel
Entm’t Grp., 493 U.S. 120, 126, 110 S. Ct. 456, 107 L. Ed.
2d 438 (1989))).
17. Wilder involved the (since-repealed) Boren Amendment,
42 U.S.C. § 1396a(a)(13)(A), which required a state plan for medical
assistance to provide payments “which the State finds, and makes
assurances satisfactory to the Secretary, are reasonable and
adequate.” 496 U.S. at 502-03 (emphasis removed). And Wright
involved a regulation requiring state public housing authorities to
impose a ceiling on the rent charged to low-income tenants that
took into account, among other things, “reasonable amounts of
utilities.” 479 U.S. at 419-21 & n.3 (emphasis added).

61a
Appendix A
Third, in both Wright and Wilder, the relevant statute
and regulations provided detailed guidance to the states
as to how they should calculate the rates in question.18 See
Wilder, 496 U.S. at 519; Wright, 479 U.S. at 431-32; see
also Suter, 503 U.S. at 359 (noting that the Court in Wilder
“relied in part on the fact that the statute and regulations
set forth in some detail the factors to be considered in
determining the methods for calculating rates”). As a
result, in Wright and Wilder, a reviewing federal court
had some objective benchmark for evaluating state rates.
Sections 672(a)(1) and 675(4)(A), by contrast, provide no
guidance as to how a state should calculate its rates, nor
do HHS’s regulations.
Finally, as the Eighth Circuit has noted, “unlike the
CWA sections at issue here, the relevant provisions in
the Medicaid Act [at issue in Wilder] did not focus on
defining the conditions that must be met in order for a
participating state’s expenditures to be eligible for federal
matching funds and, therefore, did not evince the degree
of removal [from the provision’s purported beneficiaries]
we now confront.” Midwest Foster Care, 712 F.3d at 1199;
see also Wright, 479 U.S. at 420 (finding individual right
18. That said, the Court would probably now hold that the
statute, rather than its implementing regulations, must provide an
adequate benchmark; the existence of a right enforceable pursuant
to § 1983 is a matter of Congressional rather than agency intent.
Cf. Alexander, 532 U.S. at 291 (“Language in a regulation may
invoke a private right of action that Congress through statutory
text created, but it may not create a right that Congress has
not.”). This is yet another reason why neither Wilder nor Wright
controls here.

62a
Appendix A
to claim rent overcharges under a statute that provided
that “[a] family shall pay as rent the highest of” specifically
defined amounts). In sum, then, the CWA does not even
meet the lenient standard for articulating an enforceable
right that was set during what the Court has characterized
as its “ancien regime” of implied rights jurisprudence.
Alexander, 532 U.S. at 287. It certainly cannot meet the
more exacting test the Court now employs.
***
Statutes enacted under the Spending Clause create
privately enforceable rights under § 1983 only if they do
so “unambiguously.” See Gonzaga, 536 U.S. at 280. Courts
demand this level of clarity out of respect for congressional
drafters and state legislators, both of whom are equal
parties to the statutory “contract.” See Barnes v. Gorman,
536 U.S. 181, 186, 122 S. Ct. 2097, 153 L. Ed. 2d 230 (2002)
(quoting Pennhurst, 451 U.S. at 17). Here, Congress did not
provide for private enforcement of §§ 672(a)(1) and 675(4)
(A) pursuant to § 1983—unambiguously or otherwise.
The states, for their parts, did not agree to subject their
foster care programs to the continuous review of federal
courts in § 1983 litigation—litigation that will impose on
these programs the burdens of both incessant suit and
unpredictable outcomes. The majority’s decision today is
inconsistent with controlling precedent and fails to give
the choices made by Congress and the states in the CWA
the respect they deserve. I respectfully—but firmly—
dissent.

63a
B the United
Appendix B —Appendix
Order Of
stAtes COUrt Of AppeAls fOr the seCOnd
CirCUit, dAted OCtOBer 23, 2017
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
14-2919-cv
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 23rd day of October, two thousand
seventeen.
Guido Calabresi, Debra Ann Livingston, Circuit
Judges, William K. Sessions III, District Judge.*
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Plaintiff-Appellant,
v.
SHEILA J. POOLE**, ACTING COMMISSIONER OF
THE NEW YORK STATE OFFICE OF CHILDREN
& FAMILY SERVICES, IN HER
OFFICIAL CAPACITY,
Defendant-Appellee.
* The Honorable William K. Sessions III, of the United States
District Court for the District of Vermont, sitting by designation.
** Pursuant to Federal Rule of Appellate Procedure 43(c)(2),
Acting Commissioner Sheila J. Poole is automatically substituted for
former Acting Commissioner Roberto Velez as Defendant-Appellee
in this case.

64a
Appendix B
Order
The district court (Kuntz, J.) having concluded
proceedings in the above-captioned case subsequent to
the Court’s summary order of October 29, 2015, which
remanded the case to the district court pursuant to
United States v. Jacobson, 15 F.3d 19 (2d Cir. 1994),
and the Plaintiff-Appellant having sought restoration of
jurisdiction over the appeal in an October 9, 2017 letter
to the Clerk of Court, we hereby order that jurisdiction
in the above-captioned case be RESTORED.
Both the Plaintiff-Appellant and the DefendantAppellee are further ordered to submit, within 30 days
from the date of this order, simultaneous letter-briefs of
no more than 25 double-spaced pages, addressing the
question whether the district court correctly concluded
that the Plaintiff-Appellant has Article III standing to
pursue its claims, and also addressing the merits and,
in particular, how intervening case law since the initial
briefing before this Court may affect the merits of this
case.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/ Catherine O’Hagan Wolfe

65a
Appendix C AND OrDEr of
Appendix C — DECIsION
the UNITED sTATEs DIsTrICT COUrT FOr
THE EAsTErN DIsTrICT OF NEW YOrK,
FIlED sEPTEMBEr 29, 2017
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
No. 10-CV-3485 (WFK) (RER)
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Plaintiff,
v.
ROBERTO VELEZ, CoMMissioner
of the New York State Office
of Children & FaMily Services,
in his official caPacity,
Defendant.
September 29, 2017, Decided
September 29, 2017, Filed
DECIsION AND OrDEr
WIllIAM F. KUNTZ, II, United states District Judge:
The New York State Citizens’ Coalition for Children
(the “Coalition” or “Plaintiff”) is a New York nonprofit
organization whose mission is to advocate for and provide

66a
Appendix C
support to foster parents. On July 29, 2010, Plaintiff filed
suit against the Commissioner of the New York State
Office of Children & Family Services (“Defendant”),
alleging New York State’s basic foster care reimbursement
rates do not comply with the Adoption Assistance and
Child Welfare Act (“CWA”), 42 U.S.C. §§ 670-679c and
seeking declaratory and injunctive relief. See generally
Compl., ECF No. 1. On July 17, 2014, this Court issued
a Decision and Order granting Defendant’s motion to
dismiss Plaintiff’s Complaint, ECF No. 66, which Plaintiff
appealed, see ECF No. 68. On October 29, 2015, the Second
Circuit issued a summary order remanding the case with
instructions that this Court “address the disputed issue
of Article III standing.” N.Y. State Citizens’ Coal. for
Children v. Velez, 629 F. App’x 92, 94-95 (2d Cir. 2015).
This Court referred the question of standing to Magistrate
Judge Ramon E. Reyes, Jr. After considering testimony
from an evidentiary hearing on January 28, 2016, as well
as the parties’ proposed findings of fact and conclusions
of law, ECF Nos. 76 & 77, Magistrate Ridge Reyes issued
a Report and Recommendation (“R&R”) on November 7,
2016, recommending the Court find Plaintiff has Article
III standing, ECF No. 78. Defendant filed Objections to
the R&R on November 21, 2017, Objections, ECF No.
79, and Plaintiff filed its response to the Objections on
December 13, 2017, Resp., ECF No. 81. After a de novo
review of the record, the Court ADOPTS the R&R in full.
BACKGrOUND
The Court assumes the parties’ familiarity with the
underlying facts and procedural history of this case, which
are detailed in Magistrate Judge Reyes’s R&R.

67a
Appendix C
lEGAl sTANDArD
In reviewing a report and recommendation, the Court
“may accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate
judge.” 28 U.S.C. § 636(b)(1). The Court is “permitted
to adopt those sections of a magistrate judge’s report
to which no specific objection is made, so long as those
sections are not facially erroneous.” Norman v. Metro.
Transp. Auth., 13-CV-1183, 2014 U.S. Dist. LEXIS
129010, 2014 WL 4628848, at *1 (E.D.N.Y. Sept. 15, 2014)
(Matsumoto, J.). When a party raises a specific objection
to a report and recommendation, however, the Court must
conduct a de novo review of the contested portions. Id.; cf.
Barratt v. Joie, 96-CV-0324, 2002 U.S. Dist. LEXIS 3453,
2002 WL 335014, at *1 (S.D.N.Y. Mar. 4, 2002) (Swain,
J.) (“When a party makes only conclusory or general
objections, or simply reiterates his original arguments,
the Court reviews the Report and Recommendation only
for clear error.”). Furthermore, even on de novo review,
“a district judge will nevertheless ‘ordinarily refuse to
consider arguments, case law and/or evidentiary material
which could have been, but was not, presented to the
Magistrate Judge in the first instance.’” Kennedy v.
Adamo, 02-CV-1776, 2006 U.S. Dist. LEXIS 93900, 2006
WL 3704784, at *1 (E.D.N.Y. Sept. 1, 2006) (Vitaliano, J.)
(quoting Haynes v. Quality Mkts., 02-CV-0250, 2003 U.S.
Dist. LEXIS 28642, 2003 WL 23610575, at *3 (E.D.N.Y.
Sept. 22, 2003) (Scott, J.)).

68a
Appendix C
DIsCUssION
On remand from the Second Circuit, Magistrate
Judge Reyes concluded that Plaintiff has standing to
bring its claims. R&R at 8. Defendant’s Objections
primarily contest the Magistrate Judge’s determination
that Plaintiff has suffered, and is likely to continue to
suffer, a concrete injury. See generally Objections. After
considering Defendant’s Objections, conducting a de
novo review of the contested portions of the R&R, and
reviewing the uncontested portions for clear error, the
Court ADOPTS the R&R in its entirety.
Article III standing is “the threshold question in
every federal case, determining the power of the court to
entertain the suit.” Warth v. Seldin, 422 U.S. 490, 498, 95
S. Ct. 2197, 45 L. Ed. 2d 343 (1975). To establish standing,
“a plaintiff must have suffered an ‘injury in fact’ that is
‘distinct and palpable’; the injury must be fairly traceable
to the challenged action; and the injury must be likely
redressable by a favorable decision.” Denney v. Deutsche
Bank AG, 443 F.3d 253, 263 (2d Cir. 2006) (quoting Lujan
v. Defs. of Wildlife, 504 U.S. 555, 560-61, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992)); see also City of Los Angeles v.
Lyons, 461 U.S. 95, 102, 103 S. Ct. 1660, 75 L. Ed. 2d 675
(1983) (explaining “threat of injury must be both ‘real and
immediate,’ not ‘conjectural’ or ‘hypothetical’”).
Ordinarily, an organization may sue either “on behalf
of its members, in which case it must show, inter alia, that
some particular member of the organization would have
had standing to bring the suit individually,” N.Y. Civil

69a
Appendix C
Liberties Union v. N. Y.C. Transit Auth., 684 F.3d 286,
294 (2d Cir. 2012), or “in its own right to seek judicial
relief from injury to itself and to vindicate whatever
rights and immunities the association itself may enjoy,”
Warth, 422 U.S. at 511. But Second Circuit law is clear
that, in actions brought pursuant to 42 U.S.C. § 1983,
organizations “do[] not have standing to assert the rights
of [their] members” and must “independently satisfy the
requirements of Article III standing as enumerated in
Lujan.” Nnebe v. Daus, 644 F.3d 147, 156 (2d Cir. 2011);
see also Knife Rights, Inc. v. Vance, 802 F.3d 377, 388
(2d Cir. 2015) (explaining organizational plaintiffs suing
on their own behalf “must independently satisfy the
requirements of Article III standing”).1 Because Plaintiff
is an organization that “seeks declaratory and injunctive
relief under 42 U.S.C. § 1983,” Compl. at 2, it must prove it
satisfies each requirement of Article III standing without
reference to the individual standing of its members.
I. 	Injury
The Second Circuit directed this Court to consider,
on remand, whether Plaintiff adequately alleged
injury—specifically, whether the Coalition suffered some
“‘perceptible opportunity cost’ associated with the New
York State foster care program.” Velez, 629 F. App’x at
1. To the extent that Defendant argues Plaintiff cannot have
standing without an individual foster parent as a named plaintiff,
he is quite simply wrong on the law, as numerous Second Circuit
decisions make abundantly clear. E.g., N.Y. Civil Liberties Union, 684
F.3d at 294-95 (finding standing in § 1983 action where organization
was sole plaintiff).

70a
Appendix C
94-95. Magistrate Judge Reyes determined Plaintiff
had established an injury-in-fact because it had shown
that: (1) it spent 100 hours “responding to phone calls
from foster parents unable to provide for their children
under the current minimum basic rate”; (2) it was “hardly
speculative to expect existing reimbursement rates to
remain unchanged” or “to expect the behavior of foster
parents to continue unchanged”; and (3) “[a]bsent some
change, it is clear that . . . [foster parents] will continue
contacting the Coalition for advice and assistance.” R&R
at 6-8. The Court agrees.
“The Supreme Court has held that an organization
establishes an injury-in-fact if it can show that it was
‘perceptibly impaired’ by defendant’s actions.” Centro
De La Comunidad Hispana De Locust Valley v. Town
of Oyster Bay, 868 F.3d 104, 2017 WL 3596995, at *3 (2d
Cir. 2017) (quoting Havens Realty Corp. v. Coleman, 455
U.S. 363, 379, 102 S. Ct. 1114, 71 L. Ed. 2d 214 (1982)).
Consistent with this holding, the Second Circuit has
made clear that “only a ‘perceptible impairment’ of an
organization’s activities is necessary for there to be an
‘injury in fact.’” Nnebe, 644 F.3d at 157 (quoting Ragin v.
Harry Macklowe Real Estate Co., 6 F.3d 898, 905 (2d Cir.
1993)). “[W]here an organization diverts its resources away
from its current activities, it has suffered an injury that
has been repeatedly held to be independently sufficient to
confer organizational standing.” Oyster Bay, 868 F.3d 104,
2017 WL 3596995, at *4; see also Nnebe, 644 F.3d at 157
(explaining “expenditure of resources that could be spent
on other activities” constitutes injury). Finally, where,
as here, a plaintiff seeks only declaratory and injunctive

71a
Appendix C
relief, the asserted injury must not be speculative. See,
e.g., Knife Rights, 802 F.3d at 388.
The record supports the Magistrate Judge’s finding
that the resources Plaintiff expends advising and assisting
foster parents with regard to inadequate reimbursement
rates constitutes an injury-in-fact. Plaintiff has shown
it: (1) spends a nontrivial amount of time providing such
advice and assistance, see Gasior Decl. Ex. 1 (“Tr.”), at
35:22-24, ECF No. 77-1 (Transcript of Hearing Before
Magistrate Judge Reyes); cf. Nnebe, 644 F.3d at 157
(finding, for purposes of standing, an organization incurs
“some perceptible opportunity cost” even where it only
counsels a few individuals each year); (2) expends limited
resources, which would otherwise be spent on other
activities relevant to Plaintiff’s mission, on this advice
and assistance, see Tr. 33:5-13, 35:25-36:19; cf. Nnebe, 644
F.3d at 157 (explaining “expenditure of resources that
could be spent on other activities” is relevant to standing
inquiry);2 and (3) is likely to continue expending resources
in this manner absent the requested relief, see Tr. 30:1331:11, 39:11-40:17. And although it is true that New York’s
reimbursement plan allows local social services districts
to determine their own reimbursement rates, the State
does not reimburse districts beyond the maximum
2. Of course, the fact that the expenditures Plaintiff alleges
constitute an injury are also consistent with Plaintiff’s mission does
not defeat standing. E.g., Nnebe, 644 F.3d at 167 (“[S]o long as the
economic effect on an organization is real, the organization does not
lose standing simply because the proximate cause of that injury is
‘the organization’s noneconomic interest in encouraging [a particular
policy preference].” (quoting Havens, 455 U.S. at 379 n.20)).

72a
Appendix C
reimbursement rate that Defendant sets. Gasior Decl.
Ex. 5, at 7-9. It is therefore likely, not merely speculative,
that local social services districts will continue to set
less-than-adequate reimbursement rates—meaning it is
also likely, not speculative, that Plaintiff will necessarily
continue to expend resources on providing advice and
assistance to foster parents—unless Defendant is made
to comply with the CWA, including by implementing a
minimum reimbursement rate and generally setting rates
that are adequate.
Through what the Court construes as two distinct
objections to the R&R, Defendant attempts to characterize
Plaintiff’s injury—which the Magistrate Judge found to
be “concrete, clearly defined, and ongoing,” R&R at 7—as
“largely speculative,” Objections at 3-7. First, Defendant
endeavors to cast doubt on whether it is likely, as opposed
to speculative, that foster parents will need to continue
contacting Plaintiff for advice and assistance. Objections
at 3. In sum and substance, Defendant’s argument is that
reimbursement rates have increased since the suit was
filed and they might increase again—perhaps never to the
level Plaintiff seeks through this litigation, but to a level
that theoretically could meet foster parents’ needs—such
that Plaintiffs advice and assistance will no longer be
needed. See id. at 3-4. The Court finds this hypothetical
unavailing.
As an initial matter, Defendant advances this theory
for the first time in his Objections, and it is well settled
that “a litigant is not allowed to oppose a magistrate’s
Report and Recommendation by suddenly asserting new

73a
Appendix C
arguments that were not presented to the magistrate
originally.” Kennedy, 2006 U.S. Dist. LEXIS 93900, 2006
WL 3704784, at *3. Furthermore, Defendant’s submissions
to the Magistrate Judge included both (1) a declaration in
which David Haase stated “that the reimbursement rate
has been ‘repeatedly enhanced over the years,’” Def.’s
Proposed Findings of Fact at 8 n.8, ECF No. 77; Gasior
Decl. Ex. 6, ECF No. 77-1; and (2) an argument section
advancing the theory that Plaintiff’s asserted injuries
are speculative, but for reasons unrelated to changing
reimbursement rates, Def.’s Proposed Findings of Fact
at 16-18. It is therefore clear that Defendant “could have
made this argument to Judge Reyes, [but] chose not
to, [and so] the court need not consider it.” Santiago v.
City of New York, 15-CV-0517, 2016 U.S. Dist. LEXIS
132376, 2016 WL 5395837, at *3 (E.D.N.Y. Sept. 26, 2016)
(Garaufis, J.).
Even assuming, arguendo, that Defendant’s first
objection had been properly raised, it is not an objection
to standing, which is the focus of this Decision, because
it concerns the legal merits of the action. Specifically, the
objection, fundamentally, is to the rate Plaintiff contends
is adequate as opposed to whether Plaintiff “is the wrong
individual to bring these legal claims,” and it is therefore
“not properly understood as [a] standing argument[]”
and must be set aside. Curtis v. Cenlar FSB, 13-CV-3007,
2013 U.S. Dist. LEXIS 161687, 2013 WL 5995582, at *2
(S.D.N.Y. Nov. 12, 2013) (Cote, J.); cf. City of Mesquite v.
Aladdin’s Castle, Inc., 455 U.S. 283, 289, 102 S. Ct. 1070,
71 L. Ed. 2d 152 (1982) (explaining that “a defendant’s
voluntary cessation of a challenged practice does not

74a
Appendix C
deprive a federal court of its power to determine the
legality of the practice”).
Second, Defendant questions whether Plaintiff’s
injury is likely, as opposed to speculative, under Knife
Rights. Objections at 4. Specifically, Defendant argues
the Magistrate Judge failed to take into account the fact
that Plaintiff’s injury is “dependent upon the actions of
a third party,” and thus improperly distinguished from
Knife Rights. 3 Id. at 4-5 (explaining reimbursement rates
“depend upon the independent action of third parties—the
3. But Knife Rights is not to the contrary. In that case, the
Second Circuit determined that the organizational plaintiffs did not
have standing to sue the City of New York and the New York County
District Attorney for unconstitutionally applying a law criminalizing
the possession of “gravity knives.” Knife Rights, 802 F.3d at 379. The
Second Circuit explained that, because the suit was for injunctive
relief and the organizational plaintiffs themselves did not suffer any
threat of prosecution, the organizational plaintiffs would have had
to “show that both anticipated expenditures and ensuing harm to
their organizations’ activities are ‘certainly impending,’” but they
“ha[d] not even attempted to make such a showing.” Id. at 388-89
(quoting Clapper v. Amnesty Int’l USA, 568 U.S. 398, 409, 133 S. Ct.
1138, 185 L. Ed. 2d 264 (2013)). The same cannot be said of Plaintiff
here, as discussed supra. Assuming Knife Rights turned on the
organizational plaintiffs’ injury being too “speculative because
it depended on,” inter alia, “the independent actions of a third
party, law enforcement arresting and prosecuting the plaintiff’s
organization members,” R&R at 7, the instant case is distinguishable.
Reimbursement rate-setting by local social services districts cannot
be deemed an “independent action[] of a third party” because the
districts rely on Defendant for the funds necessary to reimburse
foster parents, as discussed supra. Thus, even under a reading that
is generous to Defendant, Knife Rights is not controlling.

75a
Appendix C
[local social services districts] who actually administer
foster care programs and set their own foster care rates”).
The Court finds this second objection as unpersuasive as
the first.
In sum, having conducted a de novo review,4 the Court
finds, for the reasons discussed above, that Defendant’s
objection fails because it is hardly speculative to expect
that the local social services districts will not provide
the reimbursement rates Plaintiff argues are necessary
unless Plaintiff is granted the relief it seeks.
II. 	Traceability and redressability
Because Defendant does not object to the Magistrate
Judge’s findings on traceability and redressability, the
Court assesses whether those sections of the R&R were
“facially erroneous,” Norman, 2014 U.S. Dist. LEXIS
129010, 2014 WL 4628848, at *1, and determines they are
not. There is more than sufficient evidence in the record
4. Plaintiff is correct that the Court may review the R&R for
clear error on this point, as Defendant largely copied and pasted,
often word-for-word, his argument to the Magistrate Judge into
his Objections to this Court. Cf. Blasters, Drillrunners & Miners
Union Local 29 v. Trocom Constr. Corp., 10-CV-4777, 2012 U.S.
Dist. LEXIS 44236, 2012 WL 1067992, at *2 (E.D.N.Y. Mar. 29,
2012) (Matsumoto, J.) (explaining that, where “objections to a
Report and Recommendation merely rehash arguments presented
to the Magistrate Judge, the standard of review undertaken by
the District Court is not de novo but clear error”). Compare Def.’s
Proposed Findings of Fact at 17-18, with Objections at 6-7. The Court
nevertheless reviewed portions of the R&R de novo, and reached
the same conclusion.

76a
Appendix C
proving that, as to traceability, foster parents are making
phone calls because of inadequate reimbursement rates;
and as to redressability, the need for these calls would be
negated by the relief Plaintiff requests.
CONClUsION
For the foregoing reasons, the Court ADOPTS the
R&R in full. The Clerk of Court is respectfully directed
to terminate the motion pending at ECF No. 78.
sO OrDErED.
/s/ WFK					
HON. WILLIAM F. KUNTZ, II
UNITED STATES DISTRICT JUDGE
Dated: September 29, 2017
Brooklyn, New York

77a
Appendix
D
Appendix
d — repOrt
and
reCOMMendatiOn Of the United states
DistriCt COurt fOr the eastern distriCt
Of neW YOrK, filed NOVeMBer 7, 2016
UNITED STATEs DIsTRICT COuRT
EAsTERN DIsTRICT OF NEW YORK
No 10-CV-3485
NEW YORK STATE CITIZENS’ COALITION
FOR CHILDREN,
Plaintiff,
v.
ROBERTO VELEZ, ACTING COMMISSIONER OF
THE NEW YORK STATE OFFICE OF CHILDREN
& FAMILY SERVICES, IN HIS
OFFICIAL CAPACITY,
Defendant.
November 7, 2016, Decided;
November 7, 2016, Filed
REPORT & RECOMMENDATION
to the Honorable William F. Kuntz,
United States District Judge.
ramon e. reyes, Jr., U.S.M.J.:

78a
Appendix D
The New York State Citizens’ Coalition for Children
(the “Coalition”) commenced this action against Roberto
Velez, acting Commissioner of the New York State Office of
Children & Family Services (“Defendant” or the “State”),1
seeking declaratory and injunctive relief pursuant to 42
U.S.C. § 1983. (Dkt. No. 1 (the “Complaint”)). The Coalition
alleges that the State’s basic foster parent reimbursement
rate is inadequate and violates the Child Welfare Act, 42
U.S.C. §§ 670-679c (the “CWA”). (Complaint at 5-7).
On July 17, 2014, Your Honor granted Defendant’s
motion to dismiss, finding that there is no private right
of action under 42 U.S.C. § 1983 for claims brought
pursuant to §§ 672(a) or 675(4)(a) of the CWA. (Dkt. No.
66). Following the Coalition’s appeal, the Second Circuit
remanded the matter “to address the disputed issue of
Article III standing[,]” which was raised for the first time
on appeal. New York State Citizens’ Coalition for Children
v. Velez, 629 Fed. Appx. 92, 94 (2d Cir. 2015). Your Honor
then referred the matter to me to conduct an evidentiary
hearing and issue a report and recommendation on the
issue of standing. After a brief period of discovery on
the standing issue, the evidentiary hearing was held.
The parties have submitted post-hearing findings of fact
and conclusions of law. For the reasons stated below, I
respectfully recommend the Coalition has Article III
standing to pursue this action.
1. The action originally named Gladys Carrion as defendant.
Velez succeeded Carrion as Commissioner of the New York State
Office of Children & Family Services, and is now the named
defendant in this action. Also, the Coalition’s website indicates that
it has recently changed its name to the Adoptive and Foster Family
Coalition of New York. See www.affcny.org.

79a
Appendix D
FINDINGs OF FACT
These findings of fact are based upon the testimony
of Sarah Gerstenzang (“Gerstenzang”), the Coalition’s
former executive director and current treasurer, and
Richard Heyl De Ortiz (“De Ortiz”), the Coalition’s
executive director, at the hearing on standing (the
“Hearing”), (Tr. 4:24-51; 6:5; 32:1-12), and reports annexed
to the Defendant’s Proposed Findings of Fact, (Dkt. No.
77).
I.

The CWA

The CWA provides federal funds to states that make
reimbursement payments to foster parents to offset the
cost of raising a foster child. 42 U.S.C. § 670 et seq. States
that accept funding under the CWA are required to offer
reimbursement payments sufficient to cover certain costs
incurred by foster parents. (Complaint at 5). New York
State receives CWA funding. Id at 6. Under the State’s
reimbursement plan (the “Plan”), reimbursement rates
are set by local social services districts. Id. The Plan sets
maximum basic reimbursement rates but permits the local
social services districts to offer lower basic rates. Id at
7. The Plan also provides for two higher rate levels for
children with greater need. (Tr. 11:5-13). Only the basic
rate is challenged here. (Complaint at 1-2).
The Coalition alleges that the lack of a minimum basic
reimbursement rate has resulted in a basic reimbursement
rate at least “43% below the actual costs of raising a
child in foster care....” (Complaint at 2). The Coalition

80a
Appendix D
commenced this action pursuant to 42 U.S.C. § 1983,
seeking a declaration that the Plan does not to comply
with federal law and violates the Coalition’s federal rights,
and a permanent injunction requiring the State to set an
adequate minimum basic reimbursement rate. (Complaint
at 15).
II. The Coalition
The Coalition was founded in the 1960s to advocate
for and provide support to foster parents. (Tr. 7:17-8:1).
Currently, the Coalition consists of one full-time and
three-part time employees. (Tr. 33:7-10). The part-time
employees work a combined 45 hours per week. Id. The
Coalition’s core mission is to “provide information, support
and advocacy for foster and adoptive families across
the state.” (Tr. 8:3-4). In furtherance of this mission, it
maintains an informational website and “a hotline where
people can call...for information[]” or advice. (Tr. 8:7-24).
The Coalition also sponsors a yearly conference for foster
parents and professionals. Id. The Coalition does not
provide direct care to foster children. (Tr. 18:8-12, 24-25).
At the Hearing, witnesses stated that the Coalition
was forced to divert its limited resources, in the form of
employee time, responding to the low reimbursement
rates. These responses included: (1) trying to locate a
“foster parent insurance product” that would be affordable
under the current rates (Tr. 12:14-18); (2) fielding phone
calls from foster parents concerned about inadequate
reimbursement rates and providing advice on how to
petition for higher rates (Tr. 22:25-23:15; 34:11-22; 35:12-

81a
Appendix D
24); (3) advising parents on how to access resources, such
as clothing, that they could not otherwise afford (Tr.
19:9-14); and (4) maintaining a publicly available list of
reimbursement rates by county (Tr. 20:4-12).
Attempts to locate an insurance program consumed
approximately 100 hours of work. (Tr. 15:2-3). De Ortiz
stated that the Coalition received between one and three
phone calls from foster parents per week regarding
inadequate reimbursement rates, each call requiring one
to two hours of employee time. (Tr. 35:20-24). De Ortiz
testified that if the basic rate was raised, the Coalition
would not receive these calls. (Tr. 42:16-18). Gerstenzang
provided similar testimony (Tr. 30:22-31:1). According to
the testimony provided, creating and maintaining a list of
reimbursement rates by county consumed approximately
80 hours of work, but the list was not compiled every year.
(Tr. 25:22-26:4).
Gerstenzang estimated that the Coalition diverted
200 hours of labor per year from core activities to
researching and disseminating information related to the
reimbursement rates. (Tr. 29:7-9). The Coalition claims
an additional 100 hours were spent fielding phone calls. 2
(Dkt. No. 76 (Plaintiff’s Proposed Findings of Fact and
Conclusions of Law (“Pl.’s Br.”) at 12)
2. De Ortiz only testified to the number of call received per
week but not the total amount of time expended. (Tr. 35:20-24).
The estimate of 100 hours is first raised in the Plaintiff’s Proposed
Findings of Fact and Conclusions of Law. (Pl.’s Br. at 12). However,
it is consistent with the number and length of calls to which De
Ortiz testified.

82a
Appendix D
The Coalition’s witnesses testified that the time
diverted to responding to the low reimbursement rates
could be better spent engaging in outreach and support
to foster parent groups. (Tr. 15:4-17:10). The Coalition
would also have more time and resources to dedicate to
activities such as providing foster families with trauma
training and information about tax filings, (Tr. 15:6-16:16),
as well as information and training regarding legal rights
and the family court process, (Tr. 36:14-19).
Additionally, the Coalition’s witnesses testified that
“not having adequate rates...impacts [the Coalition’s]
ability to have a robust membership...” (Tr. 10:2-5). In
particular, De Ortiz testified that people frequently call
the Coalition expressing an interest in fostering children
but do not apply to become foster parents or coalition
members because of the low reimbursement rates. (Tr.
33:20-34:10). However, expert reports submitted by
Defendant suggest that changes to the reimbursement
rate would not impact the number or quality of foster
parents. (Dkt. No. 77 Ex. 3 (Declaration of Joseph Doyle
(Doyle Decl.)) at 15-17).
DIsCUssION
I.

Applicable standards

Standing “is the threshold question in every federal
case, determining the power of the court to entertain the
suit.” Warth v. Seldin, 422 U.S. 490, 498, 95 S.Ct. 2197, 45
L.Ed.2d 343 (1975). To satisfy the standing requirement,
a “plaintiff must have suffered an ‘injury in fact’...the

83a
Appendix D
injury has to be fairly...traceable to the challenged action
of the defendant...[and] it must be likely, as opposed to
merely speculative, that the injury will be redressed by
a favorable decision.” Carter v. HealthPort Technologies,
LLC, 822 F.3d 47, 55 (2d Cir. 2016) (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560-61, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992) (emphasis and brackets removed).
G enera l ly, a n orga n i zat ion may have either
associational standing to bring suit on behalf of its
members or individual standing to bring suit on its own
behalf. See New York Civil Liberties Union v. New York
Transit Auth., 684 F.3d 286, 295 (2d Cir. 2011). However,
the rights secured by Section 1983 can only be vindicated
by the party directly injured and as such associational
standing is not recognized. See Nnebe v. Daus, 644 F.3d
147, 156 (2d Cri. 2011) (“[A]n organization does not have
standing to assert the rights of its members in a case
brought under 42 U.S.C. § 1983[.]).
Because this action was commenced pursuant to
Section 1983, the Coalition must demonstrate individual
standing. To do so, the Coalition must demonstrate that
it, not its members, satisfies the injury, traceability, and
redressability requirements. See Warth, 422 U.S. at 511.
The injury to the Coalition must be “(a) concrete and
particularized...and (b) actual or imminent, not conjectural
or hypothetical[.]” Carter, 822 F.3d at 55 (internal
quotations omitted). 3 Injury exists when an organization
3. Defendant incorrectly argues that the injury must also be to
a right, privilege, or immunity protected under Section 1983. (Dkt.
No. 77 (Defendant’s Proposed Findings of Fact and Conclusions of

84a
Appendix D
is forced to expend its limited resources, resulting in
an “opportunity cost” such that there is a “perceptible
impairment’ of its activities. Nnebe, 644 F.3d at 157. While
the claimed harm must be concrete, rather than abstract,
only scant evidence of an opportunity cost is required.
See id. at 156-57 (“The evidence supplied by [plaintiff],
while ‘scant,’ is not abstract). The Second Circuit has
consistently found injury where an organization expends
time and effort responding to the defendant’s actions.
See e.g. Nnebe, 644 F.3d 147 (finding injury where an
organization, in response to a government policy, spent
time advising and counseling its members); Ragin v.
Harry Mackowe Real Estate Co., 6 F.3d 898 (2d Cir. 1993)
(finding injury where an organization with a small staff
spent time responding to defendant’s action); Mental
Disability Law Clinic v. Hogan, 853 F. Supp.2d 307,
314 (E.D.N.Y. 2012) (finding injury even though the 600
hours an organization spent responding to the challenged
government policy was “very little on a weekly basis.”).
Past harm is insufficient where the plaintiff seeks only
declaratory and injunctive relief. See Knife Rights, Inc.,
v. Vance, 802 F.3d 377, 388 (2d Cir. 2015).
Law (Df.’s Br.)) at 20-21). Defendant relies on a misinterpretation
of dicta from Gem Financial Services, Inc. v. City of New York, No.
13-cv-1686 (MKB), 2014 U.S. Dist. LEXIS 34770, 2014 WL 1010408
at *9 n.8 (E.D.N.Y. Mar. 17, 2014). (Df.’s Br. at 20). Gem Financial
concerned a Rule 12(b)(6) motion, and did not decide the issue of
standing. The limited discussion of standing, confined to a footnote,
observes that the plaintiff must both state a claim upon which relief
can be granted and also satisfy the standing requirement. Gem
Financial Services, Inc., 2014 U.S. Dist. LEXIS 34770, 2014 WL
1010408 at *9 n.8.

85a
Appendix D
Standing further requires the injury be fairly
traceable to the defendant’s conduct and likely redressable
by a favorable judicial decision. See Lujan, 504 U.S.
at 590. The traceability requirement requires a causal
connection between the conduct and the injury. See In
re Holocaust Victim Assets Litigation, 225 F.3d 191,
195-96 (2d Cir. 2000). The redressability requirement is
satisfied where it is likely that the plaintiff will “benefit in
a tangible way from the court’s intervention.” Id. (quoting
Warth, 422 U.S. at 508. This standard does not require
certainty. See Mhany Mgmt, Inc. v. Cnty of Nassau,
819 F.3d 581, 602 (2d Cir. 2016) (“Redressability is not a
demand for mathematical certainty.”) (internal quotations
omitted); see also Huntington Branch, N.A.A.C.P. v.
Town of Huntington N.Y., 689 F.2d 391, 394 (2d Cir.
1982) (“[T]he requirement that the relief requested be
likely to redress the injuries alleged...is not a demand
for complete certainty....To ask plaintiffs to show more
than that they would benefit in a tangible way from the
court’s intervention, would be to close our eyes to the
uncertainties which shroud human affairs.”) (internal
quotations and citations omitted).
II. The Coalition Has standing
The Coalition bases its standing on four injuries
purportedly caused by the inadequate basic reimbursement
rates: (1) spending 100 hours researching a foster parent
insurance product; (2) spending 80 hours compiling a
list of reimbursement rates by county, (3) struggling
to grow a robust membership; and, (4) spending 100
hours responding to telephone calls from foster parents

86a
Appendix D
frustrated about the inadequate basic rates. (Pl’s Br. at
7, 9, 10, 12).
Defendant argues for a variety of reasons that the
Coalition’s “evidence of injury was not distinct and
palpable and not fairly traceable solely to the basic”
reimbursement rate, nor “likely redressable by a favorable
decision.” (Df.’s Br. at 14, 16-18). Notwithstanding these
arguments, some of which are well-founded, the Coalition
has established its standing with respect to at least one
of its alleged injuries.
I agree with Defendant that the Coalition cannot
base its standing on the time it spent developing a foster
parent insurance product in response to the purportedly
inadequate basic reimbursement rates. The testimony
at the hearing established that this is purely a past
injury, and will not occur in the future. Gerstenzang’s
testified that she had “tried[,]” but did not suggest she
was still trying, “to develop a foster parent insurance
product[,]” (Tr. 12:15). Her attempt was thorough and
comprehensive, yet ultimately unsuccessful. (Tr. 13:1614:17). She contacted other foster parent organizations
across the country, numerous insurance companies, and
the trade association that represents New York State
insurance companies. (Tr. 13:16-14:7). She also sent two
separate surveys to insurance providers. (Tr. 14:8-9). She
was assisted by an insurance agent, who was also a foster
parent. (Tr. 14:11-17). Gerstenzang does not suggest this
effort is ongoing, that she intends to try a new approach,
or that repeating prior efforts will yield different results.

87a
Appendix D
A plaintiff “cannot rely on past injury to satisfy the
injury requirement but must show a likelihood that he
. . . will be injured in the future.” Deshawn E. by Charlotte
E. v. Safir, 156 F.3d 340, 344 (2d Cir. 1998)); see also Access
4 All, Inc. v. Trump Int’l Hotel & Tower Condo., 458
F.Supp.2d 160, 167 (S.D.N.Y. 2006) (“To establish standing
for an injunction, a plaintiff must not merely allege
past injury, but also a risk of future harm.”). Because
the Coalition will no longer spend time developing an
insurance product for foster parents, this is a past injury
and cannot confer standing.
T he t i me spent compi l i ng cou nty-by- cou nty
reimbursement rates, while “distinct and palpable” and
likely to occur in the future, is neither fairly traceable
to the alleged violation nor redressable by a favorable
decision. Because the State operates under a system where
each county sets its own reimbursement rates consistent
with a mandate from the State, the Coalition would have to
compile a county-by-county list of rates even if the State’s
minimum basic rate was raised to comply with the CWA.
Any injury has been cause by different county rates, not
inadequate minimum rates, and as such is not traceable
to Defendant’s conduct.
The injury is also not likely redressable. There is
nothing in the request for relief that would prohibit the
State from adopting a minimum basic rate consistent
with the CWA, but permit counties to exceed that rate,
thereby necessitating the Coalition’s county-by-county
inquiry as to the respective basic rates nevertheless. In
other words, the Coalition’s county-by-county inquiries

88a
Appendix D
will be necessary unless all counties adopt identical
reimbursement rates, relief which is not sought here.
Further, the Coalition’s alleged injury in this regard would
exist even if the relief were granted, as that relief would
not affect the State’s ability to permit counties to adopt
different special and exceptional reimbursement rates.
As long as those different rates exists, the Coalition will
have to conduct its county-by-county inquiry regardless.
The alleged injury in this regard is simply neither fairly
traceable to the alleged violation nor redressable by a
favorable decision.
Similarly, the Coalition has failed to establish that
its attempts to create a robust membership have been
adversely affected by the purportedly insufficient basic
reimbursement rates. The Coalition argues (1) that the
State is unable to recruit qualified foster parents due to
the inadequate basic rate, and (2) that this prevents the
Coalition from recruiting qualified members. (Pl.’s Br
at 13). In support of this argument, Gerstenzang stated
“I think not having adequate rates impacts the state’s
ability to recruit a robust population of foster parents[,]”
but offered no further evidence. (Tr. 10:2-3). De Ortiz
testified that the Coalition received calls from individuals
interested in learning more about fostering children, and
sometimes “the conversation [fell] apart around the issue
of reimbursement.” (Tr. 34:2-10).
In response to this scant anecdotal evidence of an
injury several steps removed from Defendant’s alleged
wrongful act, Defendant submitted a declaration by
Joseph Doyle, Ph.D. (“Professor Doyle”), a professor

89a
Appendix D
of applied economics at the Massachusetts Institute of
Technology. (Doyle Decl. at 1). According to Professor
Doyle, as of 2011 approved foster parents in New York
State were capable of caring for 32,988 children. Id. at 18.
That same year, only 18,541 children where in foster care.
Id. On this basis, Professor Doyle concluded that the State
was able to recruit a sufficient number of foster parents.
Id. He also claimed that “the quality of care could be
lower if payment levels increase, as higher payments may
attract less altruistic providers[.]”. Id. at 17. The Coalition
has failed to establish that it has suffered an injury, or
that the injury is fairly traceable to Defendant’s conduct.
Despite these deficiencies in the Coalition’s argument,
it has established standing with respect to the 100 hours
spent responding to phone calls from foster parents
unable to provide for their children under the current
minimum basic rate. (Pl.’s Br. at 12). At the Hearing,
witnesses testified that the Coalition is forced to expend
its limited staff time answering these phone calls. (Tr.
29:7-14; 35:20-24). While some of these calls concern to the
rate application process or non-basic rates, (Tr. 22:20-23),
other foster parents seek help providing for their children
or simply express frustration with the basic rates, (Tr.
28:7-19; 29:10-14). This testimony satisfies the ‘scant’
evidentiary burden imposed under Nnebe.
In light of the Coalition’s small staff, time spent
answering these phone-calls constitutes a perceptible
impairment of its ability to fulfill its core mission.
According to witness testimony, the Coalition receives
two to three calls per week, representing approximately 2

90a
Appendix D
hours of work, regarding inadequate basic reimbursement
rates. (Tr. 34:19-24). With the functional equivalent of two
full time employees, these calls consume a statistically
significant portion of the staffs’ work week. 4 This is
sufficient to constitute an injury under current Second
Circuit case law.
It is likely, as opposed to speculative, that these phone
calls will continue in the future. Defendant’s reliance
on Knife Rights for the proposition that organizational
standing cannot be based on speculative future events is
misplaced. (Df.’s Br. at 16). Knife Rights Inc., 802 F.3d at
384. In Knife Rights, the Second Circuit found evidence
of past injury but held that future injury was speculative
because it depended on: (1) the independent actions of a
third party, law enforcement arresting and prosecuting
the plaintiff organization’s members, and (2) the voluntary
actions of the organization, paying its members expenses.
See id at 388. This was deemed too speculative to support
standing. See id.
The Coalition’s injury is far from speculative. It is
concrete, clearly defined, and ongoing. Unlike Knife
Rights, where future injury depended on police officers
enforcing a statute under specific circumstances and
against specific individuals, the Coalition’s members
will continue to receive current reimbursement rates
unless they are affirmatively changed by the State. It
is hardly speculative to expect existing reimbursement
4. With Coalition staff working approximately 85 hours per
week, (Tr. 33:7-10), 2 hours represents more than 2% of the total
work performed by Coalition employees.

91a
Appendix D
rates to remain unchanged. Nor is it speculative to expect
the behavior of foster parents to continue unchanged.
Absent some change, it is clear that Coalition members
will continue receiving the current reimbursement rate
and will continue contacting the Coalition for advice and
assistance. Further, unlike Knife Rights the Coalition’s
response is not voluntary but rather is essential to fulfilling
its core mission. The Coalition cannot stop responding to
these calls without also ceasing to advise foster parents of
their rights and assist them with their needs. Continued
harm depends not on the new affirmative actions of a third
party but simply on the continuation of an existing state
of affairs, and as such is not speculative.
This injury also satisfies the traceability and
redressability requirements. Defendant argues that
not all the calls are caused by the inadequate basic rate
and that not all the calls will stop if that rate is raised.
(Df.’s Br. at 15). Undoubtedly, some of the calls concern
the reimbursement process, not the rates themselves.
Others likely involve foster parents eligible for non-basic
reimbursement rates. However, the Coalition’s witnesses
testified to helping foster parents cope with the inadequate
basic rates, for example by helping them locate secondhand
clothing or accessing other community resources. (Tr.
19:9-14). Such phone calls, from foster parents unable to
adequately care for foster children under the current basic
rates, are clearly traceable to the current basic rates.
Finally, the Defendant’s argument that raising the
minimum basic reimbursement rate will not eliminate all
such calls misconstrues the legal standard. It is sufficient

92a
Appendix D
that some of the calls will stop, affording the Coalition’s
small staff additional time to focus on core activities.
Such a reduction would constitute a tangible benefit to the
Coalition. The Coalition is not required to prove that this
reduction is certain or of a significant magnitude, merely
that it is likely to occur. It has done so, and therefore, it
has established standing.
Accordingly, I concluded that the Coalition has
demonstrated an injury in fact that is fairly traceable to
the current minimum basic reimbursement rates. Further,
the Coalition would likely realize a tangible benefit from
a favorable ruling. As such, the standing requirements
have been satisfied.
CONCLUsION
For the reasons set forth above, I respectfully
recommend that the Court find the Coalition has satisfied
the standing requirement.
Any objections to the recommendations made in this
Report must be filed with the Clerk of the Court and the
Honorable William Kuntz within fourteen (14) days of
receipt hereof. Failure to file timely objections waives the
right to appeal the District Court’s Order. See 28 U.S.C.
§ 636(b)(1); Fed. R. Civ. P. 72; Shall v. Sec’y of Health &
Human Servs., 892 F.2d 15, 16 (2d Cir. 1989).
SO ORDERED
Dated: November 7, 2016

93a
Appendix D
Brooklyn, New York
/s/ Ramon E. Reyes, Jr.
RAMON E. REYES, JR.
United States Magistrate Judge

94a
Appendix E OrDEr of the
Appendix E — sUMMArY
UNITED sTATEs COUrT OF APPEAls FOr THE
sECOND CIrCUIT, dated OctoBer 29, 2015
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 14-2919-cv
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Plaintiff-Appellant,
v.
ROBERTO VELEZ, ACTING COMMISSIONER
OF THE NEW YORK STATE OFFICE OF
CHILDREN & FAMILY SERVICES,
IN HIS OFFICIAL CAPACITY,
Defendant-Appellee.
October 29, 2015, Decided
PRESENT: guido Calabresi, Debra A nn Livingston,
Circuit Judges. William K. Sessions III,* District Judge.

* The Honorable William K. Sessions III, of the United States
District Court for the District of Vermont, sitting by designation.

95a
Appendix E
sUMMArY OrDEr
UPON DUE CONsIDErATION WHErEOF, IT Is
HErEBY OrDErED, ADJUDGED, AND DECrEED
that the matter is rEMANDED to the district court for
further proceedings.
Plaintiff-Appellant New York State Citizens’ Coalition
for Children (“Coalition”) appeals the July 17, 2014
decision and order of the United States District Court
for the Eastern District of New York (Kuntz, J.) granting
Defendant-Appellee’s motion to dismiss. PlaintiffAppellant Coalition alleges that New York State’s basic
foster care reimbursement rates do not comply with the
Adoption Assistance and Child Welfare Act, 42 U.S.C.
§§ 670-679c (“CWA”), which the Coalition interprets to
require greater funding of state-administered foster
care programs. Plaintiff-Appellant seeks declaratory and
injunctive relief under 42 U.S.C. § 1983 against DefendantAppellee Roberto Velez, Acting Commissioner of the
New York State Office of Children and Family Services
(“Velez”). We presume the parties’ familiarity with the
facts and procedural history of this case, as well as with
the issues on appeal.
We begin with Velez’s challenge to the Coalition’s
standing because standing “is the threshold question in
every federal case, determining the power of the court
to entertain the suit.” Denney v. Deutsche Bank AG, 443
F.3d 253, 263 (2d Cir. 2006) (quoting Warth v. Seldin, 422
U.S. 490, 498, 95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975)). The
elements of the Article III standing requirement are well-

96a
Appendix E
established. “[A] plaintiff must have suffered an ‘injury
in fact’ that is ‘distinct and palpable’; the injury must be
fairly traceable to the challenged action; and the injury
must be likely redressable by a favorable decision.” Id.
(quoting Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)).
Ordinarily, an organization like the Coalition can
establish Article III standing by (1) showing that its
members would have had standing to bring the suit
individually, that the suit is “germane to the organization’s
purpose,” and that neither the claim nor relief asserted
requires members’ participation in the lawsuit, United
Food Commercial Workers Union Local 751 v. Brown
Grp., Inc., 517 U.S. 544, 553, 116 S. Ct. 1529, 134 L. Ed.
2d 758 (1996) (quoting Hunt v. Washington State Apple
Advert. Comm’n, 432 U.S. 333, 343, 97 S. Ct. 2434, 53 L.
Ed. 2d 383 (1977)), or (2) demonstrating injury to itself and
seeking judicial relief from that injury, see, e.g., Warth v.
Seldin, 422 U.S. 490, 511, 95 S. Ct. 2197, 45 L. Ed. 2d 343
(1975); NY Civil Liberties Union v. N.Y.C. Transit Auth.,
684 F.3d 286, 294 (2d Cir. 2011) (Calabresi, J.). When an
organization brings suit under 42 U.S.C. § 1983, however,
this Circuit has held that it must do so on its own behalf,
rather than that of its members. Nnebe v. Daus, 644 F.3d
147, 156 (2d Cir. 2011) (“It is the law of this Circuit that an
organization does not have standing to assert the rights
of its members in a case brought under 42 U.S.C. § 1983
. . . .”). This is because we have “interpret[ed] the rights [42
U.S.C. § 1983] secures to be personal to those purportedly
injured.” Id. (quoting League of Women Voters of Nassau
Cnty. v. Nassau Cnty. Bd. of Supervisors, 737 F.2d 155,

97a
Appendix E
160 (2d Cir. 1984)). Nevertheless, so long as an organization
itself meets the constitutional standing standard spelled
out in Lujan, it may bring suit under 42 U.S.C. § 1983.
See Irish Lesbian & Gay Org. v. Giuliani, 143 F.3d 638,
649 (2d Cir. 1998).
In Nnebe, this Court determined that an organization
mounting a § 1983 challenge to the automatic suspension of
taxi cab drivers after arrest on certain criminal charges
had constitutional standing. 644 F.3d at 158. There, the
New York Taxi Workers Alliance (“NYTWA”) suffered
an “opportunity cost” by expending resources toward
those legal proceedings that could have been allocated
elsewhere. Id. at 156-157. While acknowledging the “scant”
evidence before it, the Nnebe court rejected the argument
that the NYTWA’s injury was “abstract,” adding that an
organization need only show “perceptible impairment” of
its activities to satisfy the “injury in fact” requirement.
Id. at 157 (quoting Ragin v. Harry Macklowe Real Estate
Co., 6 F.3d 898, 905 (2d Cir. 1993) (citing Havens Realty
Corp. v. Coleman, 455 U.S. 363, 379, 102 S. Ct. 1114, 71
L. Ed. 2d 214 (1982))).
In the instant case, Plaintiff-Appellant brought
suit “on behalf of its members—licensed foster parents
in New York State.” A12; see also A14 ¶ 4 (reiterating
that the Coalition brings this suit “on behalf of its
members”). Plaintiff-Appellant’s allegations of injury in
the district court focused principally on harm to individual
foster families. See, e.g., A18 ¶ 20 (“The maximum
reimbursement rates, however, are grossly inadequate
compared to the actual costs of caring for a child.”); A19

98a
Appendix E
¶ 27 (“New York currently pays less to foster parents to
care for a child than a kennel charges to board and feed
a dog.”); A20-21 ¶ 29 (citing study finding that “as of 2007
New York’s reimbursement rates fell woefully short of
the CWA’s standards.”). Granted, Plaintiff-Appellant
also asserted in its complaint that it expends significant
resources “by sharing information about law, policy, and
best practices regarding foster care,” and by providing
representation to “its members with respect to systemwide issues regarding foster care through legislative and
administrative advocacy.” A14 ¶ 3.1 Nonetheless, likely
because Defendant-Appellee first raised the present
standing argument on appeal, see Reply Brief for PlaintiffAppellant at 22, the district court record does not identify
any “perceptible opportunity cost” associated with the
New York State foster care program. Nnebe, 644 F.3d at
157.
Without more specific allegations as to the “opportunity
cost” imposed on the Coalition, we cannot now conclude
that the Plaintiff-Appellant has adequately alleged that it
has suffered a “perceptible injury” so as to satisfy Article
III, but given the breadth of our holding in Nnebe, it is
possible that it has suffered such an injury. Because this
issue was not raised in the district court, however, we
conclude that it should be addressed in the first instance
there. We therefore remand in accordance with the
procedures of United States v. Jacobson, 15 F.3d 19, 22 (2d
1. The Coalition adds on appeal that “[n]one of these
expenditures would be necessary if the State satisfied its
obligations to foster children and parents under the CWA.” Reply
Brief for Plaintiff-Appellant at 23-24.

99a
Appendix E
Cir. 1994), for the district court to address the disputed
issue of Article III standing in the first instance, and to
conduct any further fact-finding that may be required.
We express no view on the question whether if PlaintiffAppellant establishes standing in the district court, there
exists a private right of action that it may assert.
For the reasons stated above, we rEMAND the case
for further proceedings consistent with this order. Upon
the conclusion of the proceedings before the district court,
either party may restore jurisdiction to this Court by filing
with the Clerk within fourteen days of the district court
decision a letter (along with a copy of the relevant order or
transcript) advising the Clerk that jurisdiction should be
restored. In the interest of judicial economy, the renewed
appeal will be assigned to this panel.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

100a
Appendixand
F Order Of the
Appendix f — deCisiOn
United states distriCt COUrt fOr the
eastern distriCt Of neW YOrK,
filed JUlY 17, 2014
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
No. 10–CV–3485 (WFK)
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Plaintiff,
v.
Gladys CARRION, CoMMissioner of the
New York State Office of Children
& FaMily Services, in her
official caPacity,
Defendant.
DECISION AND ORDER
WILLIAM f. KUNTZ, II, District Judge:
Plaintiff, a New York nonprofit organization, invites this
Court to grant permanent injunctive relief fundamentally
altering New York’s system for setting foster care
maintenance rates. Ruling on Defendant’s Motion to
Dismiss, the Court declines Plaintiff’s invitation and
holds that 42 U.S.C. §§ 672(a) and 674(5)(A), provisions of

101a
Appendix F
the Adoption Assistance and Child Welfare Act of 1980,
do not provide a private right of action under 42 U.S.C.
§ 1983. The Supreme Court’s instructions in Gonzaga
Univ. v. Doe, 536 U.S. 273, 122 S.Ct. 2268, 153 L.Ed.2d
309 (2002), expounding on its previous ruling in Blessing
v. Freestone, 520 U.S. 329, 117 S.Ct. 1353, 137 L.Ed.2d
569 (1997), make clear that these provisions lack the
requisite “rights-creating language” and individual focus
necessary to infer that Congress intended a private right
of action. The Court shares the view of the District of New
Jersey that “[i]t would be the height of federal judicial
arrogance for this Court to supplant the efforts of [the
state’s] legislative, executive, and judicial branches with
respect to the everyday functioning of the child welfare
system in the broad, over-reaching way suggested by
Plaintiff [ ].” Charlie H. v. Whitman, 83 F.Supp.2d 476, 514
(D.N.J.2000) (Brown, J.). For these reasons, the Complaint
is dismissed in its entirety.
fACTUAL AND PROCEDURAL BACKGROUND
“Preliminary to discussing the particular facts giving
rise to this case, [the Court] review[s] the statutory
scheme at issue.” New York ex rel. New York State Office
of Children & Family Servs. v. U.S. Dep’t of Health &
Human Servs., 556 F.3d 90, 92 (2d Cir.2009).
I.

The Child Welfare Act

In 1980, Congress passed the Adoption Assistance
and Child Welfare Act (hereinafter “CWA”), 42 U.S.C.
§§ 620 et seq., 670 et seq. The statute was passed pursuant

102a
Appendix F
to Congress’s authority under the federal Constitution’s
Spending Clause. U.S. Const. art. I, § 8. The CWA set
guidelines for a cooperative state-federal program to
provide federal funding for foster care and adoption
assistance.
The CWA establishes the scheme by which the federal
government reimburses compliant states for a portion
of the payments that the states make to individuals
and entities in their foster care and adoption assistance
programs. See New York ex rel. New York State Office of
Children & Family Servs., 556 F.3d at 93. In order for a
state to receive its matching federal funding, the state must
comply with certain eligibility standards and constraints
set forth in the CWA. See 42 U.S.C. § 670 (stating that the
purpose of the CWA is to provide foster care assistance
funds for states with compliant plans). As a precondition
to receiving federal funding, each state is required to
submit a “State plan” to the Secretary of the Department
of Health and Human Services (“HHS”) for approval.
See id.; § 671(a) (“In order for a State to be eligible for
payments under this part, it shall have a plan approved
by the Secretary [of HHS].”). HHS’s Administration for
Children & Families (“ACF”) administers the CWA and
supervises the states’ plans. See 45 C.F.R. § 1355.31–37.
Congress delegated many aspects of CWA oversight
to the states, including the creation of state authorities
responsible for maintaining foster care standards, state
administrative review opportunities, and mandatory,
periodic state review of disbursements. 42 U.S.C. § 671(a)
(10–12). Nonetheless, HHS maintains ultimate control

103a
Appendix F
of the federal funding faucet. Congress mandated that
the Secretary of HHS promulgate regulations to ensure
each state is in “substantial conformity” with federal
statutory requirements, HHS regulations, and the
state’s own written plan. See § 1320a–2a(a). A state that
fails to substantially conform with federal requirements
is subject to mandatory corrective measures by HHS
and ACF, including the withholding of federal funding.
§ 1320a–2a(b)(4). However, prior to withholding any
federal funds, the Secretary is required to “afford the
State an opportunity to adopt and implement a corrective
action plan.” § 1320a–2a(b)(4)(A), (C). Accordingly, the
CWA envisions a scenario in which a state that has
failed to substantially conform—with federal statutory
requirements, HHS regulations, or its own written plan—
still receives federal matching funds while corrective plans
are in effect. See § 1320a–2a(b)(4)(C).
There are thirty-three conditions that must be
included in a state’s plan in order to qualify for federal
funding. § 671(a). The first requirement is that each state
plan must “provide for foster care maintenance payments
in accordance with section 672.” § 671(a)(1). Foster care
maintenance payments are defined as:
payments to cover the cost of (and the cost
of providing) food, clothing, shelter, daily
supervision, school supplies, a child’s personal
incidentals, liability insurance with respect to
a child, reasonable travel to the child’s home for
visitation, and reasonable travel for the child

104a
Appendix F
to remain in the school in which the child is
enrolled at the time of placement.1
§ 675(4)(A). In sum, a foster care maintenance payment
is a state payment to a caretaker to cover the costs of the
foster child’s daily life.
Turning to § 672, Congress instructs that “each state
... shall make foster care maintenance payments on behalf
of each child who has been removed from the home of a
relative” so long as certain requirements are met. § 672(a)
(1)(A), (B). The payments “may be made ... only on behalf
of a child” who is eligible under § 672(a) and is in either
“the foster family home of an individual ... or in a child-care
institution.” § 672(b). States only receive federal matching
funds for foster care maintenance payments that meet
§ 672’s dictates. See § 674(a)(1).
II. The Parties
Before the Court is a Complaint by Plaintiff, the New
York State Citizens’ Coalition for Children, a nonprofit
organization that “represents the interests of foster
parents who provide care and supervision for children
in foster care.” Dkt. 1 (“Compl.”) ¶ 1. The Coalition’s
members include more than twenty individuals and more
than twenty-five groups and agencies, which purport to
represent almost 400 foster parents. Id. ¶ 2. Plaintiff
1. “In the case of institutional care, [foster care maintenance
payments] include the reasonable costs of administration and
operation of such institution as are necessarily required to provide
the items described in the preceding sentence.” 42 U.S.C. § 675(4)(A).

105a
Appendix F
brings two causes of action for declaratory and permanent
injunctive relief against Defendant Gladys Carrion,
Commissioner of the New York Office of Children &
Family Services, in her official capacity. Id. ¶¶ 40–45.
Plaintiff alleges that New York has failed to comply with
the dictates of the CWA by accepting federal funding while
reimbursing foster care providers with only a fraction
of the funds required by federal law. Id. at ¶¶ 24–39.
Invoking a purported private right of action under § 1983,
Plaintiff seeks to prevent New York from continuing its
alleged violation of the CWA and to ensure foster parents
are reimbursed by New York, with both state and federal
funds, in compliance with the CWA. See id.
III. Procedural History
Plaintiff filed its Complaint in the United States
District Court for the Eastern District of New York on
July 29, 2010. The case was reassigned from the Hon.
Dora L. Irizarry to this Court on October 17, 2011. Dkt.
Entry of 10/17/2011. After a July 25, 2012 pre-motion
conference, the parties were given leave to file dueling
motions. Dkt. Entry of 7/25/12. Plaintiff filed a motion for
summary judgment and the Defendant filed the motion to
dismiss currently pending before the Court. On October
5, 2012, both motions were fully briefed and submitted to
the Court. Dkts. 45–46.
Defendant’s motion contends that Plaintiff has not
established subject matter jurisdiction because there is no
private right of action under 42 U.S.C. §§ 672(a), 675(4)(A)
of the CWA. Dkt. 45–1 (“Def.’s Br.”) at 10–14. Therefore,

106a
Appendix F
before its summary judgment may be adjudicated,
Plaintiff faces the initial hurdle of establishing whether
Congress permitted a § 1983 private right of action for
the statutes at issue. That question turns us to the merits
of Defendant’s motion to dismiss.
STANDARD Of REVIEW
“A case is properly dismissed for lack of subject
matter jurisdiction under Rule 12(b)(1) when the district
court lacks the statutory or constitutional power to
adjudicate it.” Makarova v. United States, 201 F.3d 110,
113 (2d Cir.2000) (citing Fed.R.Civ.P. 12(b)(1)); see also
Morrison v. Nat’l Austl. Bank Ltd., 547 F.3d 167, 170 (2d
Cir.2008) (“Determining the existence of subject matter
jurisdiction is a threshold inquiry and a claim is properly
dismissed for lack of subject matter jurisdiction under
Rule 12(b)(1) when the district court lacks the statutory or
constitutional power to adjudicate it.”), aff’d, 561 U.S. 247,
130 S.Ct. 2869, 177 L.Ed.2d 535 (2010); Henry v. Concord
Limousine, Inc., 13–CV–0494, 2014 WL 297303, at *3
(E.D.N.Y. Jan. 24, 2014) (Seybert, J.). “[J]urisdiction must
be shown affirmatively, and that showing is not made by
drawing from the pleadings inferences favorable to the
party asserting it.” Shipping Fin. Servs. Corp. v. Drakos,
140 F.3d 129, 131 (2d Cir.1998). The party asserting subject
matter jurisdiction has the burden of proving its existence
by a preponderance of the evidence. Makarova, 201 F.3d
at 113. In determining whether subject matter jurisdiction
exists, courts are permitted to look to materials outside
the pleadings. See Kamen v. Am. Tel. & Tel. Co., 791
F.2d 1006, 1011 (2d Cir.1986) (“[W]hen ... subject matter

107a
Appendix F
jurisdiction is challenged under Rule 12(b)(1), evidentiary
matter may be presented by affidavit or otherwise.”).
When a plaintiff asserts a cause of action under a statute
which contains no private right of action, the Court shall
dismiss the claim for want of subject matter jurisdiction
under Fed.R.Civ.P. 12(b)(1). See Daniels v. Murphy, No.
06–CV–5841, 2007 WL 1965303, at *2 n. 4 (E.D.N.Y. July
2, 2007) (Bianco, J.).
ANALYSIS
The question posited to this Court is whether a
private right of action under § 1983 arises from § 672(a) or
§ 675(4)(a). In a recent and persuasive decision, the United
States Court of Appeals for the Eighth Circuit addressed
the very same question, and answered in the negative.
Midwest Foster Care & Adoption Ass’n v. Kincade, 712
F.3d 1190, 1194 (8th Cir.2013). 2 This Court agrees and
similarly holds that there is no private right of action
under either statute. However, this ruling is a narrow one.
The Court declines to hold that Congress has expressly
foreclosed any private right of action against a state actor
under the CWA, save for one explicit congressional carveout for victims of discrimination in the foster care system.
See 42 U.S.C. § 671(a)(18).
The seminal case for determining whether a private
right of action lies under § 1983 is Blessing v. Freestone,
2. The United States Court of Appeals for the Second Circuit
has not considered this question and the Court reviews the issue
as an open question within the Circuit.

108a
Appendix F
520 U.S. 329, 340, 117 S.Ct. 1353, 137 L.Ed.2d 569 (1997),
which provided a namesake three-factor test: 1) Congress
must have intended that the provision benefit the plaintiff;
2) the right must not be so vague and amorphous that its
enforcement would strain judicial competence; and 3) the
statute must unambiguously impose a binding obligation
on the states. Id. at 340–41, 117 S.Ct. 1353. The Supreme
Court’s decision in Gonzaga Univ. v. Doe, 536 U.S. 273,
283, 122 S.Ct. 2268, 153 L.Ed.2d 309 (2002), resolved
the confusion over the first inquiry under the Blessing
test. The Gonzaga Court “reject[ed] the notion that [its
earlier] cases permit anything short of an unambiguously
conferred right” can imply a cause of action under § 1983.
536 U.S. at 283, 122 S.Ct. 2268. Here, the two statutory
sections Plaintiff alleges provide it with a private right
of action fall far short of granting an “unambiguously
conferred right.” Id. Because Plaintiff is unable to sue
a state under § 1983 actor for allegedly violating §§ 672,
675(4)(A), this Court lacks the subject matter jurisdiction
to consider Plaintiff’s claim, and the Complaint must be
dismissed.
I.

Congress M ay H ave Precluded A ny A dditional
Private Causes of Action Under the CWA

Before addressing the Blessing factors, the Court
considers Defendant’s argument that when Congress
passed the “Removal of Barriers to Interethnic Adoption”
amendment in 1996 (42 U.S.C. § 674(d)(3)(A), hereinafter
“Removal of Barriers Amendment”), its express creation
of a cause of action for certain violations of the CWA
evinced an intent to preclude a private right of action

109a
Appendix F
under any other section of the statute. While Defendant’s
position is persuasive, the Court declines to adopt this
broad argument.
“[U]nless Congress speaks with a clear voice, and
manifests an unambiguous intent to confer individual
rights, federal funding provisions provide no basis for
private enforcement by § 1983.” Gonzaga, 536 U.S. at
280, 122 S.Ct. 2268 (internal quotations omitted). When
Congress expressly forecloses a remedy under § 1983,
no further analysis is required to find that a plaintiff is
not entitled to bring suit. See Middlesex Cnty. Sewerage
Auth. v. Nat’l Sea Clammers Ass’n, 453 U.S. 1, 19–21, 101
S.Ct. 2615, 69 L.Ed.2d 435 (1981) (“[T]he existence of [ ]
express remedies demonstrates not only that Congress
intended to foreclose implied private actions but also that
it intended to supplant any remedy that otherwise would
be available under § 1983.”); see also Smith v. Robinson,
468 U.S. 992, 1005 n. 9, 104 S.Ct. 3457, 82 L.Ed.2d 746
(1984) (finding that a § 1983 private right of action will
not lie where “Congress specifically foreclosed a remedy
under § 1983”), superseded by statute on other grounds,
as recognized in Plaut v. Spendthrift Farm, Inc., 514 U.S.
211, 235, 115 S.Ct. 1447, 131 L.Ed.2d 328 (1995). “Because
[the] inquiry focuses on congressional intent, dismissal
is proper if Congress ‘specifically foreclosed a remedy
under § 1983.’” Blessing, 520 U.S. at 341, 117 S.Ct. 1353
(quoting Smith, 468 U.S. at 1005 n. 9, 104 S.Ct. 3457).
“Congress may do so expressly, by forbidding recourse
to § 1983 in the statute itself, or impliedly, by creating a
comprehensive enforcement scheme that is incompatible
with individual enforcement under § 1983.” Id. (quoting

110a
Appendix F
Livadas v. Bradshaw, 512 U.S. 107, 133, 114 S.Ct. 2068,
129 L.Ed.2d 93 (1994)).
Defendant’s argument centers on the 1996 Removal
of Barriers Amendment, § 674(d)(3)(A), which prohibits
states receiving federal foster care funds from selecting
foster parents or denying the placement of a child on the
basis of race, color, or national origin. Defendant points out
that Congress has passed no other provision allowing for
a private cause of action under the CWA. Defendant also
emphasizes that the 1996 Removal of Barriers Amendment
was passed two years after the “Suter Fix.” In the 1994
Suter Fix, Congress rejected the Supreme Court’s 1992
ruling in Suter v. Artist M., and established that a statute’s
state plan requirement could not alone preclude private
enforcement of that statute. See 42 U.S.C. § 1320a–2;
cf. Suter v. Artist M., 503 U.S. 347, 112 S.Ct. 1360, 118
L.Ed.2d 1 (1992). However, the Suter fix did not “limit or
expand the grounds for determining the availability of
private actions to enforce State plan requirements” and
did not disturb the Suter Court’s holding that § 671(a)
(15) of the CWA was not privately enforceable. § 1320a–2.
Read together and chronologically, the Defendant argues
that the statutes are “evidence that Congress decided that
a limit on private rights of action under the CWA was
appropriate.” Dkt. 45–8 (“Def.’s Reply Br.”) at 2.
Defendant’s position finds some support in the caselaw.
Other post-Suter Fix district court decisions have read the
Removal of Barriers Amendment as “strong evidence that
Congress did not intend these other various State plan
elements in 42 U.S.C. § 671(a) to confer rights enforceable

111a
Appendix F
pursuant to § 1983.” Charlie H., 83 F.Supp.2d at 489;
see also Daniel H. ex rel. Hardaway H. v. City of New
York, 115 F.Supp.2d 423, 428 (S.D.N.Y.2000) (Marrero,
J.); Daniels, 2007 WL 1965303, at *2 n. 4. Moreover,
in considering the related question of implied rights of
action under a different statute, the Second Circuit has
found that the principle of unis est exclusion alterius is
particularly persuasive when considering the existence
of an implicit causes of action. Olmsted v. Pruco Life Ins.
Co. of N.J., 283 F.3d 429, 433 (2d Cir.2002) (holding there
was no implied right of action under §§ 26(f), 27(i) of the
Investment Company Act of 1940). The Circuit explained
that “Congress’s explicit provision of a private right of
action to enforce one section of a statute suggests that
omission of an explicit private right to enforce other
sections was intentional.” Id. “Obviously ... when Congress
wished to provide a private damage remedy, it knew
how to do so and did so expressly.” Touche Ross & Co. v.
Redington, 442 U.S. 560, 572, 99 S.Ct. 2479, 61 L.Ed.2d
82 (1979); see also Olmsted, 283 F.3d at 433.
Despite these persuasive points, the Supreme Court
has instructed that federal courts “do not lightly conclude
that Congress intended to preclude reliance on § 1983 as
remedy.” Wright v. City of Roanoke Redevelopment and
Housing Auth., 479 U.S. 418, 423–24, 107 S.Ct. 766, 93
L.Ed.2d 781 (1987). Furthermore, there is no need for this
Court to make such a broad holding when the Blessing
test, read in light of Gonzaga’s guidance, makes clear that
there is no private right of action under § 1983 for the
sections of the CWA involved in this litigation.

112a
Appendix F
II. The Blessing Test and Gonzaga Factors Make Clear
that There is No Private Right of Action Under 42
U.S.C. §§ 672(a), 675(4)(A)
In Blessing, the Supreme Court held that “[i]n order
to seek redress through § 1983 ... a plaintiff must assert
the violation of a federal right, not merely a violation of
federal law.” Blessing, 520 U.S. at 340, 117 S.Ct. 1353. To
ascertain whether “a particular statutory provision gives
rise to a federal right,” the Blessing decision articulated
a three-factor test:
First, Congress must have intended that the
provision in question benefit the plaintiff.
Second, the plaintiff must demonstrate that the
right assertedly protected by the statute is not
so vague and amorphous that its enforcement
would strain judicial competence. Third, the
statute must unambiguously impose a binding
obligation on the States. In other words, the
provision giving rise to the asserted right
must be couched in mandatory, rather than
precatory, terms.
Blessing, 520 U.S. at 340–41, 117 S.Ct. 1353 (internal
citations omitted); see also Wachovia Bank, N.A. v. Burke,
414 F.3d 305, 321–22 (2d Cir.2005). The Second Circuit
has cautioned against applying these factors too strictly,
explaining that: “courts should not find a federal right
based on a rigid or superficial application of the Blessing
factors where other considerations show that Congress
did not intend to create federal rights actionable under

113a
Appendix F
§ 1983.” Torraco v. Port Auth. of New York & New Jersey,
615 F.3d 129, 136 (2d Cir.2010); Wachovia Bank, N.A., 414
F.3d at 322.
In Gonzaga, the Supreme Court recognized that
“[s]ome language in our opinions might be read to suggest
that something less than an unambiguously conferred
right is enforceable by § 1983.” 536 U.S. at 283, 122 S.Ct.
2268. The resulting “confusion [had] led some courts
to interpret Blessing as allowing plaintiffs to enforce a
statute under § 1983 so long as the plaintiff [fell] within the
general zone of interest that the statute [was] intended to
protect.” Id. The Court rejected the notion that “anything
short of an unambiguously conferred right ... support[ed] a
cause of action brought under § 1983.” Id. (“[I]t is rights,
not the broader or vaguer ‘benefits’ or ‘interests,’ that
may be enforced under the authority of that section.”).
Thus, Gonzaga invoked important aspects of our federalist
system and established “that if a state is to be subject to
private suits whenever it fails to meet a funding condition,
Congress should clearly put the state on notice.” Midwest
Foster Care, 712 F.3d at 1196 (citing Gonzaga, 536 U.S.
at 286 & n. 5, 122 S.Ct. 2268).
The Gonzaga Court also fleshed out three factors
for courts to utilize when interpreting the first prong of
Blessing—whether Congress intended for the statute to
benefit the plaintiff. First, the Gonzaga Court reviewed
whether Congress included “rights-creating language” in
the statute. 536 U.S. at 285–86, 290, 122 S.Ct. 2268; see
Loyal Tire & Auto Ctr., Inc. v. Town of Woodbury, 445
F.3d 136, 149 (2d Cir.2006) (Sotomayor, Cir. J.). Second,

114a
Appendix F
the Gonzaga Court considered whether the contested
statutory language manifested an aggregate focus,
rather than being concerned with whether the needs
of any particular person had been satisfied. Gonzaga,
536 U.S. at 287, 122 S.Ct. 2268; see Midwest Foster
Care, 712 F.3d at 1196. Lastly, the Court considered
the availability of a congressionally mandated federal
review mechanism. Gonzaga, 536 U.S. at 289–90, 122
S.Ct. 2268; see Midwest Foster Care, 712 F.3d at 1197.
Also important to the determination in Gonzaga was
that the statute “was spending legislation that focused
primarily on the government’s allocation of resources.”
Loyal Tire & Auto Ctr., 445 F.3d at 149 (citing Gonzaga,
536 U.S. at 290, 122 S.Ct. 2268). “In legislation enacted
pursuant to the spending power, the typical remedy for
state noncompliance with federally imposed conditions
is not a private cause of action for noncompliance but
rather action by the Federal Government to terminate
funds to the State.” Pennhurst State School & Hospital
v. Halderman, 451 U.S. 1, 28, 101 S.Ct. 1531, 67 L.Ed.2d
694 (1981).
Thus, the requisite analysis begins with an examination
of §§ 672, 675(4)(A) in light of these principles from
Blessing and Gonzaga.
A.

42 U.S.C. §§ 672, 675(4)(A) Lack “Rights–
Creating Language”

The first factor for interpreting the first prong of the
Blessing test looks at whether the text and structure of
the statute indicate that Congress used “rights-creating

115a
Appendix F
language” in conferring the benefit on the plaintiff. See
Loyal Tire & Auto Ctr., 445 F.3d at 149; see also Gonzaga,
536 U.S. at 285–86, 290, 122 S.Ct. 2268. “ ‘Statutes that
focus on the person regulated rather than the individuals
protected’ do not tend to create enforceable rights.”
Midwest Foster Care, 712 F.3d at 1197 (quoting Gonzaga,
536 U.S. at 287, 122 S.Ct. 2268). The text and structure
of §§ 672, 675(4)(A) lack any indicia of “rights-creating
language” and suggest that Congress did not intend for
an individual cause of action to arise from the statute. The
sections “speak to the states as regulated participants in
the CWA and enumerate limitations on when the states’
expenditures will be matched with federal dollars; they
do not speak directly to the interests of the [foster care]
Providers.” Id.
To begin with, § 675(4)(A) provides the definition
of “foster care maintenance payments,” fittingly, in the
CWA’s definitional section. To infer a private right of
action from a definitional section is antithetical to the
mandate that a private right in a federal statute does
not exist “unless Congress speaks with a clear voice and
mandates an unambiguous intent to confer individual
rights.” Midwest Foster Care, 712 F.3d at 1197 (quoting
Gonzaga, 536 U.S. at 280, 122 S.Ct. 2268). Other courts
have confirmed this principle and refused to infer a private
right of action under § 1983 from a purely definitional
section. See id.; 31 Foster Children v. Bush, 329 F.3d
1255, 1271 (11th Cir.2003) (statutory sections that “are
definitional in nature ... alone cannot and do not supply
a basis for conferring rights enforceable under § 1983”);
Crawford v. Wash. Cnty. Children and Youth Services,

116a
Appendix F
06–CV–1698, 2008 WL 239454, at *6 n. 1 (W.D.Pa. Jan.
29, 2008) (same); Olivia Y. ex rel. Johnson v. Barbour, 351
F.Supp.2d 543, 561 (S.D.Miss.2004) (same); Charlie H., 83
F.Supp.2d at 490 (finding a provision in the definitional
subsection of the CWA, standing alone, does not
“confer[ ] a right upon Plaintiffs enforceable pursuant
to § 1983”); B.H. v. Johnson, 715 F.Supp. 1387, 1401
(N.D.Ill.1989) (“It would be strange for Congress to create
rights enforcing language in the definitional section of a
statute.”). Section 675(4)(A) simply limits the costs that
the federal government will provide matching funds for
by including an itemized list of permissible expenditures.
The section puts states on notice as to what foster carerelated expenditures will be reimbursed and gives no
inference of an intent to provide a private right of action.
See Midwest Foster Care, 712 F.3d at 1197–98. (“Section
675(4)(A) is part of an open-ended entitlement program,
and when viewed in this context, it seems natural that
Congress would choose to place limitations on the type
of state expenditures it matches.”). The language “more
closely resembles an affirmative obligation on the state
than a creation of an individual right.” Midwest Foster
Care & Adoption Assoc. v. Kinkade, 11–CV–1152 (D.Mo.
Mar. 9, 2012) (unpublished), aff’d, 712 F.3d at 1194.
Beyond the CWA’s definitional section, § 672(a) provides
that “[e]ach state ... shall make foster care maintenance
payments on behalf of each child who has been removed
from the home of a relative” and then sets forth a list of
scenarios in which such payments are not required. This
requirement, as would be expected from a spending clause
provision, focuses on how and when a state will act in order

117a
Appendix F
to qualify for federal funding. See Pennhurst, 451 U.S. at
28, 101 S.Ct. 1531. The funding recipients’ benefit (i.e. the
money given to foster parents) is ancillary to the entities
the statute is focused on: the states. “[T]he overwhelming
focus is upon the conditions precedent that trigger the
[federal government’s] obligation [to reimburse].” Midwest
Foster Care, 712 F.3d at 1198 (“The function of § 672(a)
is to serve as a roadmap for the conditions a state must
fulfill in order for its expenditure to be eligible for federal
matching funds; otherwise, the state bears the full cost of
these payments.”). The key actor in § 672(a) is the state,
and the operative condition consists of prerequisites that
must be met for the federal government to reimburse the
state. In sum, § 672(a) is focused on what a state must do
to be eligible for federal funding. In these circumstances,
the attention is not “individually focused” and does not
suggest an unambiguous intent to allow a private right of
action. Gonzaga, 536 U.S. at 287, 122 S.Ct. 2268; see also
Midwest Foster Care, 712 F.3d at 1198–99.
If the statute were worded differently, and § 672(a)
(1) read: “No eligible child shall be denied foster care
maintenance payments by a State with an approved plan,”
a reasonable reader might find the requisite “rightscreating” language. (See Def.’s Br. at 20). Indeed, the postGonzaga cases that have found rights-creating language,
have included similar text. Cf. Torraco, 615 F.3d at 136–37
(finding rights-creating language in 18 U.S.C. § 926A,
which “entitles” non-prohibited persons to transport
firearms for any lawful purpose from one place where

118a
Appendix F
they may lawfully have firearms to another). 3 However,
that language is not present within § 672, which is
instead constructed to focus on the states’ responsibilities
under the statute. Clearly, Congress knew how to draft
unambiguous rights-creating language in the wake of
Blessing and Gonzaga if that was its desire. See Olmsted,
283 F.3d at 433 (“Congress’s explicit provision of a private
right of action to enforce one section of a statute suggests
that omission of an explicit private right to enforce other
sections was intentional.”); see also Touche Ross, 442 U.S.
at 572, 99 S.Ct. 2479 (“when Congress wished to provide
a private damage remedy, it knew how to do so and did so
expressly”). For example, in Wilder v. Va. Hosp. Ass’n,
496 U.S. 498, 110 S.Ct. 2510, 110 L.Ed.2d 455 (1990), where
the Court did find a private right of action in the Medicaid
Act, “the relevant provisions ... did not focus on defining
the conditions that must be met in order for a participating
state’s expenditures to be eligible for federal matching
3. The full statutory provision at issue in Torraco read:
“Notwithstanding any other provision of any law or any rule or
regulation of a State or any political subdivision thereof, any person
who is not otherwise prohibited by this chapter [18 U.S.C. § 921 et
seq.] from transporting, shipping, or receiving a firearm shall be
entitled to transport a firearm for any lawful purpose from any
place where he may lawfully possess and carry such firearm to any
other place where he may lawfully possess and carry such firearm if,
during such transportation the firearm is unloaded, and neither the
firearm nor any ammunition being transported is readily accessible
or is directly accessible from the passenger compartment of such
transporting vehicle: Provided, That in the case of a vehicle without
a compartment separate from the driver’s compartment the firearm
or ammunition shall be contained in a locked container other than
the glove compartment or console.” 18 U.S.C. § 926A

119a
Appendix F
funds and, therefore, did not evince the degree of removal
[the Court] now confront[s]” in reviewing § 672(a). Midwest
Foster Care, 712 F.3d at 1199. Because the sections of the
CWA before the Court plainly turn on whether a state is in
compliance with federal requirements, there is no textual
basis for finding a private right of action.
The courts that have reached the contrary conclusion
have hinged their decisions on the mere inclusion of foster
parents as the recipients of § 672(a)’s funding mandate.
See, e.g., Cal. State Foster Parent Ass’n v. Wagner, 624
F.3d 974, 981–82 (9th Cir.2010); see also Midwest Foster
Care, 712 F.3d at 1203 n. 10 (Smith, J. dissenting) (citing
cases). This Court joins the Midwest Foster Care court in
highlighting the actual consequence of § 672(a)’s reference
to foster parents. “The ability to locate a nexus between
§ 1983 plaintiffs and a benefit conferred by a statute is
necessary but not sufficient; the statutory text also must
be phrased in terms of the persons benefitted.” Midwest
Foster Care, 712 F.3d at 1199 (quoting Gonzaga, 536 U.S.
at 284, 122 S.Ct. 2268) (internal quotations omitted). This
ensures that § 1983 only provides a cause of action for
federal rights and not any federal law. See Blessing, 520
U.S. at 340, 117 S.Ct. 1353.
A plaintiff’s mere status as a beneficiary of a federal
law is insufficient to stake a claim to a congressional grant
of the right to privately enforce the statute under § 1983.
See Gonzaga, 536 U.S. at 283, 122 S.Ct. 2268. “For a
statute to create private rights, its text must be phrased
in terms of the persons benefited.” Gonzaga, 536 U.S.
at 274, 122 S.Ct. 2268. “Where the statutory language

120a
Appendix F
primarily concerns itself with commanding how states are
to function within a federal program, the statute is less
likely to have created an individually enforceable right.”
Midwest Foster Care, 712 F.3d at 1200. And here, it is
the states, not foster care providers, that are the textual
focus of § 672(a). This is strong indication that Congress
did not intend for foster care providers to have a private
right of action under § 1983 for alleged violations by state
actors of this section of the CWA.
B. 42 U.S.C. §§ 672(a), 675(4)(A) Have an Aggregate,
Not an Individual, focus
The next factor in analyzing the Blessing test’s first
prong is determining whether the statutory provision
in question has an aggregate or an individual focus.
Gonzaga, 536 U.S. at 288, 122 S.Ct. 2268. If a statute
has an aggregate focus, it “cannot give rise to individual
rights.” Id. (quoting Blessing, 520 U.S. at 344, 117 S.Ct.
1353) (internal quotations omitted). A court should review
the “text and structure” of the statutory provisions to
discern their focus. Id. at 286, 122 S.Ct. 2268. As the text
and structure of §§ 672(a), 675(4)(A) do not emphasize
“whether the needs of any particular [foster care provider]
have been satisfied,” these sections lack an aggregate
focus and do not give rise to an individual right. Id. at 288,
122 S.Ct. 2268 (quoting Blessing, 520 U.S. at 343, 117 S.Ct.
1353); see also Midwest Foster Care, 712 F.3d at 1200.
That a state need only be in “substantial conformity”
with the CWA’s requirements to receive federal funding
strongly suggests that the statute has an aggregate focus.

121a
Appendix F
Gonzaga, 536 U.S. at 288, 122 S.Ct. 2268 (finding a statute
that allowed institutions to avoid termination of federal
funding so long as they “compl[ied] substantially” with the
statute’s requirements had an aggregate focus); Blessing,
520 U.S. at 335, 117 S.Ct. 1353 (finding no private right
of action under § 1983 in part because only “substantial
compliance” with federal regulations was required); see
also Midwest Foster Care, 712 F.3d at 1200–01 (finding
the substantial compliance component of the CWA
supports the denial of a private right of action); Olivia
Y., 351 F.Supp.2d at 562 (same). Under the CWA, a state
can continue to receive federal matching funds for foster
care maintenance payments even though it has objectively
failed to meet federal mandates. So long as a state is in
“substantial conformity” with the statutory regime, the
federal faucet continues to flow. See 42 U.S.C. § 1320a–2a.
Only when a state is so far out-of-line with Congress’s
express dictates does a state even begin to face the threat
of termination of federal funding. See §§ 1320a–2a(b)(4)
(A), (C) (requiring the Secretary of HHS to “afford the
State an opportunity to adopt and implement a corrective
action plan” before withholding federal funding). Such “[a]
substantial compliance regime cuts against an individually
enforceable right because, even where a state substantially
complies with its federal responsibilities, a sizeable
minority of its beneficiaries may nonetheless fail to receive
the full panoply of offered benefits.” Midwest Foster Care,
712 F.3d at 1200–01. “Focusing on substantial compliance
is tantamount to focusing on the aggregate practices of
a state funding recipient.” Id. at 1201; see also Gonzaga,
536 U.S. at 288, 122 S.Ct. 2268; Blessing, 520 U.S. at 335,
117 S.Ct. 1353; Olivia Y., 351 F.Supp.2d at 562.

122a
Appendix F
Of course, standing alone, a substantial compliance
regime does not establish that a statute has an aggregate
focus. See Midwest Foster Care, 712 F.3d at 1201
(“[W]hile a substantial compliance regime may suggest
an absence of the requisite congressional intent, it cannot
by itself establish an aggregate focus”); compare Wilder,
496 U.S. at 512, 110 S.Ct. 2510 (1990) (holding a private
right of action existed in a Medicaid statute providing for
“reasonable and adequate” reimbursement rate despite a
substantial compliance provision). Nonetheless, here, other
factors also demonstrate that Congress had an aggregate
focus in drafting the CWA. When the “reference to [the
asserted individual right] is in the context of describing
the type of [action] that triggers a funding prohibition[,]”
an aggregate focus is evident. Gonzaga, 536 U.S. at
288–89, 122 S.Ct. 2268. In other words, when the statute
couches the plaintiff’s purported right in terms of what
state actions will terminate federal funding, it is indicative
of an aggregate focus.
Gonzaga offered a clear example of such an occurrence.
The statute in Gonzaga, the Family Educational Rights
and Privacy Act (FERPA), refused federal funds to
educational institutions that had a policy or practice of
releasing student records without parental consent. 4
4. The relevant section of the FERPA states: “No funds shall
be made available under any applicable program to any educational
agency or institution which has a policy or practice of permitting the
release of education records (or personally identifiable information
contained therein ...) of students without the written consent of
their parents to any individual, agency, or organization.” 20 U.S.C.
§ 1232g(b)(1).

123a
Appendix F
See Gonzaga, 536 U.S. at 279, 122 S.Ct. 2268. “In each
provision [of the FERPA] the reference to individual
consent is in the context of describing the type of ‘policy or
practice’ that triggers a funding prohibition ... [and] such
provisions cannot make out the requisite congressional
intent to confer individual rights enforceable by § 1983.”
Id. at 288–89, 122 S.Ct. 2268. At the same time, in
instances where the Court has found an enforceable
right, the statutory language did not turn on actions that
would terminate federal funding. Cf. Wilder, 496 U.S. at
502–03, 110 S.Ct. 2510 (considering 42 U.S.C. § 1396a(a)
(13)(A), which contains no reference to the termination of
federal funding if a health care provider does not comply
with federal regulations); Wright, 479 U.S. at 420, 107
S.Ct. 766 (considering Pub.L. 97–35, § 322, 95 Stat. 400,
which contains no reference to the termination of federal
funding if a low-income family is required to pay rent
higher than required under federal law). Comparing the
Supreme Court’s holdings in these cases, §§ 672(a), 675(4)
(A) are more similar to “the statutory language at issue
in Gonzaga than that of the statutes at issue in Wilder
or Wright .... [i]n other words, the failure to meet the
requirements of § 672(a) ‘triggers a funding prohibition,’
and the asserted right is only mentioned in the context
of these funding prohibitions.” Midwest Foster Care, 712
F.3d at 1201–02; see also Olmsted, 283 F.3d at 433 (quoting
Alexander v. Sandoval, 532 U.S. 275, 289, 121 S.Ct. 1511,
149 L.Ed.2d 517 (2001)) (“Statutes that focus on the person
regulated rather than the individuals protected create no
implication of an intent to confer rights on a particular
class of persons.”). The text and structure of §§ 672(a),
675(4)(A) indicate that Congress drafted these sections of

124a
Appendix F
the CWA with an aggregate focus and without an intent
to create an individually enforceable right.
The final indication that the CWA, generally, has an
aggregate, as opposed to individual focus, is the statute’s
declaration of purpose. The declaration explicitly states
that the CWA was enacted to designate appropriate funds
“[f]or the purpose of enabling each State to provide, in
appropriate cases, foster care and transitional independent
living programs for [eligible] children.” 42 U.S.C. § 670.
In selecting this purpose, as opposed to one ensuring
that no foster care provider is deprived of federal funds,
the elected branches revealed that their concern was
with “enabling [the] State[s]” to oversee the functioning
of their foster care systems. Defendant argues that this
is “a classic statement of legislation enacted pursuant to
Congress’s spending power, whereby Congress rewards
certain state conduct and penalizes deviation from set
criteria by administrative termination of funding.” (Def.’s
Br. at 22). The Court agrees and finds that a spending
statute turning on state compliance does not create a
private right of action under § 1983. See Pennhurst, 451
U.S. at 28, 101 S.Ct. 1531.
Plaintiff argues that this Court should adopt the
contrary finding of the United States Court of Appeals
for the Ninth Circuit. See Wagner, 624 F.3d at 980. That
court found “§ 672 of the CWA focuses squarely on the
individuals protected, rather than the entities regulated.
It does not purport to regulate state institutions.” Id. at
980. The Ninth Circuit’s decision turned on its finding that
“§ 672’s reference to ‘payments on behalf of each child’

125a
Appendix F
is individual, rather than aggregate.” Id. This finding
ignores the structure and language of the CWA. It is
unsurprising that a piece of Spending Clause legislation
will ultimately benefit some party. The crucial inquiry,
however, is whether the congressional focus was on
the “person regulated” (here, the states) and not the
“individuals protected” (here, the foster care providers).
See Gonzaga, 536 U.S. at 288, 122 S.Ct. 2268. As the
CWA’s funding regime turns on whether the state is in
substantial conformity with federal requirements, rather
than focusing on individual instances of noncompliance,
its aggregate focus is without a doubt. See id. The Ninth
Circuit in Wagner overvalued the reference to the
individual beneficiaries and ignored the CWA’s statutory
design that centers on whether a state substantially
conformed with federal requirements so that it may
continue to receive matching funds. Cf. Cal. v. Sierra
Club, 451 U.S. 287, 294, 101 S.Ct. 1775, 68 L.Ed.2d 101
(1981) (“The question is not simply who would benefit from
the Act, but whether Congress intended to confer federal
rights upon those beneficiaries.”).
Lastly, the Court notes that it is mindful of the Suter
Fix in reaching its decision. See 42 U.S.C. § 1320a–2.
In response to the Supreme Court’s decision in Suter
v. Artist M, 503 U.S. 347, 112 S.Ct. 1360, 118 L.Ed.2d 1
(1992) (holding a provision of the CWA did not give right
to private cause of action because of the statute’s state
plan requirement), Congress passed 42 U.S.C. § 1320a–2.5
5. “In an action brought to enforce a provision of this chapter,
such provision is not to be deemed unenforceable because of its
inclusion in a section of this chapter requiring a State plan or

126a
Appendix F
That provision instructed that the requirement of a state
plan cannot, alone, serve as the basis for denying a private
right of action. See Rabin v. Wilson–Coker, 362 F.3d 190,
202 (2d Cir.2004); Boyland v. Wing, 487 F.Supp.2d 161,
171 (E.D.N.Y.2007) (Bianco, J.). Here, it is not the mere
existence of a state plan that compels a finding that no
private right of action exists. Rather, it is the structure
and text of §§ 672(a), 674(5)(A)—requiring only substantial
conformity, placing the reference to the beneficiary within
conditional language regarding the termination of federal
funding, and the statute’s stated purpose—that drive this
Court’s holding that the contested CWA sections have an
aggregate focus.
C. 	The Existence of a federal Review Mechanism
The final factor Gonzaga introduced for clarifying the
first prong of Blessing is the consideration of an aggrieved
individual’s access to a federal review mechanism.
Gonzaga, 536 U.S. at 289–90, 122 S.Ct. 2268 (finding
that access to a federal review mechanism “further
counsel[s] against [ ] finding a congressional intent to
create individually enforceable private rights”). The
specifying the required contents of a State plan. This section is
not intended to limit or expand the grounds for determining the
availability of private actions to enforce State plan requirements
other than by overturning any such grounds applied in Suter v. Artist
M., 503 U.S. 347, 112 S.Ct. 1360, 118 L.Ed.2d 1 (1992), but not applied
in prior Supreme Court decisions respecting such enforceability;
provided, however, that this section is not intended to alter the
holding in Suter v. Artist M. that section 671(a)(15) of this title is
not enforceable in a private right of action.” 42 U.S.C.A. § 1320a–2.

127a
Appendix F
federal review mechanism in Gonzaga included express
authorization for the Secretary of Education to “deal with
violations” of the FERPA and a requirement that the
Secretary “establish or designate [a] review board” for
handling violations. Id. at 289, 122 S.Ct. 2268 (discussing
20 U.S.C. 1232g’s review provisions and the creation of
the Family Policy Compliance Office “to act as the Review
Board required under the Act [and] to enforce the Act
with respect to all applicable programs”).
“In contrast, although the CWA ‘provides for oversight
and funding restrictions that may be imposed by the
Secretary’ on the participating states, there is no direct
federal review of the claims of individual providers.”
Midwest Foster Care, 712 F.3d at 1202 (quoting Mo. Child
Care Ass’n v. Cross, 294 F.3d 1034, 1038 (8th Cir.2002)
(discussing the delegation of oversight to the states
including: state administrative review opportunities for
individuals whose benefits are denied and mandatory
periodic state review of foster care maintenance payment
amounts) (citing 42 U.S.C. §§ 671(a)(11), (12))). Meaningful
federal review under the CWA is limited to mandatory
HHS/ACF audits of state programs for substantial
compliance with the individual state’s plan and the
statute’s mandates. § 1320a–2a(b).6
6. “In general[:] The Secretary, in consultation with the State
agencies administering the State programs under parts B and E of
subchapter IV of this chapter, shall promulgate regulations for the
review of such programs to determine whether such programs are
in substantial conformity with—
(1) State plan requirements under such parts B and E,
(2) implementing regulations promulgated by the Secretary,
and

128a
Appendix F
However, the absence of a comparable federal
mechanism is not fatal to Defendant’s position. Gonzaga
makes clear this factor is tertiary and supplemental to the
inquiry with regard to the first two factors. See 536 U.S.
at 289–90, 122 S.Ct. 2268. The finding of a federal review
mechanism merely “buttressed” the Gonzaga Court’s
determination that Congress did not intend a private
cause of action and only “further counsel[ed] against
[the Court’s] finding a congressional intent to create
individually enforceable private rights.” Id. (emphasis
added). The Supreme Court’s treatment of this third factor
indicates that when the first two factors strongly weigh
against the finding of a private right of action, the absence
of a federal review mechanism will not revive a plaintiff’s
grasp at a § 1983 cause of action. See Midwest Foster Care,
712 F.3d at 1202 (“reject[ing] the notion that a failure to
provide a federal enforcement mechanism equal to the
one considered in Gonzaga is sufficient to overcome the
weight of these competing considerations”). “Despite the
relative lack of federal review opportunities ... the other
elements of Gonzaga’s analysis of Blessing’s first prong
strongly tilt against the finding of an unambiguous intent
to create an individually enforceable right.” Id.
Furthermore, Defendant has advocated that the
“[p]resence of a comprehensive federal enforcement
scheme bolsters the conclusion that the CWA confers
a benefit on Plaintiff but not a right.” (Def.’s Br. at 23).
Defendant highlights, and this Court takes note of, the
extensive statutory scheme for helping wayward states
(3) the relevant approved State plans.” 42 U.S.C.A. § 1320a–2a.

129a
Appendix F
return to “substantial conformity” and the ability for
HHS to use its audit power to terminate federal funding.
See § 1320a–2a(b). While the CWA clearly places the bulk
of enforcement responsibility with the states and these
measures certainly fall short of the federal mechanisms
present in Gonzaga, there remains a recurring federal
role, with powerful repercussions, in the distribution
of foster care maintenance payments to the states. See
§ 1320a–2a.
Indeed, the scheme Congress devised for the
operation of the CWA—state enforcement coupled with
federal regulatory audits and the ability to terminate
funding—involves a delicate balance between the
institutional players in our federal system. Congress
was mindful of the importance of sending federal money
to state actors responsible for these particularly needy
members of American society. Of note, and as discussed
above, a state that falls out of substantial conformity will
not immediately lose funding, but will be provided with
HHS-set benchmarks to bring its foster care system
back into compliance, all while continuing to receive
federal funds. See, e.g., 45 C.F.R. § 1355.35(a)(1)(v); see
also 45 C.F.R. § 1355.32(d). To have individual plaintiffs
intrude on this nuanced system would divest HHS of its
congressionally-prescribed role in ensuring that states
remain substantially compliant with the CWA’s mandates.
It is hard to imagine how a noncompliant state could
simultaneously work through its HHS benchmarks and
be subject to a federal court injunction of the nature
sought by Plaintiff here. The resulting intrusion is a
powerful indication that Congress did not envision § 1983
plaintiffs barging into its carefully crafted scheme.

130a
Appendix F
Plaintiff’s untenable proposal reiterates what the Supreme
Court has said about finding private rights of action in
Spending Clause legislation: “the typical remedy for state
noncompliance with federally-imposed conditions is not
a private cause of action for noncompliance but rather
action by the Federal Government to terminate funds
to the State.” Pennhurst, 451 U.S. at 28, 101 S.Ct. 1531.
In the absence of a “clear and unambig uous”
congressional intent to provide a § 1983 cause of action
to plaintiffs claiming that a state has failed to comply
with §§ 672(a), 674(5)(A), there is no need to review the
other Blessing factors. See Gonzaga, 536 U.S. at 290–91,
122 S.Ct. 2268; Midwest Foster Care, 712 F.3d at 1202.
Accordingly, our inquiry ends after finding no indication
that Congress intended to create a private right of action
in these sections of the CWA.
CONCLUSION
Defendant’s motion to dismiss is GRANTED. The
Complaint is DISMISSED in its entirety. Furthermore,
this decision renders Plaintiff’s motion for summary
judgment moot. The Clerk of the Court is respectfully
requested to close the case.
SO ORDERED
s/WFK			
HON. WILLIAM F. KUNTZ, II
UNITED STATES DISTRICT
JUDGE

131a
G
Appendix G — Appendix
Order and
Dissenting
Opinions of the United States Court of
Appeals FOR THE SECOND CIRCUIT, DATED
AUGUST 16, 2019
UNITED STATEs COuRT OF APPEALs
FOR THE SECOND CIRCUIT
14-2919
NEW YORK STATE CITIZENS’
COALITION FOR CHILDREN,
Plaintiff-Appellant,
v.
SHEILA J. POOLE, AcTING COMMIssIONER
FOR ThE NEw YORk STATE OFFIcE
OF ChILDREN AND FAMILy SERVIcEs,
IN hIs OFFIcIAL cAPAcITy,
Defendant-Appellee.
PRESENT: ROBERT A. KATZMANN, Chief Judge,
JOSÉ A. CABRANES, ROSEMARY S. POOLER,
PETER W. HALL, DEBRA ANN LIVINGSTON,
DENNY CHIN, RAYMOND J. LOHIER, JR., SUSAN
L. CARNEY, RICHARD J. SULLIVAN, JOSEPH F.
BIANCO, MICHAEL H. PARK Circuit Judges.
Following disposition of this appeal on April 19, 2019,
an active judge of the Court requested a poll on whether
to rehear the case en banc. A poll having been conducted

132a
Appendix G
and there being no majority favoring en banc review,
rehearing en banc is hereby DENIED.
Debra Ann Livingston, Circuit Judge, joined by José
A. Cabranes, Richard J. Sullivan, Joseph F. Bianco, and
Michael H. Park, Circuit Judges, dissents by opinion from
the denial of rehearing en banc.
José A. Cabranes, Circuit Judge, dissents by opinion
from the denial of rehearing en banc.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

133a
Appendix G
debra A nn livingsTon, Circuit Judge, joined by José A.
Cabranes, Richard J. Sullivan, JosePh f. Bianco, and
Michael H. Park, Circuit Judges, dissenting from the
denial of rehearing en banc:
By a vote of six to five, the active members of this
Court decline to rehear a case presenting an issue of
“exceptional importance”—an issue that now divides four
United States Courts of Appeals.1 Fed. R. App. P. 35(a).
The panel majority holds that the Adoption Assistance
and Child Welfare Act of 1980 (the “CWA” or the “Act”),
42 U.S.C. § 670 et seq., creates a privately enforceable
right under 42 U.S.C. § 1983 by which some foster care
parents and providers may sue States for costs related to
childrearing. In implying this right of action, the majority
tasks federal district judges across the three States of
our Circuit with setting the rates at which this subset of
foster care parents and providers should be compensated
1. Compare New York State Citizens’ Coalition for Children v.
Poole, 922 F.3d 69 (2d Cir. 2019) (finding a right privately enforceable
under § 1983 to recover “foster care maintenance payments” in
the CWA); D.O. v. Glisson, 847 F.3d 374 (6th Cir. 2017) (same); Cal
State Foster Parent Ass’n v. Wagner, 624 F.3d 974 (9th Cir. 2010)
(same), with Midwest Foster Care & Adoption Ass’n v. Kincade, 712
F.3d 1190 (8th Cir. 2013) (holding that the CWA does not confer a
privately enforceable right to “foster care maintenance payments”);
see Connor B. ex rel. Vigurs v. Patrick, 771 F. Supp. 2d 142, 170 (D.
Mass. 2011) (“Federal courts are divided as to whether the [CWA]
creates privately enforceable rights to . . . foster care maintenance
payments.”); see also 31 Foster Children v. Bush, 329 F.3d 1255
(11th Cir. 2003) (holding that provisions of the CWA requiring that
a foster care child’s health and education record be reviewed do not
confer a privately enforceable right under § 1983).

134a
Appendix G
for items such as a child’s “food, clothing, shelter, daily
supervision, [and] school supplies,” id. § 675(4)(A),
pursuant to a statute that contains not a word of guidance
for making such judgments. 2 In its forceful petition for
rehearing en banc, the State of New York argues that
the panel majority’s holding will require States “to
prioritize spending on the limited set of children and
expenditures eligible for partial federal reimbursement,
at the expense of the much broader population of children
that New York and other States have chosen to benefit,”
while at the same time “subjecting States to the risk of
multiple, inconsistent judgments about proper foster care
reimbursement rates.” Petition for Rehearing En banc at
1, 3, New York State Citizens’ Coalition for Children v.
Poole, 922 F.3d 69 (2d Cir. 2019) [hereinafter Petition for
Rehearing]. Connecticut, along with over a dozen other
States joining in an amicus brief, agrees with New York. It
too argues that the majority’s privately enforceable right
will impose immense burdens on State foster care systems
2. Section 675 of the Act, entitled “Definitions,” defines
“foster care maintenance payments” as:
payments to cover the cost of (and the cost of
providing) food, clothing, shelter, daily supervision,
school supplies, a child’s personal incidentals, liability
insurance with respect to a child, reasonable travel
to the child’s home for visitation, and reasonable
travel for the child to remain in the school in which
the child is enrolled at the time of placement. In the
case of institutional care, such term shall include the
reasonable costs of administration and operation of
such institution as are necessarily required to provide
the items described in the preceding sentence.
Id. § 675(4)(A).

135a
Appendix G
and represents a “costly condition . . . that Congress did
not impose and to which the . . . States did not agree
when entering into [this] relationship with the federal
government.” Brief for Amici Curiae States Supporting
Respondents at 2, New York State Citizens’ Coalition
for Children v. Poole, 922 F.3d 69 (2d Cir. 2019); see also
Armstrong v. Exceptional Child Care Center, 135 S. Ct.
1378, 1389, 191 L. Ed. 2d 471 (2015) (Breyer, J., concurring
in part and concurring in the judgment) (noting the
“increased litigation, inconsistent results, and disorderly
administration” that result from judicial rate setting).
The panel majority’s decision imposes these pernicious
costs on our Circuit despite the fact that the right
it identifies is not even fairly discernible, much less
unambiguously manifest, in the text of the CWA. Congress
simply did not create an individual right to foster care
maintenance payments enforceable pursuant to § 1983
in the “Definitions” section of this Spending Clause
legislation. See Midwest Foster Care & Adoption Ass’n v.
Kincade, 712 F.3d 1190, 1197 (8th Cir. 2013) (“[F]inding an
enforceable right solely within a purely definitional section
is antithetical to requiring unambiguous congressional
intent.”). In deciding to the contrary, the panel majority
misconstrues the Act and ignores decades of Supreme
Court precedent, choosing instead to resurrect the Court’s
long-abandoned “ancien regime” of readily implied causes
of action. Alexander v. Sandoval, 532 U.S. 275, 287, 121 S.
Ct. 1511, 149 L. Ed. 2d 517 (2001). Because the majority’s
decision is wrong, will dissipate scarce foster care dollars,
and will impose litigation burdens in this Circuit that far
outweigh the additional work required for en banc review,
I dissent from the denial of rehearing en banc.

136a
Appendix G
***
The CWA, enacted almost 40 years ago, offers fiscal
incentives to participating States “to encourage a more
active and systematic monitoring of children in the foster
care system.” Vermont Dep’t of Soc. & Rehab. Servs. v.
U.S. Dep’t of Health & Human Servs., 798 F.2d 57, 59
(2d Cir. 1986). As the dissent from the panel majority’s
decision lays out more fully, by incentivizing appropriate
foster care arrangements, the CWA does not in some way
sub silentio grant a subset of New York foster parents and
providers a privately enforceable right under 42 U.S.C.
§ 1983 to recover “foster care maintenance payments.”
See Poole, 922 F.3d at 85-101 (Livingston, J., dissenting).
The panel majority makes two fundamental mistakes in
concluding to the contrary.
As to the first mistake: the CWA provides partial
reimbursement to participating States of “foster care
maintenance payments” made by these States on behalf
of eligible children, if the States otherwise satisfy the
requirements of the Act. See 42 U.S.C. §§ 671, 675. But
the panel majority concludes that by providing that
States “shall make” foster care maintenance payments,
id. § 672(a)(1), the CWA also imposes a minimum foster
care spending obligation on recipient States, requiring the
States to cover the entire cost of a slew of items listed as
reimbursable in § 675(4)(A), despite the fact that the States
do not even receive full federal reimbursement for those
items. Put differently, the panel majority determines that
the partial federal support system supplied by the CWA
imposes a categorical foster care spending requirement

137a
Appendix G
on all recipient States, notwithstanding any limits their
legislatures may have placed on these expenditures. This
is not a reasonable interpretation of §§ 672 and 675. These
provisions are instead best read as identifying certain
categories of State payments that are eligible for partial
federal reimbursement, but leaving to the discretion of
the States which payments to make in the first instance. 3
See Poole, 922 F.3d at 86-92 (Livingston, J., dissenting).
State authorities direct their own foster care programs—
not federal courts.
But even if §§ 672 and 675 do impose a spending
obligation on the States (and they do not), the panel
majority errs a second time in concluding that the CWA
also confers on a subset of New York caregivers a right,
3. The Department of Health and Human Services (“HHS”)
has consistently interpreted the statute as merely stipulating
reimbursement eligibility requirements. To take one example, in
2008, Congress amended the definition of “foster care maintenance
payments” to include “payments to cover the cost of (and the cost of
providing) . . . reasonable travel for the child to remain in the school
in which the child is enrolled at the time of placement.” Fostering
Connections to Success and Increasing Adoptions Act of 2008, Pub.
L. No. 110-351,122 Stat 3949 (2008) (current version at 42 U.S.C.
§ 675(4)(A)). But HHS did not interpret this amendment as requiring
States to pay for such travel: “As with any cost enumerated in the
definition of foster care maintenance payments,” it said, “the [State]
agency may decide which of the costs to include in the child’s foster
care maintenance payment.” U.S. Dep’t of Health & Human Servs.,
Program Instruction No. ACYF-CB-Pl-10-11 at 20, http://perma.
cc/9LX9-C76D; see also U.S. Dep’t of Health & Human Servs., Child
Welfare Policy Manual § 8.3B.1(9) (2018) (noting that Boy Scout dues
qualify as “incidentals” and are therefore “reimbursable” under the
CWA (emphasis added)).

138a
Appendix G
enforceable under § 1983, to a monetary amount that
“cover[s] the cost of” these “foster care maintenance
payments.” Poole, 922 F.3d at 77. As the panel majority
is well aware, the Supreme Court has “rejected the
notion” that its precedent “permit[s] anything short of
an unambiguously conferred right to support a cause
of action brought under § 1983.” Gonzaga Univ. v. Doe,
536 U.S. 273, 283, 122 S. Ct. 2268, 153 L. Ed. 2d 309
(2002) (emphasis added). And the Court has reminded
us that the dangers of implying enforceable rights are
particularly acute with regard to Spending Clause
legislation, which is “much in the nature of a contract.”
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S.
1, 17, 101 S. Ct. 1531, 67 L. Ed. 2d 694 (1981). After all,
“[t]he legitimacy of Congress’ power to legislate . . . rests
on whether the State voluntarily and knowingly accepts
the terms of [this] ‘contract,’” and an implied right of
action constitutes a critical contractual term. Suter v.
Artist M., 503 U.S. 347, 356, 112 S. Ct. 1360, 118 L. Ed.
2d 1 (1992) (quoting Pennhurst, 451 U.S. at 17); see also
Poole, 922 F.3d at 92-93 (Livingston, J., dissenting)
(outlining the Court’s jurisprudence in this area); Kapps
v. Wing, 404 F.3d 105, 127 (2d Cir. 2005) (recognizing that
“the Court has appeared to be increasingly reluctant to
find § 1983-enforceable rights in statutes which . . . set
forth their requirements in the context of delineating
obligations that accompany participation in federal
spending clause programs”).
The CWA does not come close to satisfying this
demanding standard for recog nizing a pr ivately
enforceable right under § 1983 to foster care maintenance

139a
Appendix G
payments.4 The panel majority inexplicably charges that
the dissent inappropriately “read[s] the tea leaves” to
reach this conclusion, Poole, 922 F.3d at 79—that the
dissent rests on a mere prediction that the Supreme
Court will abandon the factors set forth in its Blessing
decision to guide judicial inquiry into whether a statute
manifests an “unambiguous[ ]” intent to create a private
right, see Blessing v. Freestone, 520 U.S. 329, 340-41, 117
S. Ct. 1353, 137 L. Ed. 2d 569 (1997), when “this Court is
not tasked with—and is, in fact, prohibited from—such
guesswork.” Poole, 922 F.3d at 79. In reality, each of the
Blessing factors uniformly weigh against the presence
in the CWA of a § 1983 right to a monetary amount that
covers the cost of any and all “foster care maintenance
payments.”5 See id. at 94-97 (Livingston, J., dissenting).
4. By contrast, the CWA unambiguously confers a private
right of action to prevent States from making foster-care placement
decisions on the basis of race, color, or national origin. See 42 U.S.C.
§§ 671(a)(18), 674(d)(3)(A) (“Any individual who is aggrieved by a
violation of section 671(a)(18) [prohibiting racial discrimination
in foster care or adoption denials] of this title by a State or other
entity may bring an action seeking relief from the State or other
entity in any United States district court.”). The absence of such
rights-creating language in the foster care maintenance payment
provisions at issue here strongly suggests that the omission was
intentional. See, e.g., Olmsted v. Pruco Life Ins. Co. of N.J., 283 F.3d
429, 433 (2d Cir. 2002).
5. And the Supreme Court has warned against reading Blessing
to thwart the Court’s repeated directive that nothing less than an
unambiguously conferred right is enforceable pursuant to § 1983.
See Gonzaga, 536 U.S. at 282-83 (“Some language in our opinions
might be read to suggest that something less than an unambiguously
conferred right is enforceable by § 1983. Blessing, for example, set

140a
Appendix G
For example, Blessing asks us to consider whether
“the right assertedly protected by the statute is . . . so
‘vague and amorphous’ that its enforcement would
strain judicial competence.” Blessing, 520 U.S. at 34041. If so, that factor weighs against the existence of the
right. See id. Here, calculating the appropriate “cost” of
“foster care maintenance payments” involves manifold
policy judgments about foster care and childrearing,
not to mention overall program administration, that
federal judges are ill-suited to make and that go entirely
unmentioned in the statute that the panel majority
interprets unambiguously to require these judgments.
Poole, 922 F.3d at 95-97 (Livingston, J., dissenting); cf.
Armstrong, 135 S. Ct. at 1388 (Breyer, J., concurring in
part and concurring in the judgment) (“The history of
ratemaking demonstrates that administrative agencies
are far better suited to this task than judges.”). How
exactly should judges determine the “cost” of daily
supervision, personal incidentals, and other expenses
associated with childrearing? Should rates vary based on
a family’s income level or location, or a child’s disability?
Who can say, since the CWA, which does not contemplate
federal courts’ involvement in rate setting, says not a word
about the standards according to which scarce foster care
dollars are to be allocated?6
forth three ‘factors’ to guide judicial inquiry into whether or not a
statute confers a right. . . . We now reject the notion that our cases
permit anything short of an unambiguously conferred right to
support a cause of action brought under § 1983.”).

6. As already noted, the CWA provides partial federal
reimbursement of a State’s foster care expenditures, but only with
regard to the § 675(4)(A) items and only for some children—those

141a
Appendix G
If the plain language of the statute and the Blessing
factors were not formidable enough obstacles to the panel
majority’s conclusion, there is also the Supreme Court’s
recent pronouncement in Armstrong v. Exceptional
Childcare Center, 135 S. Ct. 1378, 191 L. Ed. 2d 471 (2015).
In Armstrong, the Supreme Court held that § 30(A) of the
Medicaid Act is not privately enforceable in equity because
“[t]he sheer complexity associated with enforcing § 30(A),
coupled with the express provision of an administrative
remedy,” demonstrates that Congress did not intend for
private plaintiffs to enforce § 30(A) in courts. Id. at 1385.
The Court rested its holding on the long line of precedent
catalogued above, “establish[ing] that a private right of
action under federal law is not created by mere implication,
but must be ‘unambiguously conferred.’” Id. at 1388
(quoting Gonzaga, 536 U.S. at 283). The panel majority
bizarrely claims that Armstrong is inapposite. Poole,
922 F.3d at 85. But the Medicaid Act and the CWA have
similar administrative (rather than judicial) enforcement
schemes and, as already noted, determining appropriate
reimbursement rates for childrearing expenses absent
who “would have otherwise qualified for assistance under the
now-defunct Aid to Families with Dependent Children program.”
Midwest Foster Care, 712 F.3d at 1194. New York affirms that partial
federal reimbursement is available for only about forty percent of
the children in its foster care system. Petition for Rehearing at 7.
The panel majority’s conclusion that the CWA imposes a spending
mandate on States, enforceable pursuant to § 1983, will thus not
only confer on district courts a rate-setting obligation pursuant to
a statute that provides no guidance for this task, but also have the
likely effect, as New York argues, of arbitrarily “forc[ing] New York
to decrease its payments for the costs and children who do not meet
federal eligibility requirements.” Id. at 15.

142a
Appendix G
any statutory guidance presents major problems of
judicial administrability, similar to those in Armstrong.
See id. at 97-99 (Livingston, J. dissenting). In fact, the
only significant distinction between the two cases—that
the Armstrong plaintiffs brought suit in equity rather
than pursuant to § 1983—hurts the Plaintiffs here. Those
seeking to bring a cause of action in equity benefit from
a presumption that an equitable cause of action exists,
whereas those bringing suit under § 1983 labor under
the opposite presumption. Armstrong, 135 S. Ct. at
1392 (Sotomayor, J., dissenting). Indeed, the Armstrong
plaintiffs did not even attempt to sue under § 1983, given
this more exacting burden. Id. at 1386 n*; see also Poole,
922 F.3d at 98-99 (Livingston. J, dissenting) (discussing
the Armstrong decision).
Parsing recent Supreme Court pronouncements on
implied rights of action, however, is not really necessary
here—belts and suspenders, so to speak. From the start,
this case has been and remains remarkably easy. The
CWA simply does not unambiguously confer a right to
foster care maintenance payments enforceable pursuant
to § 1983. The panel majority reaches the opposite
conclusion only by adopting a flawed construction of the
Act and ignoring the Supreme Court’s “repudiat[ion of
a] ready implication of a § 1983 action.” Armstrong, 135
S. Ct. at 1386 n*. Its decision threatens to waste foster
care resources, arbitrarily divert scarce dollars from
some children to others, and push federal courts into a
“traditional area of state concern.” Moore v. Sims, 442
U.S. 415, 435, 99 S. Ct. 2371, 60 L. Ed. 2d 994 (1979).
Congress neither intended nor legislated for such an
outcome. Our en banc Court should not countenance it.

143a
Appendix G
***
One final word is in order. The narrow vote by a bare
majority of our Court’s active judges to decline en banc
review might lead a reader to infer that these judges
concur in the panel majority’s holding and reasoning,
despite all the arguments presented in the dissent. That
would be a big mistake. Because of our Circuit’s socalled “tradition” of declining en banc review, the fact
that six members of our Court voted to decline review
does not mean that they were convinced that the panel
majority is correct. See Ricci v. DeStefano, 530 F.3d
88, 89 (2d Cir. 2008) (Katzmann, J., concurring in the
denial of rehearing en banc) (highlighting the Circuit’s
supposed “longstanding tradition of general deference
to panel adjudication—a tradition which holds whether
or not the judges of the Court agree with the panel’s
disposition of the matter before it”). Nor does it follow
that these six judges deemed the matter unimportant or
unexceptional. See Landell v. Sorrell, 406 F.3d 159, 167 (2d
Cir. 2005) (Sack & Katzmann, JJ., concurring in the denial
of rehearing en banc) (suggesting that en banc review
“only forestall[s] resolution of issues destined . . . for the
Supreme Court”). But see Ricci, 530 F.3d at 92 (Jacobs,
J., dissenting from the denial of rehearing en banc) (“If
issues are important enough to warrant Supreme Court
review, they are important enough for our full Court to
consider and decide on the merits.”).
Our so-called en banc “tradition,” however, is not a
license to disregard the substantial consequences that
will accompany this Court’s mistaken judgments. Once
the mandate issues in this case, the district court must

144a
Appendix G
commence its review of how New York “determined the
amounts it pays” to those receiving foster care maintenance
payments, and “how it has quantified the costs of the specific
expenses listed in Section 675(4),” Poole, 922 F.3d at 82, so
as to decide whether to approve or reject the State’s foster
care rates (again, as applied to a subset of its foster care
parents and providers). In its petition for rehearing, New
York warns that such review will unjustifiably inject federal
courts into the “complex, judgment-laden process” by which
New York, like other States, determines when and how to
cover costs for particular children in foster care. Petition
for Rehearing at 20. Resources may—and likely will—be
squandered in litigation destined to produce “multiple,
inconsistent” results. Id. at 3. Tradition shouldn’t prevent
this Court from reviewing an issue of such consequence.
As set forth above, the panel majority made a mistake
in interpreting this Spending Clause statute to impose
a mandatory spending obligation on States, enforceable
under § 1983. The full Court also errs in declining en banc
review, but perhaps with less excuse. The panel majority
simply made a mistake. To the extent that this en banc vote
comes down to nothing more than an ostensible tradition,
the full Court, with eyes open, has refused to afford New
York State, the amici, and the foster care children within
our jurisdiction the consideration they deserve.

145a
Appendix G
José a. Cabranes, Circuit Judge, dissenting from the
order denying rehearing en banc:
I respectfully join in Judge Livingston’s opinion.
The dissenters having failed to persuade a majority of
the active judges to rehear this appeal, our concerns
necessarily now rest in the hands of our highest court.
I write separately, and in my name alone, for the sole
purpose of re-stating some earlier observations regarding
aspects of the en banc practice of the Second Circuit. See
generally United States v. Taylor, 752 F.3d 254, 255-57
(2d Cir. 2014) (Cabranes, J., dissenting from order denying
rehearing en banc).
As I observed on that earlier occasion, an observer
can draw only one firm conclusion from our decision not
to rehear this case before the full court of active judges—
namely, that the opinion dissenting from the denial of en
banc review (here, by Judge Livingston) is, by definition,
an expression of the view of the five subscribing judges
that the panel’s resolution of this case presents legal issues
of exceptional importance.
By contrast, the order denying rehearing without
elaboration may, or may not, reflect the substantive views
of the particular judges in the six-judge majority voting
against rehearing.
In light of how judges in the Second Circuit have
historically exercised their discretion, the decision not to
convene the en banc court does not necessarily mean that
a case either lacks significance or was correctly decided.
Indeed, the contrary may be true. The story of our vaunted
en banc “traditions” is fully described in my dissent from

146a
Appendix G
the denial of rehearing in Taylor. Suffice it to say that this
tradition is a sometime thing, and some who invoke it have
no difficulty abandoning it when convenient.
All one can know for certain about a vote like this one
is that six active circuit judges did not wish to rehear this
case—perhaps because of a general aversion to en banc
rehearings, perhaps out of confidence that the Supreme
Court will solve our problem, or perhaps because doing
so would signal their investment in “collegiality”—while
the five other active circuit judges strongly believed
that the panel opinion presented multiple legal errors of
exceptional importance warranting correction.

147a
H statUtOrY
Appendix h —Appendix
releVant
prOVisiOns

42 U.S.C.A. § 670
§ 670. Congressional declaration of purpose;
authorization of appropriations
For the purpose of enabling each State to provide,
in appropriate cases, foster care and transitional
independent living programs for children who otherwise
would have been eligible for assistance under the State’s
plan approved under part A (as such plan was in effect on
June 1, 1995), adoption assistance for children with special
needs, kinship guardianship assistance, and prevention
services or programs specified in section 671(e)(1) of this
title, there are authorized to be appropriated for each
fiscal year such sums as may be necessary to carry out
the provisions of this part. The sums made available under
this section shall be used for making payments to States
which have submitted, and had approved by the Secretary,
State plans under this part.

148a
Appendix H
42 U.S.C.A. § 671
§ 671. State plan for foster care and adoption assistance
(a) Requisite features of State plan
In order for a State to be eligible for payments under
this part, it shall have a plan approved by the Secretary
which-(1) provides for foster care maintenance payments
in accordance with section 672 of this title, adoption
assistance in accordance with section 673 of this title,
and, at the option of the State, services or programs
specified in subsection (e)(1) of this section for children
who are candidates for foster care or who are pregnant
or parenting foster youth and the parents or kin
caregivers of the children, in accordance with the
requirements of that subsection;
(2) provides that the State agency responsible for
administering the program authorized by subpart 1 of
part B of this subchapter shall administer, or supervise
the administration of, the program authorized by this
part;
(3) provides that the plan shall be in effect in all
political subdivisions of the State, and, if administered
by them, be mandatory upon them;
(4) provides that the State shall assure that the
programs at the local level assisted under this part will

149a
Appendix H
be coordinated with the programs at the State or local
level assisted under parts A and B, under division A 1
of subchapter XX of this chapter, and under any other
appropriate provision of Federal law;
(5) provides that the State will, in the administration
of its programs under this part, use such methods
relating to the establishment and maintenance of
personnel standards on a merit basis as are found
by the Secretary to be necessary for the proper and
efficient operation of the programs, except that the
Secretary shall exercise no authority with respect to
the selection, tenure of office, or compensation of any
individual employed in accordance with such methods;
(6) provides that the State agency referred to in
paragraph (2) (hereinafter in this part referred to as
the “State agency”) will make such reports, in such
form and containing such information as the Secretary
may from time to time require, and comply with such
provisions as the Secretary may from time to time find
necessary to assure the correctness and verification
of such reports;

1. Division A of subchapter XX, was in the original a reference
to subtitle 1 of Title XX, and was translated as if referring to
Subtitle A of Title XX of the Social Security Act, which is classified
to division A of subchapter XX of this chapter, 42 U.S.C.A. § 1397
et seq., to reflect the probable intent of Congress. Title XX of the
Act, enacting subchapter XX of this chapter, does not contain a
subtitle 1.

150a
Appendix H
(7) provides that the State agency will monitor and
conduct periodic evaluations of activities carried out
under this part;
(8) subject to subsection (c), provides safeguards
which restrict the use of or disclosure of information
concerning individuals assisted under the State
plan to purposes directly connected with (A) the
administration of the plan of the State approved under
this part, the plan or program of the State under part
A, B, or D or under subchapter I, V, X, XIV, XVI (as in
effect in Puerto Rico, Guam, and the Virgin Islands),
XIX, or XX, the program established by subchapter
II, or the supplemental security income program
established by subchapter XVI, (B) any investigation,
prosecution, or criminal or civil proceeding, conducted
in connection with the administration of any such
plan or program, (C) the administration of any other
Federal or federally assisted program which provides
assistance, in cash or in kind, or services, directly
to individuals on the basis of need, (D) any audit or
similar activity conducted in connection with the
administration of any such plan or program by any
governmental agency which is authorized by law to
conduct such audit or activity, and (E) reporting and
providing information pursuant to paragraph (9) to
appropriate authorities with respect to known or
suspected child abuse or neglect; and the safeguards
so provided shall prohibit disclosure, to any committee
or legislative body (other than an agency referred to
in clause (D) with respect to an activity referred to
in such clause), of any information which identifies by
name or address any such applicant or recipient; except

151a
Appendix H
that nothing contained herein shall preclude a State
from providing standards which restrict disclosures
to purposes more limited than those specified herein,
or which, in the case of adoptions, prevent disclosure
entirely;
(9) provides that the State agency will-(A) report to an appropriate agency or official,
known or suspected instances of physical or mental
injury, sexual abuse or exploitation, or negligent
treatment or maltreatment of a child receiving
aid under part B or this part under circumstances
which indicate that the child’s health or welfare is
threatened thereby;
(B) provide such information with respect to a
situation described in subparagraph (A) as the
State agency may have; and
(C) not later than-(i) 1 year after September 29, 2014, demonstrate
to the Secretary that the State agency has
developed, in consultation with State and local
law enforcement, juvenile justice systems,
health care providers, education agencies,
and organizations with experience in dealing
with at-risk children and youth, policies and
procedures (including relevant training for
caseworkers) for identifying, documenting in
agency records, and determining appropriate
services with respect to--

152a
Appendix H
(I) any child or youth over whom the State
agency has responsibility for placement,
care, or supervision and who the State has
reasonable cause to believe is, or is at risk
of being, a sex trafficking victim (including
children for whom a State child welfare
agency has an open case file but who have
not been removed from the home, children
who have run away from foster care and who
have not attained 18 years of age or such
older age as the State has elected under
section 675(8) of this title, and youth who are
not in foster care but are receiving services
under section 677 of this title); and
(II) at the option of the State, any individual
who has not attained 26 years of age, without
regard to whether the individual is or was
in foster care under the responsibility of
the State; and
(ii) 2 yea rs a f t er Sept ember 2 9, 2 014 ,
demonstrate to the Secretary that the State
agency is implementing the policies and
procedures referred to in clause (i).
(10) provides-(A) for the establishment or designation of a State
authority or authorities that shall be responsible for
establishing and maintaining standards for foster
family homes and child care institutions which are

153a
Appendix H
reasonably in accord with recommended standards
of national organizations concerned with standards
for the institutions or homes, including standards
related to admission policies, safety, sanitation, and
protection of civil rights, and which shall permit use
of the reasonable and prudent parenting standard;
(B) that the standards established pursuant to
subparagraph (A) shall be applied by the State to
any foster family home or child care institution
receiving funds under this part or part B and shall
require, as a condition of each contract entered
into by a child care institution to provide foster
care, the presence on-site of at least 1 official
who, with respect to any child placed at the child
care institution, is designated to be the caregiver
who is authorized to apply the reasonable and
prudent parent standard to decisions involving the
participation of the child in age or developmentallyappropriate activities, and who is provided with
training in how to use and apply the reasonable
and prudent parent standard in the same manner
as prospective foster parents are provided the
training pursuant to paragraph (24);
(C) that the standards established pursuant to
subparagraph (A) shall include policies related
to the liability of foster parents and private
entities under contract by the State involving the
application of the reasonable and prudent parent
standard, to ensure appropriate liability for
caregivers when a child participates in an approved

154a
Appendix H
activity and the caregiver approving the activity
acts in accordance with the reasonable and prudent
parent standard; and
(D) that a waiver of any standards established
pursuant to subparagraph (A) may be made only
on a case-by-case basis for nonsafety standards (as
determined by the State) in relative foster family
homes for specific children in care;
(11) provides for periodic review of the standards
referred to in the preceding paragraph and amounts
paid as foster care maintenance payments and adoption
assistance to assure their continuing appropriateness;
(12) provides for granting an opportunity for a fair
hearing before the State agency to any individual
whose claim for benefits available pursuant to this
part is denied or is not acted upon with reasonable
promptness;
(13) provides that the State shall arrange for a periodic
and independently conducted audit of the programs
assisted under this part and part B of this subchapter,
which shall be conducted no less frequently than once
every three years;
(14) provides (A) specific goals (which shall be
established by State law on or before October 1, 1982)
for each fiscal year (commencing with the fiscal year
which begins on October 1, 1983) as to the maximum
number of children (in absolute numbers or as a

155a
Appendix H
percentage of all children in foster care with respect
to whom assistance under the plan is provided during
such year) who, at any time during such year, will
remain in foster care after having been in such care
for a period in excess of twenty-four months, and (B)
a description of the steps which will be taken by the
State to achieve such goals;
(15) provides that-(A) in determining reasonable efforts to be
made with respect to a child, as described in this
paragraph, and in making such reasonable efforts,
the child’s health and safety shall be the paramount
concern;
(B) except as provided in subparagraph (D),
reasonable efforts shall be made to preserve and
reunify families-(i) prior to the placement of a child in foster
care, to prevent or eliminate the need for
removing the child from the child’s home; and
(ii) to make it possible for a child to safely
return to the child’s home;
(C) if continuation of reasonable efforts of the type
described in subparagraph (B) is determined to
be inconsistent with the permanency plan for the
child, reasonable efforts shall be made to place
the child in a timely manner in accordance with

156a
Appendix H
the permanency plan (including, if appropriate,
through an interstate placement), and to complete
whatever steps are necessary to finalize the
permanent placement of the child;
(D) reasonable efforts of the type described in
subparagraph (B) shall not be required to be made
with respect to a parent of a child if a court of
competent jurisdiction has determined that-(i) the parent has subjected the child to
aggravated circumstances (as defined in State
law, which definition may include but need not
be limited to abandonment, torture, chronic
abuse, and sexual abuse);
(ii) the parent has-(I) committed murder (which would have
been an offense under section 1111(a) of Title
18, if the offense had occurred in the special
maritime or territorial jurisdiction of the
United States) of another child of the parent;
(II) committed voluntary manslaughter
(which would have been an offense under
section 1112(a) of Title 18, if the offense
had occurred in the special maritime or
territorial jurisdiction of the United States)
of another child of the parent;

157a
Appendix H
(III) aided or abetted, attempted, conspired,
or solicited to commit such a murder or such
a voluntary manslaughter; or
(IV) committed a felony assault that results
in serious bodily injury to the child or
another child of the parent; or
(iii) the parental rights of the parent to a sibling
have been terminated involuntarily;
(E) if reasonable efforts of the type described in
subparagraph (B) are not made with respect to
a child as a result of a determination made by a
court of competent jurisdiction in accordance with
subparagraph (D)-(i) a permanency hearing (as described in
section 675(5)(C) of this title), which considers
in-State and out-of-State permanent placement
options for the child, shall be held for the child
within 30 days after the determination; and
(ii) reasonable efforts shall be made to place
the child in a timely manner in accordance with
the permanency plan, and to complete whatever
steps are necessary to finalize the permanent
placement of the child; and
(f) reasonable efforts to place a child for adoption
or with a legal guardian, including identifying

158a
Appendix H
appropriate in-State and out-of-State placements2
may be made concurrently with reasonable efforts
of the type described in subparagraph (B);
(16) provides for the development of a case plan (as
defined in section 675(1) of this title and in accordance
with the requirements of section 675a of this title) for
each child receiving foster care maintenance payments
under the State plan and provides for a case review
system which meets the requirements described in
sections 675(5) and 675a of this title with respect to
each such child;
(17) provides that, where appropriate, all steps will
be taken, including cooperative efforts with the State
agencies administering the program funded under
part A and plan approved under part D, to secure an
assignment to the State of any rights to support on
behalf of each child receiving foster care maintenance
payments under this part;
(18) not later than January 1, 1997, provides that
neither the State nor any other entity in the State that
receives funds from the Federal Government and is
involved in adoption or foster care placements may-(A) deny to any person the opportunity to become
an adoptive or a foster parent, on the basis of the
race, color, or national origin of the person, or of
the child, involved; or
2. So in original. A comma probably should appear.

159a
Appendix H
(B) delay or deny the placement of a child for
adoption or into foster care, on the basis of the race,
color, or national origin of the adoptive or foster
parent, or the child, involved;
(19) provides that the State shall consider giving
preference to an adult relative over a non-related
caregiver when determining a placement for a child,
provided that the relative caregiver meets all relevant
State child protection standards;
(20)(A) provides procedures for criminal records
checks, including fingerprint-based checks of national
crime information databases (as defined in section
534(f)(3)(A) of Title 28), for any prospective foster
or adoptive parent before the foster or adoptive
parent may be finally approved for placement of a
child regardless of whether foster care maintenance
payments or adoption assistance payments are to be
made on behalf of the child under the State plan under
this part, including procedures requiring that-(i) in any case involving a child on whose behalf
such payments are to be so made in which a
record check reveals a felony conviction for child
abuse or neglect, for spousal abuse, for a crime
against children (including child pornography),
or for a crime involving violence, including rape,
sexual assault, or homicide, but not including
other physical assault or battery, if a State
finds that a court of competent jurisdiction
has determined that the felony was committed

160a
Appendix H
at any time, such final approval shall not be
granted; and
(ii) in any case involving a child on whose behalf
such payments are to be so made in which a
record check reveals a felony conviction for
physical assault, battery, or a drug-related
offense, if a State finds that a court of competent
jurisdiction has determined that the felony was
committed within the past 5 years, such final
approval shall not be granted;
(B) provides that the State shall-(i) check any child abuse and neglect registry
maintained by the State for information on
any prospective foster or adoptive parent and
on any other adult living in the home of such
a prospective parent, and request any other
State in which any such prospective parent
or other adult has resided in the preceding 5
years, to enable the State to check any child
abuse and neglect registry maintained by
such other State for such information, before
the prospective foster or adoptive parent may
be finally approved for placement of a child,
regardless of whether foster care maintenance
payments or adoption assistance payments are
to be made on behalf of the child under the State
plan under this part;

161a
Appendix H
(ii) comply with any request described in clause
(i) that is received from another State; and
(iii) have in place safeguards to prevent the
unauthorized disclosure of information in any
child abuse and neglect registry maintained by
the State, and to prevent any such information
obtained pursuant to this subparagraph
from being used for a purpose other than the
conducting of background checks in foster or
adoptive placement cases;
(C) provides procedures for criminal records
checks, including fingerprint-based checks of
national crime information databases (as defined
in section 534(f)(3)(A) of Title 28), on any relative
guardian, and for checks described in subparagraph
(B) of this paragraph on any relative guardian and
any other adult living in the home of any relative
guardian, before the relative guardian may receive
kinship guardianship assistance payments on
behalf of the child under the State plan under this
part; and
(D) provides procedures for any child-care
institution, including a group home, residential
treatment center, shelter, or other congregate
care setting, to conduct criminal records checks,
including fingerprint-based checks of national
crime information databases (as defined in section
534(f)(3)(A) of Title 28), and checks described in
subparagraph (B) of this paragraph, on any adult

162a
Appendix H
working in a child-care institution, including a
group home, residential treatment center, shelter,
or other congregate care setting, unless the State
reports to the Secretary the alternative criminal
records checks and child abuse registry checks the
State conducts on any adult working in a child-care
institution, including a group home, residential
treatment center, shelter, or other congregate
care setting, and why the checks specified in this
subparagraph are not appropriate for the State;
(21) provides for health insurance coverage (including,
at State option, through the program under the
State plan approved under subchapter XIX) for any
child who has been determined to be a child with
special needs, for whom there is in effect an adoption
assistance agreement (other than an agreement under
this part) between the State and an adoptive parent
or parents, and who the State has determined cannot
be placed with an adoptive parent or parents without
medical assistance because such child has special
needs for medical, mental health, or rehabilitative care,
and that with respect to the provision of such health
insurance coverage-(A) such coverage may be provided through 1 or
more State medical assistance programs;
(B) the State, in providing such coverage, shall
ensure that the medical benefits, including mental
health benefits, provided are of the same type and
kind as those that would be provided for children
by the State under subchapter XIX;

163a
Appendix H
(C) in the event that the State provides such
coverage through a State medical assistance
program other than the program under subchapter
XIX, and the State exceeds its funding for services
under such other program, any such child shall be
deemed to be receiving aid or assistance under the
State plan under this part for purposes of section
1396a(a)(10)(A)(i)(I) of this title; and
(D) in determining cost-sharing requirements,
the State shall take into consideration the
circumstances of the adopting parent or parents
and the needs of the child being adopted consistent,
to the extent coverage is provided through a State
medical assistance program, with the rules under
such program;
(22) provides that, not later than January 1, 1999, the
State shall develop and implement standards to ensure
that children in foster care placements in public or
private agencies are provided quality services that
protect the safety and health of the children;
(23) provides that the State shall not-(A) deny or delay the placement of a child for
adoption when an approved family is available
outside of the jurisdiction with responsibility for
handling the case of the child; or
(B) fail to grant an opportunity for a fair hearing,
as described in paragraph (12), to an individual

164a
Appendix H
whose allegation of a violation of subparagraph (A)
of this paragraph is denied by the State or not acted
upon by the State with reasonable promptness;
(24) includes a certification that, before a child in
foster care under the responsibility of the State is
placed with prospective foster parents, the prospective
foster parents will be prepared adequately with
the appropriate knowledge and skills to provide for
the needs of the child, that the preparation will be
continued, as necessary, after the placement of the
child, and that the preparation shall include knowledge
and skills relating to the reasonable and prudent
parent standard for the participation of the child in age
or developmentally-appropriate activities, including
knowledge and skills relating to the developmental
stages of the cognitive, emotional, physical, and
behavioral capacities of a child, and knowledge and
skills relating to applying the standard to decisions
such as whether to allow the child to engage in
social, extracurricular, enrichment, cultural, and
social activities, including sports, field trips, and
overnight activities lasting 1 or more days, and to
decisions involving the signing of permission slips and
arranging of transportation for the child to and from
extracurricular, enrichment, and social activities;
(25) provides that the State shall have in effect
procedures for the orderly and timely interstate
placement of children, which, in the case of a State
other than the Commonwealth of Puerto Rico, the
United States Virgin Islands, Guam, or American

165a
Appendix H
Samoa, not later than October 1, 2027, shall include
the use of an electronic interstate case-processing
system; and procedures implemented in accordance
with an interstate compact, if incorporating with
the procedures prescribed by paragraph (26), shall
be considered to satisfy the requirement of this
paragraph;
(26) provides that-(A)(i) within 60 days after the State receives from
another State a request to conduct a study of a
home environment for purposes of assessing the
safety and suitability of placing a child in the home,
the State shall, directly or by contract-(I) conduct and complete the study; and
(II) return to the other State a report on the
results of the study, which shall address the
extent to which placement in the home would
meet the needs of the child; and
(ii) in the case of a home study begun on or
before September 30, 2008, if the State fails to
comply with clause (i) within the 60-day period
as a result of circumstances beyond the control
of the State (such as a failure by a Federal
agency to provide the results of a background
check, or the failure by any entity to provide
completed medical forms, requested by the
State at least 45 days before the end of the

166a
Appendix H
60-day period), the State shall have 75 days to
comply with clause (i) if the State documents
the circumstances involved and certifies that
completing the home study is in the best
interests of the child; except that
(iii) this subparagraph shall not be construed
to require the State to have completed, within
the applicable period, the parts of the home
study involving the education and training of
the prospective foster or adoptive parents;
(B) the State shall treat any report described in
subparagraph (A) that is received from another
State or an Indian tribe (or from a private agency
under contract with another State) as meeting
any requirements imposed by the State for the
completion of a home study before placing a child
in the home, unless, within 14 days after receipt of
the report, the State determines, based on grounds
that are specific to the content of the report, that
making a decision in reliance on the report would
be contrary to the welfare of the child; and
(C) the State shall not impose any restriction on
the ability of a State agency administering, or
supervising the administration of, a State program
operated under a State plan approved under this
part to contract with a private agency for the
conduct of a home study described in subparagraph
(A);

167a
Appendix H
(27) provides that, with respect to any child in foster
care under the responsibility of the State under this
part or part B and without regard to whether foster
care maintenance payments are made under section
672 of this title on behalf of the child, the State has
in effect procedures for verifying the citizenship or
immigration status of the child;
(28) at the option of the State, provides for the State to
enter into kinship guardianship assistance agreements
to provide kinship guardianship assistance payments
on behalf of children to grandparents and other
relatives who have assumed legal guardianship of the
children for whom they have cared as foster parents
and for whom they have committed to care on a
permanent basis, as provided in section 673(d) of this
title;
(29) provides that, within 30 days after the removal of
a child from the custody of the parent or parents of the
child, the State shall exercise due diligence to identify
and provide notice to the following relatives: all adult
grandparents, all parents of a sibling of the child,
where such parent has legal custody of such sibling,
and other adult relatives of the child (including any
other adult relatives suggested by the parents), subject
to exceptions due to family or domestic violence, that-(A) specifies that the child has been or is being
removed from the custody of the parent or parents
of the child;

168a
Appendix H
(B) explains the options the relative has under
Federal, State, and local law to participate in the
care and placement of the child, including any
options that may be lost by failing to respond to
the notice;
(C) describes the requirements under paragraph
(10) of this subsection to become a foster family
home and the additional services and supports that
are available for children placed in such a home; and
(D) if the State has elected the option to make
kinship guardianship assistance payments under
paragraph (28) of this subsection, describes how
the relative guardian of the child may subsequently
enter into an agreement with the State under
section 673(d) of this title to receive the payments;
(30) provides assurances that each child who has
attained the minimum age for compulsory school
attendance under State law and with respect to whom
there is eligibility for a payment under the State plan
is a full-time elementary or secondary school student
or has completed secondary school, and for purposes
of this paragraph, the term “elementary or secondary
school student” means, with respect to a child, that
the child is-(A) enrolled (or in the process of enrolling) in an
institution which provides elementary or secondary
education, as determined under the law of the
State or other jurisdiction in which the institution
is located;

169a
Appendix H
(B) instructed in elementary or secondary
education at home in accordance with a home school
law of the State or other jurisdiction in which the
home is located;
(C) in an independent study elementary or
secondary education program in accordance with
the law of the State or other jurisdiction in which
the program is located, which is administered by
the local school or school district; or
(D) incapable of attending school on a full-time
basis due to the medical condition of the child,
which incapability is supported by regularly
updated information in the case plan of the child;
(31) provides that reasonable efforts shall be made-(A) to place siblings removed from their home in
the same foster care, kinship guardianship, or
adoptive placement, unless the State documents
that such a joint placement would be contrary to
the safety or well-being of any of the siblings; and
(B) in the case of siblings removed from their
home who are not so jointly placed, to provide for
frequent visitation or other ongoing interaction
between the siblings, unless that State documents
that frequent visitation or other ongoing interaction
would be contrary to the safety or well-being of any
of the siblings;

170a
Appendix H
(32) provides that the State will negotiate in good faith
with any Indian tribe, tribal organization or tribal
consortium in the State that requests to develop an
agreement with the State to administer all or part
of the program under this part on behalf of Indian
children who are under the authority of the tribe,
organization, or consortium, including foster care
maintenance payments on behalf of children who
are placed in State or tribally licensed foster family
homes, adoption assistance payments, and, if the
State has elected to provide such payments, kinship
guardianship assistance payments under section
673(d) of this title, and tribal access to resources for
administration, training, and data collection under
this part;
(33) provides that the State will inform any individual
who is adopting, or whom the State is made aware
is considering adopting, a child who is in foster care
under the responsibility of the State of the potential
eligibility of the individual for a Federal tax credit
under section 23 of the Internal Revenue Code of 1986;
(34) provides that, for each child or youth described in
paragraph (9)(C)(i)(I), the State agency shall-(A) not later than 2 years after September 29,
2014, report immediately, and in no case later
than 24 hours after receiving information on
children or youth who have been identified as being
a sex trafficking victim, to the law enforcement
authorities; and

171a
Appendix H
(B) not later than 3 years after September 29, 2014,
and annually thereafter, report to the Secretary
the total number of children and youth who are sex
trafficking victims;
(35) provides that-(A) not later than 1 year after September 29, 2014,
the State shall develop and implement specific
protocols for-(i) expeditiously locating any child missing from
foster care;
(ii) determining the primary factors that
contributed to the child’s running away or
otherwise being absent from care, and to the
extent possible and appropriate, responding
to those factors in current and subsequent
placements;
(iii) determining the child’s experiences while
absent from care, including screening the
child to determine if the child is a possible sex
trafficking victim (as defined in section 675(9)
(A) of this title); and
(iv) reporting such related information as
required by the Secretary; and
(B) not later than 2 years after September 29, 2014,
for each child and youth described in paragraph

172a
Appendix H
(9)(C)(i)(I) of this subsection, the State agency shall
report immediately, and in no case later than 24
hours after receiving, information on missing or
abducted children or youth to the law enforcement
authorities for entry into the National Crime
Information Center (NCIC) database of the Federal
Bureau of Investigation, established pursuant to
section 534 of Title 28, and to the National Center
for Missing and Exploited Children;
(36) provides that, not later than April 1, 2019, the
State shall submit to the Secretary information
addressing-(A) whether the State licensing standards are
in accord with model standards identified by the
Secretary, and if not, the reason for the specific
deviation and a description as to why having a
standard that is reasonably in accord with the
corresponding national model standards is not
appropriate for the State;
(B) whether the State has elected to waive
standards established in 671(a)(10)(A) of this title
for relative foster family homes (pursuant to waiver
authority provided by 671(a)(10)(D) of this title),
a description of which standards the State most
commonly waives, and if the State has not elected
to waive the standards, the reason for not waiving
these standards;

173a
Appendix H
(C) if the State has elected to waive standards
specified in subparagraph (B), how caseworkers are
trained to use the waiver authority and whether the
State has developed a process or provided tools to
assist caseworkers in waiving nonsafety standards
per the authority provided in 671(a)(10)(D) of this
title to quickly place children with relatives; and
(D) a description of the steps the State is taking
to improve caseworker training or the process, if
any; and
(37) includes a certification that, in response to the
limitation imposed under section 672(k) of this title
with respect to foster care maintenance payments
made on behalf of any child who is placed in a setting
that is not a foster family home, the State will not enact
or advance policies or practices that would result in a
significant increase in the population of youth in the
State’s juvenile justice system.
(b) Approval of plan by Secretary
The Secretary shall approve any plan which complies with
the provisions of subsection (a) of this section.
(c) Use of child welfare records in State court
proceedings
Subsection (a)(8) shall not be construed to limit the
flexibility of a State in determining State policies relating
to public access to court proceedings to determine child

174a
Appendix H
abuse and neglect or other court hearings held pursuant
to part B or this part, except that such policies shall, at a
minimum, ensure the safety and well-being of the child,
parents, and family.
(d) Annual reports by the Secretary on number of
children and youth reported by States to be sex
trafficking victims
Not later than 4 years after September 29, 2014, and
annually thereafter, the Secretary shall report to
the Congress and make available to the public on the
Internet website of the Department of Health and Human
Services the number of children and youth reported in
accordance with subsection (a)(34)(B) of this section to
be sex trafficking victims (as defined in section 675(9)(A)
of this title).
(e) Prevention and family services and programs
(1) In general
Subject to the succeeding provisions of this subsection,
the Secretary may make a payment to a State for
providing the following services or programs for a
child described in paragraph (2) and the parents or
kin caregivers of the child when the need of the child,
such a parent, or such a caregiver for the services
or programs are directly related to the safety,
permanence, or well-being of the child or to preventing
the child from entering foster care:

175a
Appendix H
(A) Mental health and substance abuse prevention
and treatment services
Mental health and substance abuse prevention and
treatment services provided by a qualified clinician
for not more than a 12-month period that begins on
any date described in paragraph (3) with respect
to the child.
(B) In-home parent skill-based programs
In-home parent skill-based programs for not more
than a 12-month period that begins on any date
described in paragraph (3) with respect to the child
and that include parenting skills training, parent
education, and individual and family counseling.
(2) Child described
For purposes of paragraph (1), a child described in
this paragraph is the following:
(A) A child who is a candidate for foster care (as
defined in section 675(13) of this title) but can
remain safely at home or in a kinship placement
with receipt of services or programs specified in
paragraph (1).
(B) A child in foster care who is a pregnant or
parenting foster youth.

176a
Appendix H
(3) Date described
For purposes of paragraph (1), the dates described in
this paragraph are the following:
(A) The date on which a child is identified in a
prevention plan maintained under paragraph (4) as
a child who is a candidate for foster care (as defined
in section 675(13) of this title).
(B) The date on which a child is identified in a
prevention plan maintained under paragraph (4)
as a pregnant or parenting foster youth in need of
services or programs specified in paragraph (1).
(4) Requirements related to providing services and
programs
Services and programs specified in paragraph
(1) may be provided under this subsection only if
specified in advance in the child’s prevention plan
described in subparagraph (A) and the requirements
in subparagraphs (B) through (E) are met:
(A) Prevention plan
The State maintains a written prevention plan for
the child that meets the following requirements
(as applicable):

177a
Appendix H
(i) Candidates
In the case of a child who is a candidate for
foster care described in paragraph (2)(A), the
prevention plan shall-(I) identify the foster care prevention
strategy for the child so that the child may
remain safely at home, live temporarily with
a kin caregiver until reunification can be
safely achieved, or live permanently with a
kin caregiver;
(II) list the services or programs to be
provided to or on behalf of the child to
ensure the success of that prevention
strategy; and
(III) comply with such other requirements
as the Secretary shall establish.
(ii) Pregnant or parenting foster youth
In the case of a child who is a pregnant or
parenting foster youth described in paragraph
(2)(B), the prevention plan shall-(I) be included in the child’s case plan
required under section 675(1) of this title;
(II) list the services or programs to be
provided to or on behalf of the youth to

178a
Appendix H
ensure that the youth is prepared (in the
case of a pregnant foster youth) or able (in
the case of a parenting foster youth) to be
a parent;
(III) describe the foster care prevention
strategy for any child born to the youth; and
(IV) comply with such other requirements
as the Secretary shall establish.
(B) Trauma-informed
The services or programs to be provided to
or on behalf of a child are provided under an
organizational structure and treatment framework
that involves understanding, recognizing, and
responding to the effects of all types of trauma
and in accordance with recognized principles of
a trauma-informed approach and trauma-specific
interventions to address trauma’s consequences
and facilitate healing.
(C) Only services and programs provided in
accordance with promising, supported, or wellsupported practices permitted
(i) In general
Only State expenditures for ser vices or
programs specified in subparagraph (A) or (B)
of paragraph (1) that are provided in accordance

179a
Appendix H
with practices that meet the requirements
specified in clause (ii) of this subparagraph
and that meet the requirements specified in
clause (iii), (iv), or (v), respectively, for being
a promising, supported, or well-supported
practice, shall be eligible for a Federal matching
payment under section 674(a)(6)(A) of this title.
(ii) General practice requirements
The general practice requirements specified in
this clause are the following:
(I) The practice has a book, manual, or
other available writings that specify the
components of the practice protocol and
describe how to administer the practice.
(II) There is no empirical basis suggesting
that, compared to its likely benefits, the
practice constitutes a risk of harm to those
receiving it.
(III) If multiple outcome studies have been
conducted, the overall weight of evidence
supports the benefits of the practice.
(IV) Outcome measures are reliable and
valid, and are administrated consistently
and accurately across all those receiving
the practice.

180a
Appendix H
(V) There is no case data suggesting a risk
of harm that was probably caused by the
treatment and that was severe or frequent.
(iii) Promising practice
A practice sha ll be considered to be a
“promising practice” if the practice is superior
to an appropriate comparison practice using
conventional standards of statistical significance
(i n t er ms of demonst rat ed mea n i ng f u l
improvements in validated measures of
important child and parent outcomes, such as
mental health, substance abuse, and child safety
and well-being), as established by the results or
outcomes of at least one study that-(I) was rated by an independent systematic
review for the quality of the study design
and execution and determined to be welldesigned and well-executed; and
(II) utilized some form of control (such as
an untreated group, a placebo group, or a
wait list study).
(iv) Supported practice
A practice shall be considered to be a “supported
practice” if--

181a
Appendix H
(I) the practice is superior to an appropriate
comparison practice using conventional
standards of statistical significance (in terms
of demonstrated meaningful improvements
in validated measures of important child
and parent outcomes, such as mental health,
substance abuse, and child safety and wellbeing), as established by the results or
outcomes of at least one study that-(aa) was rated by an independent
systematic review for the quality of
the study design and execution and
determined to be well-designed and
well-executed;
(bb) was a rigorous random-controlled
trial (or, if not available, a study using a
rigorous quasi-experimental research
design); and
(cc) was carried out in a usual care or
practice setting; and
(II) the study described in subclause (I)
established that the practice has a sustained
effect (when compared to a control group)
for at least 6 months beyond the end of the
treatment.

182a
Appendix H
(v) Well-supported practice
A practice shall be considered to be a “wellsupported practice” if-(I) the practice is superior to an appropriate
comparison practice using conventional
standards of statistical significance (in terms
of demonstrated meaningful improvements
in validated measures of important child
and parent outcomes, such as mental health,
substance abuse, and child safety and wellbeing), as established by the results or
outcomes of at least two studies that-(aa) were rated by an independent
systematic review for the quality of
the study design and execution and
determined to be well-designed and
well-executed;
(bb) were rigorous random-controlled
trials (or, if not available, studies using
a rigorous quasi-experimental research
design); and
(cc) were carried out in a usual care or
practice setting; and
(II) at least one of the studies described in
subclause (I) established that the practice
has a sustained effect (when compared to a

183a
Appendix H
control group) for at least 1 year beyond the
end of treatment.
(D) Guidance on practices criteria and preapproved services and programs
(i) In general
Not later than October 1, 2018, the Secretary
shall issue guidance to States regarding
the practices criteria required for services
or programs to satisfy the requirements of
subparagraph (C). The guidance shall include
a pre-approved list of services and programs
that satisfy the requirements.
(ii) Updates
The Secretary shall issue updates to the
guidance required by clause (i) as often as the
Secretary determines necessary.
(E) Outcome assessment and reporting
The State shall collect and report to the Secretary
the following information with respect to each
child for whom, or on whose behalf mental health
and substance abuse prevention and treatment
services or in-home parent skill-based programs
are provided during a 12-month period beginning
on the date the child is determined by the State to
be a child described in paragraph (2):

184a
Appendix H
(i) The specific services or programs provided
and the total expenditures for each of the
services or programs.
(ii) The duration of the services or programs
provided.
(iii) In the case of a child described in
paragraph (2)(A), the child’s placement status
at the beginning, and at the end, of the 1-year
period, respectively, and whether the child
entered foster care within 2 years after being
determined a candidate for foster care.
(5) State plan component
(A) In general
A State electing to provide services or programs
specified in paragraph (1) shall submit as part of the
State plan required by subsection (a) a prevention
services and programs plan component that meets
the requirements of subparagraph (B).
(B) Prevention services and programs plan
component
In order to meet the requirements of this
subparagraph, a prevention services and programs
plan component, with respect to each 5-year period
for which the plan component is in operation in the
State, shall include the following:

185a
Appendix H
(i) How providing services and programs
specified in paragraph (1) is expected to
improve specific outcomes for children and
families.
(ii) How the State will monitor and oversee
the safety of children who receive services
and programs specified in paragraph (1),
including through periodic risk assessments
throughout the period in which the services
and programs are provided on behalf of a
child and reexamination of the prevention plan
maintained for the child under paragraph (4) for
the provision of the services or programs if the
State determines the risk of the child entering
foster care remains high despite the provision
of the services or programs.
(iii) With respect to the services and programs
specified in subparagraphs (A) and (B) of
paragraph (1), information on the specific
promising, supported, or well-supported
practices the State plans to use to provide the
services or programs, including a description
of-(I) the services or programs and whether
the practices used are promising, supported,
or well-supported;
(II) how the State plans to implement
the ser v ices or prog rams, including

186a
Appendix H
how implementation of the services or
programs will be continuously monitored
to ensure fidelity to the practice model and
to determine outcomes achieved and how
information learned from the monitoring
will be used to refine and improve practices;
(III) how the State selected the services or
programs;
(IV) the target population for the services
or programs; and
(V) how each service or program provided
will be evaluated through a well-designed
and rigorous process, which may consist of
an ongoing, cross-site evaluation approved
by the Secretary.
(iv) A description of the consultation that the
State agencies responsible for administering
the State plans under this part and part B
engage in with other State agencies responsible
for administering health programs, including
mental health and substance abuse prevention
and treatment ser vices, and w ith other
public and private agencies with experience
in administering child and family services,
including community-based organizations, in
order to foster a continuum of care for children
described in paragraph (2) and their parents or
kin caregivers.

187a
Appendix H
(v) A description of how the State shall assess
children and their parents or kin caregivers to
determine eligibility for services or programs
specified in paragraph (1).
(vi) A description of how the services or
programs specified in paragraph (1) that are
provided for or on behalf of a child and the
parents or kin caregivers of the child will
be coordinated with other child and family
services provided to the child and the parents
or kin caregivers of the child under the State
plans in effect under subparts 1 and 2 of part B.
(vii) Descriptions of steps the State is taking to
support and enhance a competent, skilled, and
professional child welfare workforce to deliver
trauma-informed and evidence-based services,
including-(I) ensuring that staff is qualified to provide
services or programs that are consistent
with the promising, supported, or wellsupported practice models selected; and
(II) developing appropriate prevention
plans, and conducting the risk assessments
required under clause (iii).
(viii) A description of how the State will
provide training and support for caseworkers
in assessing what children and their families

188a
Appendix H
need, connecting to the families ser ved,
knowing how to access and deliver the needed
trauma-informed and evidence-based services,
and overseeing and evaluating the continuing
appropriateness of the services.
(ix) A description of how caseload size and type
for prevention caseworkers will be determined,
managed, and overseen.
(x) An assurance that the State will report to
the Secretary such information and data as
the Secretary may require with respect to the
provision of services and programs specified
in paragraph (1), including information and
data necessary to determine the performance
measures for the State under paragraph (6) and
compliance with paragraph (7).
(C) Reimbursement for services under the
prevention plan component
(i) Limitation
Except as provided in subclause (ii), a State
may not receive a Federal payment under this
part for a given promising, supported, or wellsupported practice unless (in accordance with
subparagraph (B)(iii)(V)) the plan includes a
well-designed and rigorous evaluation strategy
for that practice.

189a
Appendix H
(ii) Waiver of limitation
The Secretary may waive the requirement for
a well-designed and rigorous evaluation of any
well-supported practice if the Secretary deems
the evidence of the effectiveness of the practice
to be compelling and the State meets the
continuous quality improvement requirements
included in subparagraph (B)(iii)(II) with
regard to the practice.
(6) Prevention services measures
(A) Establishment; annual updates
Beginning with fiscal year 2021, and annually
thereafter, the Secretary shall establish the
following prevention services measures based
on information and data reported by States that
elect to provide services and programs specified
in paragraph (1):
(i) Percentage of candidates for foster care
who do not enter foster care
The percentage of candidates for foster care
for whom, or on whose behalf, the services
or programs are provided who do not enter
foster care, including those placed with a
kin caregiver outside of foster care, during
the 12-month period in which the services or
programs are provided and through the end of

190a
Appendix H
the succeeding 12-month period.
(ii) Per-child spending
The total amount of expenditures made for
mental health and substance abuse prevention
and treatment services or in-home parent skillbased programs, respectively, for, or on behalf
of, each child described in paragraph (2).
(B) Data
The Secretary shall establish and annually update
the prevention services measures-(i) based on the median State values of the
information reported under each clause of
subparagraph (A) for the 3 then most recent
years; and
(ii) taking into account State differences in the
price levels of consumption goods and services
using the most recent regional price parities
published by the Bureau of Economic Analysis
of the Department of Commerce or such other
data as the Secretary determines appropriate.
(C) Publication of State prevention services
measures
The Secretary shall annually make available to
the public the prevention services measures of
each State.

191a
Appendix H
(7) Maintenance of effort for State foster care
prevention expenditures
(A) In general
If a State elects to provide services and programs
specified in paragraph (1) for a fiscal year, the
State foster care prevention expenditures for the
fiscal year shall not be less than the amount of the
expenditures for fiscal year 2014 (or, at the option
of a State described in subparagraph (E), fiscal
year 2015 or fiscal year 2016 (whichever the State
elects)).
(B) State foster care prevention expenditures
T he t e r m “ S t at e fo st e r c a r e pr e vent ion
expenditures” means the following:
(i) TANf; IV-B; SSBG
State expenditures for foster care prevention
services and activities under the State program
funded under part A (including from amounts
made available by the Federal Government),
under the State plan developed under part
B (including any such amounts), or under the
Social Services Block Grant Programs under
subtitle A of title XX (including any such
amounts).

192a
Appendix H
(ii) Other State programs
State expenditures for foster care prevention
services and activities under any State program
that is not described in clause (i) (other than any
State expenditures for foster care prevention
services and activities under the State program
under this part (including under a waiver of the
program)).
(C) State expenditures
The term “State expenditures” means all State
or local funds that are expended by the State or a
local agency including State or local funds that are
matched or reimbursed by the Federal Government
and State or local funds that are not matched or
reimbursed by the Federal Government.
(D) Determination of prevention services and
activities
The Secretary shall require each State that elects
to provide services and programs specified in
paragraph (1) to report the expenditures specified
in subparagraph (B) for fiscal year 2014 and for
such fiscal years thereafter as are necessary
to determine whether the State is complying
with the maintenance of effort requirement in
subparagraph (A). The Secretary shall specify
the specific services and activities under each
program referred to in subparagraph (B) that are

193a
Appendix H
“prevention services and activities” for purposes
of the reports.
(E) State described
For purposes of subparagraph (A), a State is
described in this subparagraph if the population of
children in the State in 2014 was less than 200,000
(as determined by the United States Census
Bureau).
(8) Prohibition against use of State foster care
prevention expenditures and federal IV-E prevention
funds for matching or expenditure requirement
A State that elects to provide services and programs
specified in paragraph (1) shall not use any State foster
care prevention expenditures for a fiscal year for the
State share of expenditures under section 674(a)(6) of
this title for a fiscal year.
(9) Administrative costs
Expenditures described in section 674(a)(6)(B) of this
title-(A) shall not be eligible for payment under
subparagraph (A), (B), or (E) of section 674(a)(3)
of this title; and
(B) shall be eligible for payment under section
674(a)(6)(B) of this title without regard to whether

194a
Appendix H
the expenditures are incurred on behalf of a child
who is, or is potentially, eligible for foster care
maintenance payments under this part.
(10) Application
(A) In general
The provision of services or programs under this
subsection to or on behalf of a child described in
paragraph (2) shall not be considered to be receipt
of aid or assistance under the State plan under
this part for purposes of eligibility for any other
program established under this chapter, nor shall
the provision of such services or programs be
construed to permit the State to reduce medical
or other assistance available to a recipient of such
services or programs.
(B) Candidates in kinship care
A child described in paragraph (2) for whom such
services or programs under this subsection are
provided for more than 6 months while in the
home of a kin caregiver, and who would satisfy
the AFDC eligibility requirement of section 672(a)
(3)(A)(ii)(II) of this title but for residing in the
home of the caregiver for more than 6 months, is
deemed to satisfy that requirement for purposes
of determining whether the child is eligible for
foster care maintenance payments under section
672 of this title.

195a
Appendix H
(C) Payer of last resort
In carrying out its responsibilities to ensure access
to services or programs under this subsection,
the State agency shall not be considered to be a
legally liable third party for purposes of satisfying
a financial commitment for the cost of providing
such services or programs with respect to any
individual for whom such cost would have been
paid for from another public or private source but
for the enactment of this subsection (except that
whenever considered necessary to prevent a delay
in the receipt of appropriate early intervention
services by a child or family in a timely fashion,
funds provided under section 674(a)(6) of this title
may be used to pay the provider of services or
programs pending reimbursement from the public
or private source that has ultimate responsibility
for the payment).

196a
Appendix H
42 U.S.C.A. § 672
§ 672. Foster care maintenance payments program
(a) In general
(1) Eligibility
Each State with a plan approved under this part shall
make foster care maintenance payments on behalf of
each child who has been removed from the home of a
relative specified in section 606(a) of this title (as in
effect on July 16, 1996) into foster care if-(A) the removal and foster care placement met, and
the placement continues to meet, the requirements
of paragraph (2); and
(B) the child, while in the home, would have met
the AFDC eligibility requirement of paragraph (3).
(2) Removal and foster care placement requirements
The removal and foster care placement of a child meet
the requirements of this paragraph if-(A) the removal and foster care placement are in
accordance with-(i) a voluntary placement agreement entered
into by a parent or legal guardian of the child
who is the relative referred to in paragraph
(1); or

197a
Appendix H
(ii) a judicial determination to the effect that
continuation in the home from which removed
would be contrary to the welfare of the child and
that reasonable efforts of the type described in
section 671(a)(15) of this title for a child have
been made;
(B) the child’s placement and care are the
responsibility of-(i) the State agency administering the State
plan approved under section 671 of this title;
(ii) any other public agency with which the
State agency administering or supervising the
administration of the State plan has made an
agreement which is in effect; or
(iii) an Indian tribe or a tribal organization
(as defined in section 679c(a) of this title) or
a tribal consortium that has a plan approved
under section 671 of this title in accordance
with section 679c of this title; and
(C) the child has been placed in a foster family
home, w ith a parent residing in a licensed
residential family-based treatment facility, but
only to the extent permitted under subsection (j),
or in a child-care institution, but only to the extent
permitted under subsection (k).

198a
Appendix H
(3) AfDC eligibility requirement
(A) In general
A child in the home referred to in paragraph (1)
would have met the AFDC eligibility requirement
of this paragraph if the child-(i) would have received aid under the State
plan approved under section 602 of this title
(as in effect on July 16, 1996) in the home, in
or for the month in which the agreement was
entered into or court proceedings leading to the
determination referred to in paragraph (2)(A)
(ii) of this subsection were initiated; or
(ii)(I) would have received the aid in the home,
in or for the month referred to in clause (i), if
application had been made therefor; or
(II) had been living in the home within
6 months before the month in which
the agreement was entered into or the
proceedings were initiated, and would have
received the aid in or for such month, if, in
such month, the child had been living in
the home with the relative referred to in
paragraph (1) and application for the aid
had been made.

199a
Appendix H
(B) Resources determination
For purposes of subparagraph (A), in determining
whether a child would have received aid under
a State plan approved under section 602 of this
title (as in effect on July 16, 1996), a child whose
resources (determined pursuant to section 602(a)
(7)(B) of this title, as so in effect) have a combined
value of not more than $10,000 shall be considered
a child whose resources have a combined value of
not more than $1,000 (or such lower amount as the
State may determine for purposes of section 602(a)
(7)(B) of this title).
(4) Eligibility of certain alien children
Subject to title IV of the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996, if the
child is an alien disqualified under section 1255a(h) of
Title 8 or 1160(f) of Title 8 from receiving aid under
the State plan approved under section 602 of this title
in or for the month in which the agreement described
in paragraph (2)(A)(i) was entered into or court
proceedings leading to the determination described in
paragraph (2)(A)(ii) were initiated, the child shall be
considered to satisfy the requirements of paragraph
(3), with respect to the month, if the child would have
satisfied the requirements but for the disqualification.

200a
Appendix H
(b) Additional qualifications
Foster care maintenance payments may be made under
this part only on behalf of a child described in subsection
(a) who is-(1) in the foster family home of an individual, whether
the payments therefor are made to such individual or
to a public or private child-placement or child-care
agency, or
(2) in a child-care institution, whether the payments
therefor are made to such institution or to a public or
private child-placement or child-care agency, which
payments shall be limited so as to include in such
payments only those items which are included in the
term “foster care maintenance payments” (as defined
in section 675(4) of this title).
(c) Definitions
For purposes of this part:
(1) foster family home
(A) In general
The term “foster family home” means the home of
an individual or family-(i) that is licensed or approved by the State
in which it is situated as a foster family home

201a
Appendix H
that meets the standards established for the
licensing or approval; and
(ii) in which a child in foster care has been
placed in the care of an individual, who resides
with the child and who has been licensed or
approved by the State to be a foster parent-(I) that the State deems capable of adhering
to the reasonable and prudent parent
standard;
(II) that provides 24-hour substitute care
for children placed away from their parents
or other caretakers; and
(III) that provides the care for not more
than six children in foster care.
(B) State flexibility
The number of foster children that may be cared for
in a home under subparagraph (A) may exceed the
numerical limitation in subparagraph (A)(ii)(III),
at the option of the State, for any of the following
reasons:
(i) To allow a parenting youth in foster care to
remain with the child of the parenting youth.
(ii) To allow siblings to remain together.

202a
Appendix H
(iii) To allow a child with an established
meaningful relationship with the family to
remain with the family.
(iv) To allow a family with special training or
skills to provide care to a child who has a severe
disability.
(C) Rule of construction
Subparagraph (A) shall not be construed as
prohibiting a foster parent from renting the home
in which the parent cares for a foster child placed
in the parent’s care.
(2) Child-care institution
(A) In general
The term “child-care institution” means a private
child-care institution, or a public child-care
institution which accommodates no more than 25
children, which is licensed by the State in which it
is situated or has been approved by the agency of
the State responsible for licensing or approval of
institutions of this type as meeting the standards
established for the licensing.
(B) Supervised settings
In the case of a child who has attained 18 years of
age, the term shall include a supervised setting

203a
Appendix H
in which the individual is living independently, in
accordance with such conditions as the Secretary
shall establish in regulations.
(C) Exclusions
The term shall not include detention facilities,
forestry camps, training schools, or any other
facility operated primarily for the detention of
children who are determined to be delinquent.
(d) Children removed from their homes pursuant to
voluntary placement agreements
Notwithstanding any other provision of this subchapter,
Federal payments may be made under this part with
respect to amounts expended by any State as foster care
maintenance payments under this section, in the case of
children removed from their homes pursuant to voluntary
placement agreements as described in subsection (a), only
if (at the time such amounts were expended) the State
has fulfilled all of the requirements of section 622(b)(8)
of this title.
(e) Placements in best interest of child
No Federal payment may be made under this part with
respect to amounts expended by any State as foster care
maintenance payments under this section, in the case of
any child who was removed from his or her home pursuant
to a voluntary placement agreement as described in
subsection (a) and has remained in voluntary placement

204a
Appendix H
for a period in excess of 180 days, unless there has been a
judicial determination by a court of competent jurisdiction
(within the first 180 days of such placement) to the effect
that such placement is in the best interests of the child.
(f) “Voluntary placement” and “voluntary placement
agreement” defined
For the purposes of this part and part B of this subchapter,
(1) the term “voluntary placement” means an out-ofhome placement of a minor, by or with participation of
a State agency, after the parents or guardians of the
minor have requested the assistance of the agency and
signed a voluntary placement agreement; and (2) the
term “voluntary placement agreement” means a written
agreement, binding on the parties to the agreement,
between the State agency, any other agency acting on its
behalf, and the parents or guardians of a minor child which
specifies, at a minimum, the legal status of the child and
the rights and obligations of the parents or guardians,
the child, and the agency while the child is in placement.
(g) Revocation of voluntary placement agreement
In any case where-(1) the placement of a minor child in foster care
occurred pursuant to a voluntary placement agreement
entered into by the parents or guardians of such child
as provided in subsection (a), and

205a
Appendix H
(2) such parents or guardians request (in such manner
and form as the Secretary may prescribe) that the child
be returned to their home or to the home of a relative,
the voluntary placement agreement shall be deemed
to be revoked unless the State agency opposes such
request and obtains a judicial determination, by a
court of competent jurisdiction, that the return of the
child to such home would be contrary to the child’s
best interests.
(h) Aid for dependent children; assistance for minor
children in needy families
(1) For purposes of subchapter XIX, any child with
respect to whom foster care maintenance payments are
made under this section is deemed to be a dependent
child as defined in section 606 of this title (as in effect
as of July 16, 1996) and deemed to be a recipient of
aid to families with dependent children under part
A of this subchapter (as so in effect). For purposes of
division A 3 of subchapter XX, any child with respect
to whom foster care maintenance payments are made
under this section is deemed to be a minor child in a
needy family under a State program funded under part
3. Division A of subchapter XX, was in the original a reference
to subtitle 1 of Title XX, and was translated as if referring to
Subtitle A of Title XX of the Social Security Act, which is classified
to division A of subchapter XX of this chapter, 42 U.S.C.A. § 1397
et seq., to reflect the probable intent of Congress. Title XX of the
Act, enacting subchapter XX of this chapter, does not contain a
subtitle 1.

206a
Appendix H
A of this subchapter and is deemed to be a recipient of
assistance under such part.
(2) For purposes of paragraph (1), a child whose costs
in a foster family home or child care institution are
covered by the foster care maintenance payments
being made with respect to the child’s minor parent,
as provided in section 675(4)(B) of this title, shall be
considered a child with respect to whom foster care
maintenance payments are made under this section.
(i) Administrative costs associated with otherwise
eligible children not in licensed foster care settings
Expenditures by a State that would be considered
administrative expenditures for purposes of section 674(a)
(3) of this title if made with respect to a child who was
residing in a foster family home or child-care institution
shall be so considered with respect to a child not residing
in such a home or institution-(1) in the case of a child who has been removed in
accordance with subsection (a) from the home of a
relative specified in section 606(a) of this title (as in
effect on July 16, 1996), only for expenditures-(A) with respect to a period of not more than the
lesser of 12 months or the average length of time it
takes for the State to license or approve a home as
a foster home, in which the child is in the home of a
relative and an application is pending for licensing
or approval of the home as a foster family home; or

207a
Appendix H
(B) with respect to a period of not more than 1
calendar month when a child moves from a facility
not eligible for payments under this part into a
foster family home or child care institution licensed
or approved by the State; and
(2) in the case of any other child who is potentially
eligible for benefits under a State plan approved under
this part and at imminent risk of removal from the
home, only if-(A) reasonable efforts are being made in accordance
with section 671(a)(15) of this title to prevent the
need for, or if necessary to pursue, removal of the
child from the home; and
(B) the State agency has made, not less often
than ever y 6 months, a deter mination (or
redetermination) as to whether the child remains
at imminent risk of removal from the home.
(j) Children placed with a parent residing in a
licensed residential family-based treatment facility for
substance abuse
(1) In general
Notwithstanding the preceding provisions of this
section, a child who is eligible for foster care
maintenance payments under this section, or who
would be eligible for the payments if the eligibility
were determined without regard to paragraphs

208a
Appendix H
(1)(B) and (3) of subsection (a), shall be eligible for the
payments for a period of not more than 12 months
during which the child is placed with a parent who is
in a licensed residential family-based treatment facility
for substance abuse, but only if-(A) the recommendation for the placement is
specified in the child’s case plan before the
placement;
(B) the treatment facility provides, as part of the
treatment for substance abuse, parenting skills
training, parent education, and individual and
family counseling; and
(C) the substance abuse treatment, parenting
skills training, parent education, and individual
and family counseling is provided under an
organizational structure and treatment framework
that involves understanding, recognizing, and
responding to the effects of all types of trauma
and in accordance with recognized principles of
a trauma-informed approach and trauma-specific
interventions to address the consequences of
trauma and facilitate healing.
(2) Application
With respect to children for whom foster care
maintenance payments are made under paragraph
(1), only the children who satisfy the requirements
of paragraphs (1)(B) and (3) of subsection (a) shall

209a
Appendix H
be considered to be children with respect to whom
foster care maintenance payments are made under
this section for purposes of subsection (h) or section
673(b)(3)(B) of this title.
(k) Limitation on Federal financial participation
(1) In general
Beginning with the third week for which foster care
maintenance payments are made under this section
on behalf of a child placed in a child-care institution,
no Federal payment shall be made to the State under
section 674(a)(1) of this title for amounts expended for
foster care maintenance payments on behalf of the
child unless-(A) the child is placed in a child-care institution that
is a setting specified in paragraph (2) (or is placed
in a licensed residential family-based treatment
facility consistent with subsection (j)); and
(B) in the case of a child placed in a qualified
residential treatment program (as defined in
paragraph (4)), the requirements specified in
paragraph (3) and section 675a(c) of this title are
met.
(2) Specified settings for placement
The settings for placement specified in this paragraph
are the following:

210a
Appendix H
(A) A qualified residential treatment program (as
defined in paragraph (4)).
(B) A setting specializing in providing prenatal,
post-partum, or parenting supports for youth.
(C) In the case of a child who has attained 18 years
of age, a supervised setting in which the child is
living independently.
(D) A setting providing high-quality residential
care and supportive services to children and
youth who have been found to be, or are at risk of
becoming, sex trafficking victims, in accordance
with section 671(a)(9)(C) of this title.
(3) Assessment to determine appropriateness of
placement in a qualified residential treatment
program
(A) Deadline for assessment
In the case of a child who is placed in a qualified
residential treatment program, if the assessment
required under section 675a(c)(1) of this title is
not completed within 30 days after the placement
is made, no Federal payment shall be made to the
State under section 674(a)(1) of this title for any
amounts expended for foster care maintenance
payments on behalf of the child during the
placement.

211a
Appendix H
(B) Deadline for transition out of placement
If the assessment required under section 675a(c)(1)
of this title determines that the placement of a child
in a qualified residential treatment program is not
appropriate, a court disapproves such a placement
under section 675a(c)(2) of this title, or a child who
has been in an approved placement in a qualified
residential treatment program is going to return
home or be placed with a fit and willing relative, a
legal guardian, or an adoptive parent, or in a foster
family home, Federal payments shall be made to
the State under section 674(a)(1) of this title for
amounts expended for foster care maintenance
payments on behalf of the child while the child
remains in the qualified residential treatment
program only during the period necessary for the
child to transition home or to such a placement. In
no event shall a State receive Federal payments
under section 674(a)(1) of this title for amounts
expended for foster care maintenance payments
on behalf of a child who remains placed in a
qualified residential treatment program after the
end of the 30-day period that begins on the date
a determination is made that the placement is no
longer the recommended or approved placement
for the child.
(4) Qualified residential treatment program
For purposes of this part, the term “qualified
residential treatment program” means a program
that--

212a
Appendix H
(A) has a trauma-informed treatment model that
is designed to address the needs, including clinical
needs as appropriate, of children with serious
emotional or behavioral disorders or disturbances
and, with respect to a child, is able to implement the
treatment identified for the child by the assessment
of the child required under section 675a(c) of this
title;
(B) subject to paragraphs (5) and (6), has registered
or licensed nursing staff and other licensed clinical
staff who-(i) provide care within the scope of their
practice as defined by State law;
(ii) are on-site according to the treatment model
referred to in subparagraph (A); and
(iii) are available 24 hours a day and 7 days a
week;
(C) to extent appropriate, and in accordance with
the child’s best interests, facilitates participation of
family members in the child’s treatment program;
(D) facilitates outreach to the family members of
the child, including siblings, documents how the
outreach is made (including contact information),
and maintains contact information for any known
biological family and fictive kin of the child;

213a
Appendix H
(E) documents how family members are integrated
into the treatment process for the child, including
post-discharge, and how sibling connections are
maintained;
(f) provides discharge planning and family-based
aftercare support for at least 6 months postdischarge; and
(G) is licensed in accordance with section 671(a)(10)
of this title and is accredited by any of the following
independent, not-for-profit organizations:
(i) The Commission on Accreditation of
Rehabilitation Facilities (CARF).
(ii) The Joint Commission on Accreditation of
Healthcare Organizations (JCAHO).
(iii) The Council on Accreditation (COA).
(iv) Any other independent, not-for-profit
accrediting organization approved by the
Secretary.
(5) Administrative costs
The prohibition in paragraph (1) on Federal payments
under section 674(a)(1) of this title shall not be construed
as prohibiting Federal payments for administrative
expenditures incurred on behalf of a child placed
in a child-care institution and for which payment is
available under section 674(a)(3) of this title.

214a
Appendix H
(6) Rule of construction
The requirements in paragraph (4)(B) shall not
be construed as requiring a qualified residential
treatment program to acquire nursing and behavioral
health staff solely through means of a direct employer
to employee relationship.

215a
Appendix H
42 U.S.C.A. § 673
§ 673. Adoption and guardianship assistance program
(a) Agreements with adoptive parents of children with
special needs; State payments; qualifying children;
amount of payments; changes in circumstances;
placement period prior to adoption; nonrecurring
adoption expenses
(1)(A) Each State having a plan approved under this
part shall enter into adoption assistance agreements
(as defined in section 675(3) of this title) with the
adoptive parents of children with special needs.
(B) Under any adoption assistance agreement
entered into by a State with parents who adopt a
child with special needs, the State-(i) shall make payments of nonrecurring
adoption expenses incurred by or on behalf of
such parents in connection with the adoption
of such child, directly through the State
agency or through another public or nonprofit
private agency, in amounts determined under
paragraph (3), and
(ii) in any case where the child meets the
requirements of paragraph (2), may make
adoption assistance payments to such parents,
directly through the State agency or through
another public or nonprofit private agency, in
amounts so determined.

216a
Appendix H
(2)(A) For purposes of paragraph (1)(B)(ii), a child
meets the requirements of this paragraph if-(i) in the case of a child who is not an applicable
child for the fiscal year (as defined in subsection
(e)), the child-(I)(aa)(AA) was removed from the home of
a relative specified in section 606(a) of this
title (as in effect on July 16, 1996) and placed
in foster care in accordance with a voluntary
placement agreement with respect to which
Federal payments are provided under
section 674 of this title (or section 603 of this
title, as such section was in effect on July
16, 1996), or in accordance with a judicial
determination to the effect that continuation
in the home would be contrary to the welfare
of the child; and
(BB) met the requirements of section
672(a)(3) of this title with respect to
the home referred to in subitem (AA)
of this item;
(bb) meets all of the requirements
of subchapter XVI with respect to
eligibility for supplemental security
income benefits; or
(cc) is a child whose costs in a foster
family home or child-care institution are

217a
Appendix H
covered by the foster care maintenance
payments being made with respect to
the minor parent of the child as provided
in section 675(4)(B) of this title; and
(II) has been determined by the State,
pursuant to subsection (c)(1), to be a child
with special needs; or
(ii) in the case of a child who is an applicable
child for the fiscal year (as so defined), the
child-(I)(aa) at the time of initiation of adoption
proceedings was in the care of a public or
licensed private child placement agency or
Indian tribal organization pursuant to-(AA) an involuntary removal of the
child from the home in accordance
with a judicial determination to the
effect that continuation in the home
would be contrary to the welfare of
the child; or
(BB) a voluntary placement agreement
or voluntary relinquishment;
(bb) meets all medical or disability
requirements of subchapter XVI with
respect to eligibility for supplemental
security income benefits; or

218a
Appendix H
(cc) was residing in a foster family home
or child care institution with the child’s
minor parent, and the child’s minor
parent was in such foster family home
or child care institution pursuant to-(AA) an involuntary removal of the
child from the home in accordance
with a judicial determination to the
effect that continuation in the home
would be contrary to the welfare of
the child; or
(BB) a voluntary placement agreement
or voluntary relinquishment; and
(II) has been determined by the State,
pursuant to subsection (c)(2), to be a child
with special needs.
(B) Section 672(a)(4) of this title shall apply for
purposes of subparagraph (A) of this paragraph,
in any case in which the child is an alien described
in such section.
(C) A child shall be treated as meeting the
requirements of this paragraph for the purpose of
paragraph (1)(B)(ii) if-(i) in the case of a child who is not an applicable
child for the fiscal year (as defined in subsection
(e)), the child--

219a
Appendix H
(I) meets the requirements of subparagraph
(A)(i)(II);
(II) was determined eligible for adoption
assistance payments under this part with
respect to a prior adoption;
(III) is available for adoption because-(aa) the prior adoption has been dissolved,
and the parental rights of the adoptive
parents have been terminated; or
(bb) the child’s adoptive parents have
died; and
(IV) fails to meet the requirements of
subparagraph (A)(i) but would meet such
requirements if-(aa) the child were treated as if the child
were in the same financial and other
circumstances the child was in the last
time the child was determined eligible
for adoption assistance payments under
this part; and
(bb) the prior adoption were treated as
never having occurred; or
(ii) in the case of a child who is an applicable
child for the fiscal year (as so defined), the

220a
Appendix H
child meets the requirements of subparagraph
(A)(ii)(II), is determined eligible for adoption
assistance payments under this part with
respect to a prior adoption (or who would have
been determined eligible for such payments had
the Adoption and Safe Families Act of 1997 been
in effect at the time that such determination
would have been made), and is available for
adoption because the prior adoption has been
dissolved and the parental rights of the adoptive
parents have been terminated or because the
child’s adoptive parents have died.
(D) In determining the eligibility for adoption
assistance payments of a child in a legal guardianship
arrangement described in section 671(a)(28) of this
title, the placement of the child with the relative
guardian involved and any kinship guardianship
assistance payments made on behalf of the child
shall be considered never to have been made.
(3) The amount of the payments to be made in any case
under clauses (i) and (ii) of paragraph (1)(B) shall be
determined through agreement between the adoptive
parents and the State or local agency administering
the program under this section, which shall take
into consideration the circumstances of the adopting
parents and the needs of the child being adopted, and
may be readjusted periodically, with the concurrence
of the adopting parents (which may be specified in
the adoption assistance agreement), depending upon
changes in such circumstances. However, in no case

221a
Appendix H
may the amount of the adoption assistance payment
made under clause (ii) of paragraph (1)(B) exceed the
foster care maintenance payment which would have
been paid during the period if the child with respect
to whom the adoption assistance payment is made had
been in a foster family home.
(4)(A) Notwithstanding any other provision of this
section, a payment may not be made pursuant to this
section to parents or relative guardians with respect
to a child-(i) who has attained-(I) 18 years of age, or such greater age as
the State may elect under section 675(8)(B)
(iii) of this title; or
(II) 21 years of age, if the State determines
that the child has a mental or physical
handicap which warrants the continuation
of assistance;
(ii) who has not attained 18 years of age, if the
State determines that the parents or relative
guardians, as the case may be, are no longer
legally responsible for the support of the child;
or
(iii) if the State determines that the child is no
longer receiving any support from the parents
or relative guardians, as the case may be.

222a
Appendix H
(B) Parents or relative guardians who have
been receiving adoption assistance payments or
kinship guardianship assistance payments under
this section shall keep the State or local agency
administering the program under this section
informed of circumstances which would, pursuant
to this subsection, make them ineligible for the
payments, or eligible for the payments in a different
amount.
(5) For purposes of this part, individuals with whom a
child (who has been determined by the State, pursuant
to subsection (c), to be a child with special needs) is
placed for adoption in accordance with applicable
State and local law shall be eligible for such payments,
during the period of the placement, on the same terms
and subject to the same conditions as if such individuals
had adopted such child.
(6)(A) For purposes of paragraph (1)(B)(i), the term
“nonrecurring adoption expenses” means reasonable
and necessary adoption fees, court costs, attorney fees,
and other expenses which are directly related to the
legal adoption of a child with special needs and which
are not incurred in violation of State or Federal law.
(B) A State’s payment of nonrecurring adoption
expenses under an adoption assistance agreement
shall be treated as an expenditure made for the
proper and efficient administration of the State
plan for purposes of section 674(a)(3)(E) of this title.

223a
Appendix H
(7)(A) Notwithstanding any other provision of this
subsection, no payment may be made to parents with
respect to any applicable child for a fiscal year that-(i) would be considered a child with special
needs under subsection (c) (2);
(ii) is not a citizen or resident of the United
States; and
(iii) was adopted outside of the United States
or was brought into the United States for the
purpose of being adopted.
(B) Subparagraph (A) shall not be construed
as prohibiting payments under this part for an
applicable child described in subparagraph (A)
that is placed in foster care subsequent to the
failure, as determined by the State, of the initial
adoption of the child by the parents described in
subparagraph (A).
(8)(A) A State shall calculate the savings (if any)
resulting from the application of paragraph (2)(A)
(ii) to all applicable children for a fiscal year, using a
methodology specified by the Secretary or an alternate
methodology proposed by the State and approved by
the Secretary.
(B) A State shall annually report to the Secretary--

224a
Appendix H
(i) the methodology used to make the calculation
described in subparagraph (A), without regard
to whether any savings are found;
(ii) the amount of any savings referred to in
subparagraph (A); and
(iii) how any such savings are spent, accounting
for and reporting the spending separately from
any other spending reported to the Secretary
under part B or this part.
(C) The Secretary shall make all information
reported pursuant to subparagraph (B) available
on the website of the Department of Health and
Human Services in a location easily accessible to
the public.
(D)(i) A State shall spend an amount equal to the
amount of the savings (if any) in State expenditures
under this part resulting from the application of
paragraph (2)(A)(ii) to all applicable children for
a fiscal year, to provide to children of families any
service that may be provided under part B or this
part. A State shall spend not less than 30 percent
of any such savings on post-adoption services, postguardianship services, and services to support and
sustain positive permanent outcomes for children
who otherwise might enter into foster care under
the responsibility of the State, with at least 2 /3 of
the spending by the State to comply with such 30
percent requirement being spent on post-adoption
and post-guardianship services.

225a
Appendix H
(ii) A ny State spending required under
clause (i) shall be used to supplement, and not
supplant, any Federal or non-Federal funds
used to provide any service under part B or
this part.
(b) Aid for dependent children; assistance for minor
children in needy families
(1) For purposes of subchapter XIX, any child who is
described in paragraph (3) is deemed to be a dependent
child as defined in section 606 of this title (as in effect
as of July 16, 1996) and deemed to be a recipient of
aid to families with dependent children under part A
(as so in effect) in the State where such child resides.
(2) For purposes of division A4 of subchapter XX, any
child who is described in paragraph (3) is deemed to be
a minor child in a needy family under a State program
funded under part A and deemed to be a recipient of
assistance under such part.
(3) A child described in this paragraph is any child-(A)(i) who is a child described in subsection (a)(2),
and
4. Division A of subchapter XX, was in the original a reference
to subtitle 1 of Title XX, and was translated as if referring to
Subtitle A of Title XX of the Social Security Act, which is classified
to division A of subchapter XX of this chapter, 42 U.S.C.A. § 1397
et seq., to reflect the probable intent of Congress. Title XX of the
Act, enacting subchapter XX of this chapter, does not contain a
subtitle 1.

226a
Appendix H
(ii) with respect to whom an adoption assistance
agreement is in effect under this section
(whether or not adoption assistance payments
are provided under the agreement or are
being made under this section), including any
such child who has been placed for adoption
in accordance with applicable State and local
law (whether or not an interlocutory or other
judicial decree of adoption has been issued),
(B) with respect to whom foster care maintenance
payments are being made under section 672 of this
title, or
(C) with respect to whom kinship guardianship
assistance payments are being made pursuant to
subsection (d).
(4) For purposes of paragraphs (1) and (2), a child
whose costs in a foster family home or child-care
institution are covered by the foster care maintenance
payments being made with respect to the child’s minor
parent, as provided in section 675(4)(B) of this title,
shall be considered a child with respect to whom foster
care maintenance payments are being made under
section 672 of this title.
(c) Children with special needs
For purposes of this section--

227a
Appendix H
(1) in the case of a child who is not an applicable child
for a fiscal year, the child shall not be considered a
child with special needs unless-(A) the State has determined that the child cannot
or should not be returned to the home of his
parents; and
(B) the State had first determined (A) that there
exists with respect to the child a specific factor or
condition (such as his ethnic background, age, or
membership in a minority or sibling group, or the
presence of factors such as medical conditions or
physical, mental, or emotional handicaps) because
of which it is reasonable to conclude that such child
cannot be placed with adoptive parents without
providing adoption assistance under this section
or medical assistance under subchapter XIX, and
(B) that, except where it would be against the
best interests of the child because of such factors
as the existence of significant emotional ties with
prospective adoptive parents while in the care of
such parents as a foster child, a reasonable, but
unsuccessful, effort has been made to place the
child with appropriate adoptive parents without
providing adoption assistance under this section
or medical assistance under subchapter XIX; or
(2) in the case of a child who is an applicable child for
a fiscal year, the child shall not be considered a child
with special needs unless--

228a
Appendix H
(A) the State has determined, pursuant to a
criterion or criteria established by the State, that
the child cannot or should not be returned to the
home of his parents;
(B)(i) the State has determined that there
exists with respect to the child a specific factor
or condition (such as ethnic background, age, or
membership in a minority or sibling group, or the
presence of factors such as medical conditions or
physical, mental, or emotional handicaps) because
of which it is reasonable to conclude that the child
cannot be placed with adoptive parents without
providing adoption assistance under this section
and medical assistance under subchapter XIX; or
(ii) the child meets all medical or disability
requirements of subchapter XVI with respect
to eligibility for supplemental security income
benefits; and
(C) the State has determined that, except where
it would be against the best interests of the
child because of such factors as the existence of
significant emotional ties with prospective adoptive
parents while in the care of the parents as a foster
child, a reasonable, but unsuccessful, effort has
been made to place the child with appropriate
adoptive parents without providing adoption
assistance under this section or medical assistance
under subchapter XIX.

229a
Appendix H
(d) Kinship guardianship assistance payments for
children
(1) Kinship guardianship assistance agreement
(A) In general
In order to receive payments under section 674(a)
(5) of this title, a State shall-(i) negotiate and enter into a written, binding
kinship guardianship assistance agreement
with the prospective relative guardian of a child
who meets the requirements of this paragraph;
and
(ii) provide the prospective relative guardian
with a copy of the agreement.
(B) Minimum requirements
The agreement shall specify, at a minimum-(i) the amount of, and manner in which, each
kinship guardianship assistance payment will
be provided under the agreement, and the
manner in which the payment may be adjusted
periodically, in consultation with the relative
guardian, based on the circumstances of the
relative guardian and the needs of the child;

230a
Appendix H
(ii) the additional services and assistance that
the child and relative guardian will be eligible
for under the agreement;
(iii) the procedure by which the relative
guardian may apply for additional services as
needed; and
(iv) subject to subparagraph (D), that the State
will pay the total cost of nonrecurring expenses
associated with obtaining legal guardianship of
the child, to the extent the total cost does not
exceed $2,000.
(C) Interstate applicability
The agreement shall provide that the agreement
shall remain in effect without regard to the State
residency of the relative guardian.
(D) No effect on federal reimbursement
Nothing in subparagraph (B)(iv) shall be construed
as affecting the ability of the State to obtain
reimbursement from the Federal Government for
costs described in that subparagraph.
(2) Limitations on amount of kinship guardianship
assistance payment
A kinship guardianship assistance payment on behalf
of a child shall not exceed the foster care maintenance

231a
Appendix H
payment which would have been paid on behalf of the
child if the child had remained in a foster family home.
(3) Child’s eligibility for a kinship guardianship
assistance payment
(A) In general
A child is eligible for a kinship guardianship
assistance payment under this subsection if the
State agency determines the following:
(i) The child has been-(I) removed from his or her home pursuant
to a voluntary placement agreement or as
a result of a judicial determination to the
effect that continuation in the home would
be contrary to the welfare of the child; and
(II) eligible for foster care maintenance
payments under section 672 of this title
while residing for at least 6 consecutive
months in the home of the prospective
relative guardian.
(ii) Being returned home or adopted are not
appropriate permanency options for the child.
(iii) The child demonstrates a strong attachment
to the prospective relative guardian and the
relative guardian has a strong commitment to
caring permanently for the child.

232a
Appendix H
(iv) With respect to a child who has attained
14 years of age, the child has been consulted
rega rding the k inship g ua rdianship
arrangement.
(B) Treatment of siblings
With respect to a child described in subparagraph
(A) whose sibling or siblings are not so described-(i) the child and any sibling of the child may
be placed in the same kinship guardianship
arrangement, in accordance with section 671(a)
(31) of this title, if the State agency and the
relative agree on the appropriateness of the
arrangement for the siblings; and
(ii) kinship guardianship assistance payments
may be paid on behalf of each sibling so placed.
(C) Eligibility not affected by replacement of
guardian with a successor guardian
In the event of the death or incapacity of the
relative guardian, the eligibility of a child for a
kinship guardianship assistance payment under
this subsection shall not be affected by reason
of the replacement of the relative guardian with
a successor legal guardian named in the kinship
guardianship assistance agreement referred to in
paragraph (1) (including in any amendment to the
agreement), notwithstanding subparagraph (A) of
this paragraph and section 671(a)(28) of this title.

233a
Appendix H
(e) Applicable child defined
(1) On the basis of age
(A) In general
Subject to paragraphs (2) and (3), in this section,
the term “applicable child” means a child for whom
an adoption assistance agreement is entered into
under this section during any fiscal year described
in subparagraph (B) if the child attained the
applicable age for that fiscal year before the end
of that fiscal year.
(B) Applicable age
For purposes of subparagraph (A), the applicable
age for a fiscal year is as follows:
In the case of fiscal year:

The applicable age is:

2010..........................................................................................................16
2011..........................................................................................................14
2012..........................................................................................................12
2013..........................................................................................................10
2014............................................................................................................ 8
2015............................................................................................................ 6
2016............................................................................................................ 4
2017 through 2023............................................................................... 2

234a
Appendix H
2024.........................................................2 (or, in the case of a child
for whom an adoption assistance
agreement is entered into under this
section on or after July 1, 2024, any age)
2025 or thereafter................................................................. any age
(2) Exception for duration in care
Notwithstanding paragraph (1) of this subsection,
beginning with fiscal year 2010, such term shall include
a child of any age on the date on which an adoption
assistance agreement is entered into on behalf of the
child under this section if the child-(A) has been in foster care under the responsibility
of the State for at least 60 consecutive months; and
(B) meets the requirements of subsection (a)(2)
(A)(ii).
(3) Exception for member of a sibling group
Notwithstanding paragraphs (1) and (2) of this
subsection, beginning with fiscal year 2010, such term
shall include a child of any age on the date on which
an adoption assistance agreement is entered into on
behalf of the child under this section without regard
to whether the child is described in paragraph (2)(A)
of this subsection if the child-(A) is a sibling of a child who is an applicable child
for the fiscal year under paragraph (1) or (2) of this
subsection;

235a
Appendix H
(B) is to be placed in the same adoption placement
as an applicable child for the fiscal year who is their
sibling; and
(C) meets the requirements of subsection (a)(2)
(A)(ii).

236a
Appendix H
42 U.S.C.A. § 674
§ 674. Payments to States
(a) Amounts
For each quarter beginning after September 30, 1980,
each State which has a plan approved under this part shall
be entitled to a payment equal to the sum of-(1) subject to subsections (j) and (k) of section 672
of this title, an amount equal to the Federal medical
assistance percentage (which shall be as defined in
section 1396d(b) of this title, in the case of a State
other than the District of Columbia, or 70 percent,
in the case of the District of Columbia) of the total
amount expended during such quarter as foster care
maintenance payments under section 672 of this
title for children in foster family homes or child-care
institutions (or, with respect to such payments made
during such quarter under a cooperative agreement
or contract entered into by the State and an Indian
tribe, tribal organization, or tribal consortium for the
administration or payment of funds under this part,
an amount equal to the Federal medical assistance
percentage that would apply under section 679c(d) of
this title (in this paragraph referred to as the “tribal
FMAP”) if such Indian tribe, tribal organization,
or tribal consortium made such payments under a
program operated under that section, unless the tribal
FMAP is less than the Federal medical assistance
percentage that applies to the State); plus

237a
Appendix H
(2) an amount equal to the Federal medical assistance
percentage (which shall be as defined in section
1396d(b) of this title, in the case of a State other
than the District of Columbia, or 70 percent, in the
case of the District of Columbia) of the total amount
expended during such quarter as adoption assistance
payments under section 673 of this title pursuant to
adoption assistance agreements (or, with respect to
such payments made during such quarter under a
cooperative agreement or contract entered into by
the State and an Indian tribe, tribal organization, or
tribal consortium for the administration or payment of
funds under this part, an amount equal to the Federal
medical assistance percentage that would apply under
section 679c(d) of this title (in this paragraph referred
to as the “tribal FMAP”) if such Indian tribe, tribal
organization, or tribal consortium made such payments
under a program operated under that section, unless
the tribal FMAP is less than the Federal medical
assistance percentage that applies to the State); plus
(3) subject to section 672(i) of this title an amount
equal to the sum of the following proportions of the
total amounts expended during such quarter as found
necessary by the Secretary for the provision of child
placement services and for the proper and efficient
administration of the State plan-(A) 75 per centum of so much of such expenditures
as are for the training (including both short- and
long-term training at educational institutions
through grants to such institutions or by direct

238a
Appendix H
financial assistance to students enrolled in such
institutions) of personnel employed or preparing
for employment by the State agency or by the
local agency administering the plan in the political
subdivision,
(B) 75 percent of so much of such expenditures
(including travel and per diem expenses) as are for
the short-term training of current or prospective
foster or adoptive parents or relative guardians,
the members of the staff of State-licensed or
State-approved child care institutions providing
care, or State-licensed or State-approved child
welfare agencies providing services, to children
receiving assistance under this part, and members
of the staff of abuse and neglect courts, agency
attorneys, attorneys representing children or
parents, guardians ad litem, or other courtappointed special advocates representing children
in proceedings of such courts, in ways that increase
the ability of such current or prospective parents,
guardians, staff members, institutions, attorneys,
and advocates to provide support and assistance
to foster and adopted children and children living
with relative guardians, whether incurred directly
by the State or by contract,
(C) 50 percent of so much of such expenditures
as are for the planning, design, development, or
installation of statewide mechanized data collection
and information retrieval systems (including 50
percent of the full amount of expenditures for

239a
Appendix H
hardware components for such systems) but only
to the extent that such systems-(i) meet the requ i rement s i mposed by
regulations promulgated pursuant to section
679(b)(2) of this title;
(ii) to the extent practicable, are capable of
interfacing with the State data collection
system that collects information relating to
child abuse and neglect;
(iii) to the extent practicable, have the capability
of interfacing with, and retrieving information
from, the State data collection system that
collects information relating to the eligibility
of individuals under part A (for the purposes
of facilitating verification of eligibility of foster
children); and
(iv) are determined by the Secretary to be
likely to provide more efficient, economical,
and effective administration of the programs
carried out under a State plan approved under
part B or this part; and
(D) 50 percent of so much of such expenditures as
are for the operation of the statewide mechanized
data collection and information retrieval systems
referred to in subparagraph (C); and
(E) one-half of the remainder of such expenditures;
plus

240a
Appendix H
(4) an amount equal to the amount (if any) by which-(A) the lesser of-(i) 80 percent of the amounts expended by the
State during the fiscal year in which the quarter
occurs to carry out programs in accordance
with the State application approved under
section 677(b) of this title for the period in which
the quarter occurs (including any amendment
that meets the requirements of section 677(b)
(5) of this title); or
(ii) the amount allotted to the State under
section 677(c)(1) of this title for the fiscal year in
which the quarter occurs, reduced by the total
of the amounts payable to the State under this
paragraph for all prior quarters in the fiscal
year; exceeds
(B) the total amount of any penalties assessed
against the State under section 677(e) of this title
during the fiscal year in which the quarter occurs;
plus
(5) an amount equal to the percentage by which
the expenditures referred to in paragraph (2) of
this subsection are reimbursed of the total amount
expended during such quarter as kinship guardianship
assistance payments under section 673(d) of this
title pursuant to kinship guardianship assistance
agreements; plus

241a
Appendix H
(6) subject to section 671(e) of this title-(A) for each quarter-(i) subject to clause (ii)-(I) beginning after September 30, 2019, and
before October 1, 2026, an amount equal to 50
percent of the total amount expended during
the quarter for the provision of services or
programs specified in subparagraph (A) or
(B) of section 671(e)(1) of this title that are
provided in accordance with promising,
supported, or well-supported practices that
meet the applicable criteria specified for
the practices in section 671(e)(4)(C) of this
title; and
(II) beginning after September 30, 2026,
an amount equal to the Federal medical
assistance percentage (which shall be as
defined in section 1396d(b) of this title, in
the case of a State other than the District
of Columbia, or 70 percent, in the case
of the District of Columbia) of the total
amount expended during the quarter for the
provision of services or programs specified
in subparagraph (A) or (B) of section
671(e)(1) of this title that are provided in
accordance with promising, supported,
or well-supported practices that meet the
applicable criteria specified for the practices

242a
Appendix H
in section 671(e)(4)(C) of this title (or, with
respect to the payments made during the
quarter under a cooperative agreement
or contract entered into by the State and
an Indian tribe, tribal organization, or
tribal consortium for the administration or
payment of funds under this part, an amount
equal to the Federal medical assistance
percentage that would apply under section
679c(d) of this title (in this paragraph
referred to as the “tribal FMAP”) if the
Indian tribe, tribal organization, or tribal
consortium made the payments under a
program operated under that section, unless
the tribal FMAP is less than the Federal
medical assistance percentage that applies
to the State); except that
(ii) not less than 50 percent of the total amount
expended by a State under clause (i) for a fiscal
year shall be for the provision of services or
programs specified in subparagraph (A) or (B)
of section 671(e)(1) of this title that are provided
in accordance with well-supported practices;
plus
(B) for each quarter specified in subparagraph
(A), an amount equal to the sum of the following
proportions of the total amount expended during
the quarter--

243a
Appendix H
(i) 50 percent of so much of the expenditures as
are found necessary by the Secretary for the
proper and efficient administration of the State
plan for the provision of services or programs
specified in section 671(e)(1) of this title,
including expenditures for activities approved
by the Secretary that promote the development
of necessary processes and procedures to
establish and implement the provision of the
services and programs for individuals who
are eligible for the services and programs and
expenditures attributable to data collection and
reporting; and
(ii) 50 percent of so much of the expenditures
with respect to the provision of services and
programs specified in section 671(e)(1) of this
title as are for training of personnel employed or
preparing for employment by the State agency
or by the local agency administering the plan
in the political subdivision and of the members
of the staff of State-licensed or State-approved
child welfare agencies providing services to
children described in section 671(e)(2) of this title
and their parents or kin caregivers, including
on how to determine who are individuals
eligible for the services or programs, how to
identify and provide appropriate services and
programs, and how to oversee and evaluate the
ongoing appropriateness of the services and
programs; plus

244a
Appendix H
(7) an amount equal to 50 percent of the amounts
expended by the State during the quarter as the
Secretary determines are for kinship navigator
programs that meet the requirements described in
section 627(a)(1) of this title and that the Secretary
determines are operated in accordance with promising,
supported, or well-supported practices that meet the
applicable criteria specified for the practices in section
671(e)(4)(C) of this title, without regard to whether
the expenditures are incurred on behalf of children
who are, or are potentially, eligible for foster care
maintenance payments under this part.
(b) Quarterly estimates of State’s entitlement for
next quarter; payments; United States’ pro rata share
of amounts recovered as overpayment; allowance,
disallowance, or deferral of claim
(1) The Secretary shall, prior to the beginning of each
quarter, estimate the amount to which a State will be
entitled under subsection (a) for such quarter, such
estimates to be based on (A) a report filed by the State
containing its estimate of the total sum to be expended
in such quarter in accordance with subsection (a), and
stating the amount appropriated or made available
by the State and its political subdivisions for such
expenditures in such quarter, and if such amount is
less than the State’s proportionate share of the total
sum of such estimated expenditures, the source or
sources from which the difference is expected to be
derived, (B) records showing the number of children
in the State receiving assistance under this part, and

245a
Appendix H
(C) such other investigation as the Secretary may find
necessary.
(2) The Secretary shall then pay to the State, in such
installments as he may determine, the amounts so
estimated, reduced or increased to the extent of any
overpayment or underpayment which the Secretary
determines was made under this section to such
State for any prior quarter and with respect to which
adjustment has not already been made under this
subsection.
(3) The pro rata share to which the United States is
equitably entitled, as determined by the Secretary, of
the net amount recovered during any quarter by the
State or any political subdivision thereof with respect
to foster care and adoption assistance furnished under
the State plan shall be considered an overpayment to
be adjusted under this subsection.
(4)(A) Within 60 days after receipt of a State claim for
expenditures pursuant to subsection (a), the Secretary
shall allow, disallow, or defer such claim.
(B) Within 15 days after a decision to defer such
a State claim, the Secretary shall notify the
State of the reasons for the deferral and of the
additional information necessary to determine the
allowability of the claim.
(C) Within 90 days after receiving such necessary
information (in readily reviewable form), the
Secretary shall--

246a
Appendix H
(i) disallow the claim, if able to complete the
review and determine that the claim is not
allowable, or
(ii) in any other case, allow the claim, subject
to disallowance (as necessary)-(I) upon completion of the review, if it is
determined that the claim is not allowable;
or
(II) on the basis of findings of an audit or
financial management review.
(c) Automated data collection expenditures
The Secretary shall treat as necessary for the proper and
efficient administration of the State plan all expenditures
of a State necessary in order for the State to plan,
design, develop, install, and operate data collection and
information retrieval systems described in subsection
(a)(3)(C), without regard to whether the systems may be
used with respect to foster or adoptive children other
than those on behalf of whom foster care maintenance
payments or adoption assistance payments may be made
under this part.
(d) Reduction for violation of plan requirement
(1) If, during any quarter of a fiscal year, a State’s
program operated under this part is found, as a result
of a review conducted under section 1320a-2a of this

247a
Appendix H
title, or otherwise, to have violated paragraph (18)
or (23) of section 671(a) of this title with respect to
a person or to have failed to implement a corrective
action plan within a period of time not to exceed
6 months w ith respect to such violation, then,
notwithstanding subsection (a) of this section and any
regulations promulgated under section 1320a-2a(b)(3)
of this title, the Secretary shall reduce the amount
otherwise payable to the State under this part, for that
fiscal year quarter and for any subsequent quarter of
such fiscal year, until the State program is found, as a
result of a subsequent review under section 1320a-2a
of this title, to have implemented a corrective action
plan with respect to such violation, by-(A) 2 percent of such otherwise payable amount, in
the case of the 1st such finding for the fiscal year
with respect to the State;
(B) 3 percent of such otherwise payable amount, in
the case of the 2nd such finding for the fiscal year
with respect to the State; or
(C) 5 percent of such otherwise payable amount, in
the case of the 3rd or subsequent such finding for
the fiscal year with respect to the State.
In imposing the penalties described in this
paragraph, the Secretary shall not reduce any
fiscal year payment to a State by more than 5
percent.

248a
Appendix H
(2) Any other entity which is in a State that receives
funds under this part and which violates paragraph
(18) or (23) of section 671(a) of this title during a fiscal
year quarter with respect to any person shall remit to
the Secretary all funds that were paid by the State to
the entity during the quarter from such funds.
(3)(A) Any individual who is aggrieved by a violation of
section 671(a)(18) of this title by a State or other entity
may bring an action seeking relief from the State or
other entity in any United States district court.
(B) An action under this paragraph may not be
brought more than 2 years after the date the
alleged violation occurred.
(4) This subsection shall not be construed to affect the
application of the Indian Child Welfare Act of 1978.
(e) Discretionary grants for educational and training
vouchers for youths aging out of foster care
From amounts appropriated pursuant to section 677(h)
(2) of this title, the Secretary may make a grant to a
State with a plan approved under this part, for a calendar
quarter, in an amount equal to the lesser of-(1) 80 percent of the amounts expended by the State
during the quarter to carry out programs for the
purposes described in section 677(a)(6) of this title; or

249a
Appendix H
(2) the amount, if any, allotted to the State under
section 677(c)(3) of this title for the fiscal year in which
the quarter occurs, reduced by the total of the amounts
payable to the State under this subsection for such
purposes for all prior quarters in the fiscal year.
(f) Reduction for failure to submit required data
(1) If the Secretary finds that a State has failed
to submit to the Secretary data, as required by
regulation, for the data collection system implemented
under section 679 of this title, the Secretary shall,
within 30 days after the date by which the data was
due to be so submitted, notify the State of the failure
and that payments to the State under this part will
be reduced if the State fails to submit the data, as so
required, within 6 months after the date the data was
originally due to be so submitted.
(2) If the Secretary finds that the State has failed
to submit the data, as so required, by the end of the
6-month period referred to in paragraph (1) of this
subsection, then, notwithstanding subsection (a) of
this section and any regulations promulgated under
section 1320a-2a(b)(3) of this title, the Secretary shall
reduce the amounts otherwise payable to the State
under this part, for each quarter ending in the 6-month
period (and each quarter ending in each subsequent
consecutively occurring 6-month period until the
Secretary finds that the State has submitted the data,
as so required), by

250a
Appendix H
(A) 1/6 of 1 percent of the total amount expended by
the State for administration of foster care activities
under the State plan approved under this part in
the quarter so ending, in the case of the 1st 6-month
period during which the failure continues; or
(B) ¼ of 1 percent of the total amount so expended,
in the case of the 2nd or any subsequent such
6-month period.
(g) Continued services under waiver
For purposes of this part, after the termination of a
demonstration project relating to guardianship conducted
by a State under section 1320a-9 of this title, the
expenditures of the State for the provision, to children
who, as of September 30, 2008, were receiving assistance
or services under the project, of the same assistance
and services under the same terms and conditions that
applied during the conduct of the project, are deemed to
be expenditures under the State plan approved under
this part.

251a
Appendix H
42 U.S.C.A. § 675
§ 675. Definitions
As used in this part or part B of this subchapter:
(1) The term “case plan” means a written document
which meets the requirements of section 675a of this
title and includes at least the following:
(A) A description of the type of home or institution in
which a child is to be placed, including a discussion
of the safety and appropriateness of the placement
and how the agency which is responsible for the
child plans to carry out the voluntary placement
agreement entered into or judicial determination
made with respect to the child in accordance with
section 672(a)(1) of this title.
(B) A plan for assuring that the child receives safe
and proper care and that services are provided
to the parents, child, and foster parents in order
to improve the conditions in the parents’ home,
facilitate return of the child to his own safe home or
the permanent placement of the child, and address
the needs of the child while in foster care, including
a discussion of the appropriateness of the services
that have been provided to the child under the plan.
With respect to a child who has attained 14 years of
age, the plan developed for the child in accordance
with this paragraph, and any revision or addition
to the plan, shall be developed in consultation with

252a
Appendix H
the child and, at the option of the child, with up
to 2 members of the case planning team who are
chosen by the child and who are not a foster parent
of, or caseworker for, the child. A State may reject
an individual selected by a child to be a member of
the case planning team at any time if the State has
good cause to believe that the individual would not
act in the best interests of the child. One individual
selected by a child to be a member of the child’s
case planning team may be designated to be the
child’s advisor and, as necessary, advocate, with
respect to the application of the reasonable and
prudent parent standard to the child.
(C) The health and education records of the child,
including the most recent information available
regarding-(i) the names and addresses of the child’s health
and educational providers;
(ii) the child’s grade level performance;
(iii) the child’s school record;
(iv) a record of the child’s immunizations;
(v) the child’s known medical problems;
(vi) the child’s medications; and

253a
Appendix H
(vii) any other relevant health and education
information concerning the child determined
to be appropriate by the State agency.
(D) For a child who has attained 14 years of age
or over, a written description of the programs
and services which will help such child prepare
for the transition from foster care to a successful
adulthood.
(E) In the case of a child with respect to whom
the permanency plan is adoption or placement
in another permanent home, documentation of
the steps the agency is taking to find an adoptive
family or other permanent living arrangement for
the child, to place the child with an adoptive family,
a fit and willing relative, a legal guardian, or in
another planned permanent living arrangement,
and to finalize the adoption or legal guardianship.
At a minimum, such documentation shall include
child specific recruitment efforts such as the use
of State, regional, and national adoption exchanges
including electronic exchange systems to facilitate
orderly and timely in- State and interstate
placements.
(f) In the case of a child with respect to whom
the permanency plan is placement with a relative
and receipt of kinship guardianship assistance
payments under section 673(d) of this title, a
description of--

254a
Appendix H
(i) the steps that the agency has taken to
determine that it is not appropriate for the child
to be returned home or adopted;
(ii) the reasons for any separation of siblings
during placement;
(iii) the reasons why a permanent placement
with a fit and willing relative through a kinship
guardianship assistance arrangement is in the
child’s best interests;
(iv) the ways in which the chi ld meets
the eligibility requirements for a kinship
guardianship assistance payment;
(v) the efforts the agency has made to discuss
adoption by the child’s relative foster parent
as a more permanent alternative to legal
guardianship and, in the case of a relative foster
parent who has chosen not to pursue adoption,
documentation of the reasons therefor; and
(vi) the efforts made by the State agency to
discuss with the child’s parent or parents the
kinship guardianship assistance arrangement,
or the reasons why the efforts were not made.
(G) A plan for ensuring the educational stability of
the child while in foster care, including--

255a
Appendix H
(i) assurances that each placement of the
child in foster care takes into account the
appropriateness of the current educational
setting and the proximity to the school in which
the child is enrolled at the time of placement;
and
(ii)(I) an assurance that the State agency has
coordinated with appropriate local educational
agencies (as defined under section 7801 of Title
20) to ensure that the child remains in the school
in which the child is enrolled at the time of each
placement; or
(II) if remaining in such school is not in the
best interests of the child, assurances by
the State agency and the local educational
a genc ie s t o prov ide i m med i at e a nd
appropriate enrollment in a new school,
with all of the educational records of the
child provided to the school.
(2) The term “parents” means biological or adoptive
parents or legal g uardians, as determined by
applicable State law.
(3) The term “adoption assistance agreement” means
a written agreement, binding on the parties to the
agreement, between the State agency, other relevant
agencies, and the prospective adoptive parents of
a minor child which at a minimum (A) specifies the
nature and amount of any payments, services, and

256a
Appendix H
assistance to be provided under such agreement, and
(B) stipulates that the agreement shall remain in effect
regardless of the State of which the adoptive parents
are residents at any given time. The agreement
shall contain provisions for the protection (under
an interstate compact approved by the Secretary or
otherwise) of the interests of the child in cases where
the adoptive parents and child move to another State
while the agreement is effective.
(4)(A) The term “foster care maintenance payments”
means payments to cover the cost of (and the cost of
providing) food, clothing, shelter, daily supervision,
school supplies, a child’s personal incidentals, liability
insurance with respect to a child, reasonable travel
to the child’s home for visitation, and reasonable
travel for the child to remain in the school in which
the child is enrolled at the time of placement. In the
case of institutional care, such term shall include the
reasonable costs of administration and operation of
such institution as are necessarily required to provide
the items described in the preceding sentence.
(B) In cases where-(i) a child placed in a foster family home or
child-care institution is the parent of a son or
daughter who is in the same home or institution,
and
(ii) payments described in subparagraph (A)
are being made under this part with respect
to such child,

257a
Appendix H
the foster care maintenance payments made
w ith respect to such child as other w ise
determined under subparagraph (A) shall also
include such amounts as may be necessary to
cover the cost of the items described in that
subparagraph with respect to such son or
daughter.
(5) The term “case review system” means a procedure
for assuring that-(A) each child has a case plan designed to achieve
placement in a safe setting that is the least
restrictive (most family like) and most appropriate
setting available and in close proximity to the
parents’ home, consistent with the best interest
and special needs of the child, which-(i) if the child has been placed in a foster family
home or child-care institution a substantial
distance from the home of the parents of the
child, or in a State different from the State
in which such home is located, sets forth the
reasons why such placement is in the best
interests of the child, and
(ii) if the child has been placed in foster care
outside the State in which the home of the
parents of the child is located, requires that,
periodically, but not less frequently than every
6 months, a caseworker on the staff of the State
agency of the State in which the home of the

258a
Appendix H
parents of the child is located, of the State in
which the child has been placed, or of a private
agency under contract with either such State,
visit such child in such home or institution and
submit a report on such visit to the State agency
of the State in which the home of the parents of
the child is located,
(B) the status of each child is reviewed periodically
but no less frequently than once every six months
by either a court or by administrative review (as
defined in paragraph (6)) in order to determine
the safety of the child, the continuing necessity
for and appropriateness of the placement, the
extent of compliance with the case plan, and the
extent of progress which has been made toward
alleviating or mitigating the causes necessitating
placement in foster care, and to project a likely date
by which the child may be returned to and safely
maintained in the home or placed for adoption
or legal guardianship, and, for a child for whom
another planned permanent living arrangement
has been determined as the permanency plan,
the steps the State agency is taking to ensure the
child’s foster family home or child care institution
is following the reasonable and prudent parent
standard and to ascertain whether the child has
regular, ongoing opportunities to engage in age or
developmentally appropriate activities (including
by consulting with the child in an age-appropriate
manner about the opportunities of the child to
participate in the activities);

259a
Appendix H
(C) with respect to each such child, (i) procedural
safeguards will be applied, among other things, to
assure each child in foster care under the supervision
of the State of a permanency hearing to be held, in a
family or juvenile court or another court (including
a tribal court) of competent jurisdiction, or by an
administrative body appointed or approved by the
court, no later than 12 months after the date the
child is considered to have entered foster care (as
determined under subparagraph (F)) (and not less
frequently than every 12 months thereafter during
the continuation of foster care), which hearing shall
determine the permanency plan for the child that
includes whether, and if applicable when, the child
will be returned to the parent, placed for adoption
and the State will file a petition for termination of
parental rights, or referred for legal guardianship,
or only in the case of a child who has attained 16
years of age (in cases where the State agency has
documented to the State court a compelling reason
for determining, as of the date of the hearing, that
it would not be in the best interests of the child
to return home, be referred for termination of
parental rights, or be placed for adoption, with a
fit and willing relative, or with a legal guardian)
placed in another planned permanent living
arrangement, subject to section 675a(a) of this title,
in the case of a child who will not be returned to
the parent, the hearing shall consider in-State and
out-of-State placement options, and, in the case
of a child described in subparagraph (A)(ii), the

260a
Appendix H
hearing shall determine whether the out-of-State
placement continues to be appropriate and in the
best interests of the child, and, in the case of a child
who has attained age 14, the services needed to
assist the child to make the transition from foster
care to a successful adulthood; (ii) procedural
safeguards shall be applied with respect to parental
rights pertaining to the removal of the child from
the home of his parents, to a change in the child’s
placement, and to any determination affecting
visitation privileges of parents; (iii) procedural
safeguards shall be applied to assure that in any
permanency hearing held with respect to the child,
including any hearing regarding the transition of
the child from foster care to a successful adulthood,
the court or administrative body conducting the
hearing consults, in an age-appropriate manner,
with the child regarding the proposed permanency
or transition plan for the child; and (iv) if a child
has attained 14 years of age, the permanency plan
developed for the child, and any revision or addition
to the plan, shall be developed in consultation with
the child and, at the option of the child, with not
more than 2 members of the permanency planning
team who are selected by the child and who are
not a foster parent of, or caseworker for, the child,
except that the State may reject an individual so
selected by the child if the State has good cause to
believe that the individual would not act in the best
interests of the child, and 1 individual so selected
by the child may be designated to be the child’s

261a
Appendix H
advisor and, as necessary, advocate, with respect
to the application of the reasonable and prudent
standard to the child;5
(D) a child’s health and education record (as
described in paragraph (1)(A)) is reviewed and
updated, and a copy of the record is supplied to the
foster parent or foster care provider with whom the
child is placed, at the time of each placement of the
child in foster care, and is supplied to the child at
no cost at the time the child leaves foster care if
the child is leaving foster care by reason of having
attained the age of majority under State law;1
(E) in the case of a child who has been in foster
care under the responsibility of the State for 15
of the most recent 22 months, or, if a court of
competent jurisdiction has determined a child to
be an abandoned infant (as defined under State law)
or has made a determination that the parent has
committed murder of another child of the parent,
committed voluntary manslaughter of another
child of the parent, aided or abetted, attempted,
conspired, or solicited to commit such a murder
or such a voluntary manslaughter, or committed a
felony assault that has resulted in serious bodily
injury to the child or to another child of the parent,
the State shall file a petition to terminate the
parental rights of the child’s parents (or, if such a
petition has been filed by another party, seek to be
5. So in original. The semicolon probably should be a comma.

262a
Appendix H
joined as a party to the petition), and, concurrently,
to identify, recruit, process, and approve a qualified
family for an adoption, unless-(i) at the option of the State, the child is being
cared for by a relative;
(ii) a State agency has documented in the case
plan (which shall be available for court review)
a compelling reason for determining that filing
such a petition would not be in the best interests
of the child; or
(iii) the State has not provided to the family
of the child, consistent with the time period in
the State case plan, such services as the State
deems necessary for the safe return of the child
to the child’s home, if reasonable efforts of the
type described in section 671(a)(15)(B)(ii) of
this title are required to be made with respect
to the child;1
(f) a child shall be considered to have entered
foster care on the earlier of-(i) the date of the f﻿irst judicial finding that
the child has been subjected to child abuse or
neglect; or
(ii) the date that is 60 days after the date on
which the child is removed from the home;1

263a
Appendix H
(G) the foster parents (if any) of a child and any
preadoptive parent or relative providing care for
the child are provided with notice of, and a right to
be heard in, any proceeding to be held with respect
to the child, except that this subparagraph shall
not be construed to require that any foster parent,
preadoptive parent, or relative providing care for
the child be made a party to such a proceeding
solely on the basis of such notice and right to be
heard;
(h) during the 90-day period immediately prior
to the date on which the child will attain 18 years
of age, or such greater age as the State may elect
under paragraph (8)(B)(iii), whether during that
period foster care maintenance payments are being
made on the child’s behalf or the child is receiving
benefits or services under section 677 of this title,
a caseworker on the staff of the State agency, and,
as appropriate, other representatives of the child
provide the child with assistance and support in
developing a transition plan that is personalized
at the direction of the child, includes specific
options on housing, health insurance, education,
local opportunities for mentors and continuing
support services, and work force supports and
employment services, includes information about
the importance of designating another individual to
make health care treatment decisions on behalf of
the child if the child becomes unable to participate
in such decisions and the child does not have, or
does not want, a relative who would otherwise be

264a
Appendix H
authorized under State law to make such decisions,
and provides the child with the option to execute a
health care power of attorney, health care proxy,
or other similar document recognized under State
law, and is as detailed as the child may elect; and
(I) each child in foster care under the responsibility
of the State who has attained 14 years of age
receives without cost a copy of any consumer
report (as defined in section 1681a(d) of Title 15)
pertaining to the child each year until the child
is discharged from care, receives assistance
(including, when feasible, from any court-appointed
advocate for the child) in interpreting and resolving
any inaccuracies in the report, and, if the child is
leaving foster care by reason of having attained 18
years of age or such greater age as the State has
elected under paragraph (8), unless the child has
been in foster care for less than 6 months, is not
discharged from care without being provided with
(if the child is eligible to receive such document) an
official or certified copy of the United States birth
certificate of the child, a social security card issued
by the Commissioner of Social Security, health
insurance information, a copy of the child’s medical
records, and a driver’s license or identification
card issued by a State in accordance with the
requirements of section 202 of the REAL ID Act of
2005, and any official documentation necessary to
prove that the child was previously in foster care.

265a
Appendix H
(6) The term “administrative review” means a review
open to the participation of the parents of the child,
conducted by a panel of appropriate persons at least
one of whom is not responsible for the case management
of, or the delivery of services to, either the child or the
parents who are the subject of the review.
(7) The term “legal guardianship” means a judicially
created relationship between child and caretaker
which is intended to be permanent and self-sustaining
as evidenced by the transfer to the caretaker of the
following parental rights with respect to the child:
protection, education, care and control of the person,
custody of the person, and decisionmaking. The
term “legal guardian” means the caretaker in such a
relationship.
(8)(A) Subject to subparagraph (B), the term “child”
means an individual who has not attained 18 years of
age.
(B) At the option of a State, the term shall include
an individual-(i)(I) who i s i n fost er c a re u nder t he
responsibility of the State;
(II) with respect to whom an adoption
assistance agreement is in effect under
section 673 of this title if the child had
attained 16 years of age before the agreement
became effective; or

266a
Appendix H
(III) w ith respect to whom a kinship
guardianship assistance agreement is in
effect under section 673(d) of this title if the
child had attained 16 years of age before the
agreement became effective;
(ii) who has attained 18 years of age;
(iii) who has not attained 19, 20, or 21 years of
age, as the State may elect; and
(iv) who is-(I) completing secondary education or a
program leading to an equivalent credential;
(II) enrolled in an institution which provides
post-secondary or vocational education;
(III) participating in a program or activity
designed to promote, or remove barriers to,
employment;
(IV) employed for at least 80 hours per
month; or
(V) incapable of doing any of the activities
described in subclauses (I) through (IV) due
to a medical condition, which incapability is
supported by regularly updated information
in the case plan of the child.

267a
Appendix H
(9) The term “sex trafficking victim” means a victim
of-(A) sex trafficking (as defined in section 7102(10)
of Title 22); or
(B) a severe form of trafficking in persons
described in section 7102(9)(A) of Title 22.
(10)(A) The term “reasonable and prudent parent
standard” means the standard characterized by
careful and sensible parental decisions that maintain
the health, safety, and best interests of a child while
at the same time encouraging the emotional and
developmental growth of the child, that a caregiver
shall use when determining whether to allow a child
in foster care under the responsibility of the State to
participate in extracurricular, enrichment, cultural,
and social activities.
(B) For purposes of subparagraph (A), the term
“caregiver” means a foster parent with whom a
child in foster care has been placed or a designated
official for a child care institution in which a child
in foster care has been placed.
(11)(A) The term “age or developmentally-appropriate”
means-(i) activities or items that are generally
accepted as suitable for children of the same
chronological age or level of maturity or that are

268a
Appendix H
determined to be developmentally-appropriate
for a child, based on the development of
cognitive, emotional, physical, and behavioral
capacities that are typical for an age or age
group; and
(ii) in the case of a specific child, activities or
items that are suitable for the child based on the
developmental stages attained by the child with
respect to the cognitive, emotional, physical,
and behavioral capacities of the child.
(B) In the event that any age-related activities have
implications relative to the academic curriculum
of a child, nothing in this part or part B shall be
construed to authorize an officer or employee of the
Federal Government to mandate, direct, or control
a State or local educational agency, or the specific
instructional content, academic achievement
standards and assessments, curriculum, or
program of instruction of a school.
(12) The term “sibling” means an individual who
satisfies at least one of the following conditions with
respect to a child:
(A) The individual is considered by State law to be
a sibling of the child.
(B) The individual would have been considered
a sibling of the child under State law but for a
termination or other disruption of parental rights,
such as the death of a parent.

269a
Appendix H
(13) The term “child who is a candidate for foster
care” means, a child who is identified in a prevention
plan under section 671(e)(4)(A) of this title as being at
imminent risk of entering foster care (without regard
to whether the child would be eligible for foster care
maintenance payments under section 672 of this title
or is or would be eligible for adoption assistance or
kinship guardianship assistance payments under
section 673 of this title) but who can remain safely in
the child’s home or in a kinship placement as long as
services or programs specified in section 671(e)(1) of
this title that are necessary to prevent the entry of the
child into foster care are provided. The term includes a
child whose adoption or guardianship arrangement is
at risk of a disruption or dissolution that would result
in a foster care placement.

